Report No. D-2008-036        December 20, 2007




   FY 2006 DoD Purchases Made Through the
      U.S. Department of Veterans Affairs
  Additional Information and Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                             ODIG-AUD (ATTN: Audit Suggestions)
                             Department of Defense Inspector General
                             400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

AFMS                Air Force Medical Service
AFMSCC              Air Force Medical Service Commodity Council
ADA                 Antideficiency Act
COR                 Contracting Officer’s Representative
COTR                Contracting Officer’s Technical Representative
FAR                 Federal Acquisition Regulation
GAO                 Government Accountability Office
GSA                 General Services Administration
HAMS                Hospital Aseptic Management Services
IG                  Inspector General
MIPR                Military Interdepartmental Purchase Request
MOA                 Memorandum of Agreement
MTF                 Medical Treatment Facility
NMLC                Naval Medical Logistics Command
OIG                 Office of Inspector General
O&M                 Operations and Maintenance
PSC                 Personal Service Contract
QASP                Quality Assurance Surveillance Plan
USD(C)/CFO          Under Secretary of Defense (Comptroller)/Chief Financial Officer
USD(AT&L)           Under Secretary of Defense for Acquisition, Technology, and
                       Logistics
VA                  U.S. Department of Veterans Affairs
VASS                Veterans Affairs Special Services
VHA                 Veterans Health Administration
                             INSPECTOR GENERAL
 

                            DEPARTMENT OF DEFENSE
 

                              400 ARMY NAVY DRIVE
 

                         ARLINGTON , VIRGINIA 22202-4704
 





                                                                      December 20, 2007

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF DEFENSE FOR HEALTH
                 AFFAIRS
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: Report on FY 2006 DoD Purchases Made Through the U.S. Department of
         Veterans Affairs (Report No. D-2008-036)


      We are providing this report for information and use. We considered
management comments on a draft of this report in preparing the final report.

        Comments on the draft of this report conformed to the requirements of DoD
Directive 7650 .3 and left no unresolved issues. Therefore, no additional comments are
required.

        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Terry L. McKinney at (703) 604-9288 (DSN 664-9288) or Mr. Timothy E. Moore
at (703) 604-9282 (DSN 664-9282). See Appendix G for the report distribution. The
team members are listed inside the back cover.

                               By direction of the Deputy Inspector General for Auditing:




                                           Richard B. Jolliffe
 

                                     Assistant Inspector General
 

                                 Acquisition and Contract Management
 



cc: Inspector General , Veterans Affairs
                Department of Defense Office of Inspector General
Report No. D-2008-036                                                 December 20, 2007
   (Project No. D2006-D000CF-0244.000)

                    FY 2006 DoD Purchases Made Through
                    the U.S. Department of Veterans Affairs

                                 Executive Summary

Who Should Read This Report and Why? DoD contracting officials, program
managers, and financial managers should read this report because it discusses widely
misunderstood DoD guidance on planning, reviewing, and funding purchases made on
behalf of DoD.

Background. This is one of several reports on DoD purchases made through non-DoD
agencies. We performed the audit in accordance with Section 817, Public Law 109-364,
“John Warner National Defense Authorization Act for Fiscal Year 2007.” To comply
with the law, the Offices of the Inspectors General (OIG) DoD and the U.S. Department
of Veterans Affairs (VA) conducted an interagency audit of DoD purchases made
through the VA.

The VA has six contracting organizations that make purchases on behalf of DoD. In
FY 2006, DoD provided funds to the VA contracting activities to award 1,718 purchases
of goods and services valued at $373.0 million. The Air Force is the largest DoD user of
the VA, accounting for $327.0 million or 88 percent of the DoD purchases awarded
through the VA in FY 2006.

We performed the audit to evaluate the DoD procedures over DoD purchases made
through the VA. Specifically, we examined the policies, procedures, and internal
controls to determine whether there was a legitimate need for DoD to use the VA and
whether DoD clearly defined procurement requirements. Additionally, the interagency
review examined whether the VA and DoD properly used and tracked funds and whether
the VA complied with DoD requirements. A copy of this report will be provided to the
senior official responsible for internal controls in the Office of the Under Secretary of
Defense for Acquisition, Technology, and Logistics (USD[AT&L]).

Results. The VA contracting officials and DoD management officials did not
consistently comply with the Federal Acquisition Regulation and DoD procurement
regulations when making purchases through the VA. Of the 49 purchases reviewed at
DoD organizations, 46 were either hastily planned or improperly administered.
Specifically, DoD organizations lacked acquisition planning to determine the best source,
proper statutory authority, and required agreements for non-DoD contracts. The VA and
DoD organizations were also deficient in contract administration, including the
surveillance of contractor performance, assignment of contracting officer representatives,
preparation of quality assurance surveillance plans, and collection and recording of
contractor past performance.

Furthermore, 16 of 24 DoD purchases reviewed at the VA contracting activities were not
properly awarded. Specifically, 14 of the 24 purchases did not have adequate support for
price reasonableness determinations, and 8 of 11 purchases did not provide an adequate
justification for sole-source procurements. As a result, DoD organizations had no
assurance that the purchases were based on best value or that the VA used effective and
efficient acquisition procedures (finding A).

DoD correctly funded most purchases made through the VA that were entered into under
the authority of section 8111, title 38, United States Code. However, the Air Force
Surgeon General improperly used the VA’s Austin Acquisition Office to obtain leased
space through a service contract and improperly funded the Austin Automation Center to
procure services and equipment. In addition, the Austin Automation Center failed to
follow the Office of Management and Budget Business Rules for Intragovernmental
Exchange Transactions and DoD policy on advance payments. Consequently, DoD
organizations incurred six potential violations of the bona fide needs rule and the purpose
statute that could result in Antideficiency Act violations, valued at $4.4 million and DoD
was unable to properly account for interagency transactions because of advance
payments made on purchases by the Austin Automation Center (finding B).

The Army, Navy, and Air Force Military Departments had different approaches to
acquire medical supplies and services. As a result, DoD may be missing an opportunity
to leverage its expertise and buying power through standardized contracting practices
among the Military Departments. Standard military contracting practices for medical
support should result in better acquisitions at reduced prices (finding C).

Our review identified material internal control weaknesses. The DoD sites we visited
encountered problems while implementing and executing policy. Applying the
recommendations in this report should improve contracting and financial procedures for
orders awarded using non-DoD contracts. In addition, implementation of
recommendations should correct the material funding weaknesses identified in this
report. A copy of this report will be provided to the senior official responsible for
internal controls in the Office of the USD(AT&L).

The USD(AT&L) did not take action to address our recommendations in the “FY 2005
DoD Purchases Made Through General Services Administration” report (DoD Inspector
General Report No. D-2007-007, October 30, 2006), so we are again recommending that
the USD(AT&L) develop a training course that instructs contracting and program office
personnel on proper acquisition planning and contract administration for assisted
acquisitions, establish overall policies on acceptable contract administration roles and
responsibilities for interagency purchases, and finalize negotiations with the VA to
develop interagency agreements that specify agreed-upon roles and responsibilities
regarding contract administration and surveillance duties. The USD(AT&L) should work
with the VA to develop a corrective action plan that addresses the concerns identified in
this report. In addition, the USD(AT&L) should also advise VA that Defense
Acquisition University courses covering the preparation of sole-source justifications and
price reasonableness determinations are available to VA contracting officers. The
USD(AT&L) should negotiate with non-DoD agencies to determine the best method to
record contractor performance on all Government contractors and initiate and coordinate
a review with the Assistant Secretary of Defense for Health Affairs to assess whether the
Military Departments are purchasing medical goods and services through the most
efficient and effective methods. The Assistant Secretary of the Air Force (Financial
Management and Comptroller) needs to coordinate with the VA to amend the March 31,
2005, memorandum of agreement between the Deputy Surgeon General of the Air Force
and the VA Acting Deputy Assistant Secretary of Acquisition and Materiel Management
to specify the types of purchases that are permissible under the interagency agreement
between DoD and the VA.

                                            ii
The Under Secretary of Defense (Comptroller)/Chief Financial Officer should ensure that
the VA understands the current DoD policy on advance payments and funding purchases
when performing assisted acquisitions and ensure that guidance prohibiting advance
payments has been distributed to field activities and to non-DoD agencies that procure
goods and services on behalf of DoD. The USD(AT&L) should obtain an opinion from
the DoD General Counsel on the correct course of action to resolve the improper
payments and leasing arrangement. We also identified six potential funding violations,
which are listed in Appendix D. Although the Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer has taken actions to resolve most of the potential
violations, recommendations to the Under Secretary regarding any unresolved potential
violations will be contained in another DoD Inspector General audit report, “Potential
Antideficiency Act Violations on DoD Purchases Made Through Non-DoD Agencies
Update.” (See the Findings section of the report for the detailed recommendations).

Management Comments and Audit Response. The Director of Defense Procurement
and Acquisition Policy, responding for the USD(AT&L), concurred with
recommendations to develop a training course on proper acquisition planning and
contract administration, establish policy on contract administration roles and
responsibilities when purchasing goods and services through a non-DoD agency, and
finalize negotiations with the VA to develop interagency agreements that specify agreed-
upon roles and responsibilities for contract administration and surveillance duties. The
Director also concurred with recommendations to work with the VA to develop a
corrective action plan that addresses the concerns identified in this report, develop an
implementation plan for the VA/DoD corrective action plan, advise the VA that Defense
Acquisition University courses covering sole-source justifications and price
reasonableness determinations are available to VA contracting officers, negotiate with
non-DoD agencies to determine the best method to record contractor performance on all
Government contractors, and utilize the Past Performance Information Retrieval System.

The Air Force Deputy Surgeon General, responding for the Assistant Secretary of the Air
Force (Financial Management and Comptroller), concurred with the recommendation to
coordinate with the VA to amend the Air Force Medical Service-Veterans Affairs
memorandum of agreement to specify permissible purchases under the interagency
agreement and conform to provisions within the corrective action plan discussed above.

The Deputy Chief Financial Officer, responding for the Under Secretary of Defense
(Comptroller)/Chief Financial Officer, concurred with the recommendation to ensure that
VA and DoD personnel understand DoD policy on advance payments and recover
advance payments made to the VA Austin Automation Center that have not been
expended. The Director of Defense Procurement and Acquisition Policy stated that the
potentially improper payments and leasing issue will be resolved. Finally, the Director
concurred with the recommendation to assess whether Military Departments are
purchasing medical goods and services through the most efficient and effective methods.
See the Findings section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.

Although no comments were required, the Air Force Deputy Surgeon General provided
unsolicited comments to Finding A. The Deputy Surgeon General stated that Air Force
purchases were procured within the scope of the VA-DoD Health Care Resource Sharing
Act statutory authority; he disagreed that the definition of health care resources is clearly
defined in the VA-DoD Health Care Resource Sharing Act. The Deputy Surgeon
General stated that the Task Force on Improvement of DoD Medical Care is aware that
the Act requires clarification to reflect Congress’ intent on the scope of DoD-VA sharing,
and informed our office that the Air Force Medical Service-Veterans Affairs

                                             iii
memorandum of agreement will be rewritten to clarify contracting services. Finally, the
Deputy Surgeon General stated that the Hospital Aseptic Management Services program
does have a quality assurance surveillance plan that is based on customer complaint
methodologies.

The Acting Director, VA Corporate Franchise Data Center also provided unsolicited
comments to Finding B. The Acting Director stated his office awarded contracts in
compliance with DoD guidance dated September 2003. The Acting Director also stated
that advance payments to contractors were not made. The Acting Director said that
contractor payments were made in arrears for services or products received and accepted
in accordance with Federal procurement laws and regulation.

We agree that purchases for roof repairs, printers, furniture, radios, strategic services
support, and manpower resource management support were appropriately awarded under
the VA-DoD Health Care Sharing Act. We also agree that the Air Force Medical
Service-Veterans Affairs memorandum of agreement should be clarified to specify which
contracting services are within the scope of the agreement. Despite the Deputy Surgeon
General’s comments, there was no quality assurance surveillance plan provided for the
purchase. Rather, quality assurance personnel relied on customer complaints to
determine whether the contractor complied with the terms and conditions of the contract.
Without a quality assurance surveillance plan, the Government cannot ensure efficient
methods are used during contract performance. Regarding funding, the Austin
Automation Center used outdated DoD guidance to procure goods and services and
collected advance payments that were not in accordance with Government policy.




                                           iv
Table of Contents 


Executive Summary                                                              i


Background                                                                     1


Objective                                                                      3


Review of Internal Controls                                                    4


Findings
     A. DoD Use of VA-Assisted Acquisitions                                    5

     B. Funding of DoD Purchases Made Through the U.S. Department of 

          Veterans Affairs                                                    24 

     C. Military Departments Contracting Approach for the Procurement of

          Medical Supplies and Services                                       35 


Appendixes
     A.    Scope and Methodology                                              41 

     B.    Prior Coverage                                                     44 

     C.    Identified Contract Problems                                       46 

     D.    Potential Antideficiency Act Violations That Occurred in FY 2006   48 

     E.    Other Identified Contract Problems                                 50 

     F.    DoD MIPRs to VA in Audit                                           52 

     G.    Report Distribution                                                60 


Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics    63 

     Under Secretary of Defense (Comptroller)/Chief Financial Officer         67 

     Assistant Secretary of the Army (Policy and Procurement)                 73 

     Assistant Secretary of the Air Force (Financial Management and
           Comptroller)                                                       75
     U.S. Department of Veterans Affairs                                      84 

Background
    This audit was performed as required by section 817, Public Law 109-364, “John 

    Warner National Defense Authorization Act for Fiscal Year 2007,” 

    October 17, 2006. Section 817 states: 


    “(a) INSPECTOR GENERAL REVIEWS AND DETERMINATIONS.—
          (1) IN GENERAL.—For each covered non-defense agency, the Inspector
    General of the Department of Defense and the Inspector General of such
    non-defense agency shall, not later than March 15, 2007, jointly—
            (A) Review—
                  (i) the procurement policies, procedures, and internal controls of
            such non-defense agency that are applicable to the procurement of
            property and services on behalf of the Department by such non-defense
            agency; and
                  (ii) the administration of those policies, procedures, and internal
            controls; and
            (B) Determine in writing whether—
                  (i) such non-defense agency is compliant with defense procurement
            requirements;
                  (ii) such non-defense agency is not compliant with defense
            procurement requirements, but has a program or initiative to significantly
            improve compliance with defense procurement requirements;
                  (iii) neither of the conclusions stated in clauses (i) and (ii) is correct
            in the case of such non-defense agency; or
                  (iv) such non-defense agency is not compliant with defense
            procurement requirements to such an extent that the interests of the
            Department of Defense are at risk in procurements conducted by such
            non-defense agency.”

    To comply with the FY 2007 National Defense Authorization Act, the Offices of
    the Inspectors General (OIG) DoD and U.S. Department of Veterans Affairs (VA)
    conducted an interagency audit of DoD purchases made through the VA. This
    report addresses problems noted during the review. The DoD OIG transmitted a
    summary of the review to Congress on March 15, 2007. In addition, DoD OIG
    provided a briefing to staffers working for the Senate Armed Services Committee
    on March 29, 2007. The VA OIG transmitted a separate summary of its review to
    Congress on April 13, 2007. The law requires a second review if our initial
    review disclosed problems.

    The VA mission is to provide America’s veterans and their families with medical
    care benefits and social support. The VA is divided into three subdivisions: the
    Veterans Health Administration (VHA), the Veterans Benefits Administration,
    and the National Cemetery Administration. Currently there are 154 VA medical
    centers and more than 235,000 VA personnel. The VA is the second largest
    Federal department. According to the VA fact sheet, the FY 2006 budget request
    was for $73.0 billion. The VA was established on March 15, 1989, succeeding
    the former Veterans Administration that was established July 21, 1930.




                                            1

The VA organization comprises several contracting organizations including the
Austin Acquisition Operation, the Austin Automation Center, the Denver
Acquisition and Logistics Center, the Joint Venture Acquisition Center, Veterans
Affairs Special Services (VASS), and the National Acquisition Center that all
make purchases on behalf of DoD.

In FY 2006, DoD provided funds to the VA contracting activities to award
1,718 purchases of goods and services valued at $373.0 million. The Air Force is
the largest DoD user of the VA, accounting for approximately $327.0 million or
88 percent of the DoD purchases awarded through the VA in FY 2006. We
visited 12 DoD and 5 VA organizations, and reviewed 124 Military
Interdepartmental Purchase Requests (MIPR) totaling $128.3 million for
58 purchases.

DoD Use of the VA. The Military Departments generally use the services of the
VA contracting organizations to award contracts under section 8111, title 38,
United States Code (38 U.S.C. 8111), “Sharing of Department of Veterans Affairs
and Department of Defense Health Care Resources” (VA-DoD Health Care
Resources Sharing Act) statutory authority. The VA and Office of the Air Force
Surgeon General established a March 31, 2005, memorandum of agreement
(MOA) that states the Air Force will use the VA as its primary contracting
support for health care-related acquisitions. DoD uses MIPRs to transfer funds to
the VA when using assisted acquisition services.

       VA-DoD Health Care Resources Sharing Act. Congress encourages the
VA and DoD to share resources through the VA-DoD Health Care Resources
Sharing Act. The sharing act states:

       The Secretary of Veterans Affairs and the Secretary of Defense shall
       enter into agreements and contracts for the mutually beneficial
       coordination, use, or exchange of use of the health care resources of the
       Department of Veterans Affairs and the Department of Defense with
       the goal of improving the access to, and quality and cost effectiveness
       of, the health care provided by the Veterans Health Administration and
       the Military Health System to the beneficiaries of both departments.

        Memorandum of Agreement. The Deputy Surgeon General of the
Air Force and the VA Acting Deputy Assistant Secretary, Office of Acquisition
and Materiel Management signed an MOA, effective March 31, 2005, for
Air Force contract support from the VA. The MOA was entered into under the
authority of 38 U.S.C. 8111 and 10 U.S.C. 1104. The MOA supersedes the
Service Legal Agreement between the Air Force Medical Logistics Office and the
Department of Veterans Affairs National Acquisition Center, dated July 7, 1995.
The VA-Office of the Air Force Surgeon General MOA states:

       This MOA establishes a medical contracting service network for
       acquisition and procurement activities to facilitate the provision of
       Air Force Medical Service (AFMS) procurement requirements,
       increase efficiency of operations, and reduce cost of operations in
       accordance with the VA/DoD Joint Strategic Plan (April 2003). The




                                          2

            AFMS will be the customer of the services provided under this
            agreement and will use this service network on a voluntary basis.

            DoD MIPRs to the VA. DoD uses the MIPR (DoD Form 448) to transfer
    funds within Military Departments and to other Federal agencies’ servicing
    organizations. Most DoD MIPRs sent to the VA are authorized under the VA-
    DoD Health Care Resources Sharing Act. The VA policy limits interagency
    contracting authority to goods or services normally obtained by the VA in the
    course of carrying out its mission. The Austin Automation Center uses the
    Government Management Reform Act of 1994 to procure information
    technology-related goods and services. Purchases made under these two statutory
    authorities are categorized as non-Economy Act orders. Accordingly, the
    requirements of DoD Financial Management Regulation, Volume 11A, Chapter 3,
    “Economy Act Orders,” do not apply.

    The VA Initiatives Implementation. The VA is implementing several
    initiatives in response to the VA Inspector General (IG) Report No. 04-03178-
    139, “Audit of VA Acquisitions for Other Government Agencies,” May 5, 2006,
    to improve problems noted regarding compliance with Federal Acquisition
    Regulation (FAR) and the VA acquisition regulations. These initiatives include
    developing specialized training for contracting officers making DoD purchases,
    implementing quality assurance controls, conducting program reviews of all
    Office of Acquisition and Material Management contracting offices, developing
    tools and procedures to assist contracting officers in complying with Defense
    procurement requirements, continuously monitoring compliance with Defense
    procurement requirements, and limiting purchases made on behalf of other
    Government agencies to those normally obtained to carry out the VA mission.

    Allegations of Fraud, Waste, and Abuse. During the course of this audit, we
    interviewed a DoD contracting officer’s representative (COR) (assigned by a VA
    contracting officer) who made allegations of fraud, waste, and abuse on three
    contracts awarded and administered by Veterans Health Affairs contracting
    activities. The contracting activities under the Office of Veterans Health Affairs
    no longer provide contracting services to DoD because of numerous discrepancies
    reported in VA Report No. 04-03178-139. The three contracts were at the end of
    FY 2005 and were outside the scope of this audit. At the request of Veterans
    Affairs officials, we referred the contracts to the Veterans Affairs Office of
    Inspector General for investigation. We have been informed that the three
    contracts are currently being reviewed by the Veterans Affairs Office of
    Counselor to the Inspector General.


Objective
    Our overall audit objective was to evaluate the DoD procedures over DoD
    purchases made through the VA. Specifically, we examined the policies,
    procedures, and internal controls to determine whether there was a legitimate
    need for DoD to use the VA, and whether DoD clearly defined its requirements.
    Additionally, the interagency review examined whether the VA and DoD properly
    used and tracked funds, and whether the VA complied with Defense procurement


                                           3

     requirements. See Appendix A for a discussion of the scope and methodology.
     See Appendix B for prior coverage related to the objectives.



Review of Internal Controls
     We identified material internal control weaknesses as defined by DoD
     Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
     January 4, 2006. DoD organizations were required to ensure the acquisition
     strategy was in the best interest of the Government. The sites we visited
     encountered problems while implementing and executing policy. Furthermore,
     contracting, financial, and accounting officials did not comply with regulations
     and statutes. DoD organizations should incorporate the regulations and statutes
     associated with contracting and funding. Contracting, financial, and accounting
     officials should have the necessary training and knowledge to properly execute
     the orders. Implementing the recommendations in this report should improve
     contracting and financial procedures for contracts and orders awarded using non-
     DoD agencies. It should also correct the material weaknesses identified in this
     report. A copy of this report will be provided to the senior official responsible for
     internal controls in the Office of the Under Secretary of Defense for Acquisition,
     Technology, and Logistics.




                                           4

                    A. DoD Use of VA-Assisted Acquisitions
                    The VA contracting officials and DoD management officials did not
                    consistently comply with FAR and DoD procurement regulations and
                    guidance when making purchases through the VA. Of the 49 purchases
                    reviewed at DoD organizations, 46 were either hastily planned or
                    improperly administered and there was no collection and recording of
                    contractor past performance information by DoD organizations on the VA
                    contracts. Specifically,

                         •	 DoD organizations often lacked acquisition planning to determine
                            the best source, proper statutory authority, and required
                            agreements for non-DoD contracts; and

                         •	 the VA and DoD organizations were deficient in contract
                            administration, including the surveillance of contractor
                            performance, assignment of CORs, and preparation of quality
                            assurance surveillance plans (QASP).

                    On 16 of 24 purchases 1 reviewed at the VA contracting activities, the VA
                    contracting officials did not properly award DoD purchases. Specifically,

                         •	 on 14 of the 24 purchases, the VA contracting officials did not
                            have adequate support for price reasonableness determinations;
                            and

                         •	 on 8 of 11 sole-source purchases, 2 the VA contracting officials did
                            not provide adequate justification for sole-source procurements.

                    This occurred because the VA and DoD officials were unclear about
                    interagency acquisition requirements. As a result, DoD organizations
                    making purchases through the VA had no assurance that the purchases
                    were based on best value or that the VA used effective and efficient
                    acquisition procedures.

Criteria
           Acquisition Planning Criteria. FAR Part 7, “Acquisition Planning,” details the
           Federal requirements for acquisition planning. FAR 7.102 states that agencies
           must perform acquisition planning for all acquisitions: “This planning shall
           integrate the efforts of all personnel responsible for significant aspects of the
           acquisition. The purpose of this planning is to ensure that the Government meets
           its needs in the most effective, economical, and timely manner.”

1
    Fifteen of 24 purchases were also reviewed at DoD organizations, while the other 9 were solely reviewed
     at VA organizations. See the Appendix A “Purchases Reviewed” table and Appendix C, “Identified
     Contract Problems,” for detailed information on DoD and VA locations visited to review the purchases.
2
    Eleven of the 24 purchases reviewed at VA contracting activities were sole-source procurements.



                                                       5

FAR 7.105 requires organizations to consider acquisition alternatives and
prospective sources of supplies and services that will meet their need.

FAR Part 10, “Market Research,” requires that agencies use the results of market
research to determine the sources capable of satisfying the agency’s requirements.

Proper Use of Non-DoD Sources of Supply. The Principal Deputy Under
Secretary of Defense (Comptroller) and Acting Under Secretary of Defense for
Acquisition, Technology, and Logistics issued an October 29, 2004,
memorandum, “Proper Use of Non-DoD Contracts” (DoD October 29, 2004,
Memorandum). The memorandum directs Military Departments and Defense
agencies to establish procedures for reviewing and approving the use of non-DoD
contract vehicles when procuring supplies and services on or after January 1,
2005, for amounts exceeding the simplified acquisition threshold. The procedures
for assisted acquisitions must include evaluating whether using a non-DoD
contract is in the best interest of DoD; determining that services and supplies are
within the scope of the contract used; reviewing funding to ensure it is in
compliance with appropriation limitations; providing unique terms, conditions,
and requirements to the assisting agency for incorporation into the order or
contract, thus ensuring the contract is in compliance with DoD-unique statutes,
regulations, directives, and other requirements; and collecting data on the use of
assisted acquisitions for analysis.

DoD Policy on Interagency Agreements. DoD Instruction 4000.19,
“Interservice and Intragovernmental Support,” August 9, 1995, implements
policies, procedures, and responsibilities for intragovernmental support as a result
of agreements among Federal Government organizations. DoD organizations
may enter into interagency agreements with non-DoD Federal agencies when
funding is available to pay for the support, the agreement is in the best interest of
the Government, the supplying agency is able to provide the support, the support
cannot be provided as conveniently or economically by a commercial enterprise,
and the agreement does not conflict with any other agency’s authority.

DoD Financial Management Regulation volume 11A, chapter 1, “General
Reimbursement Procedures and Supporting Documentation,” March 1997, details
interagency agreement documentation required to support evidence of a formal
offer and acceptance between the grantor and grantee of the order. The minimum
essential documentation includes the authority to enter into the memorandum of
understanding, a description of the material or services required, the established
dollar limits, financial source or fund citation, delivery requirements, payment
provisions, duration of the agreement, and the form in which specific orders
against the memorandum of understanding or MOA will be placed.

The DoD Deputy Chief Financial Officer issued a March 24, 2005, memorandum,
“Proper Use of Interagency Agreements for Non-Department of Defense
Contracts Under Authorities Other Than the Economy Act” (DoD
March 24, 2005, Memorandum). This memorandum, in conjunction with the
DoD October 29, 2004, Memorandum, establishes DoD policy on assisted
acquisitions such as those completed by the VASS and ensures that interagency
agreements (under authorities other than the Economy Act) for non-DoD
contracts are used in accordance with existing laws and DoD policy.


                                      6

MIPR Guidance. Section 1501, title 31, U.S.C, “Documentary Evidence 

Requirement for Government Obligations,” requires a binding, written agreement 

between two agencies that will report the specific goods to be delivered, real

property to be bought or leased, or work or services to be provided. Defense 

Federal Acquisition Regulation Supplement 253.208-1, “Military 

Interdepartmental Purchase Requests,” requires reporting a realistic time of

delivery or performance on each MIPR. 


Price Reasonableness and Sole-Source Requirements. FAR Subpart 15.4,

“Contract Pricing,” states that the contracting officer is responsible for obtaining 

sufficient information that is adequate for determining price reasonableness or 

cost realism; evaluating the reasonableness of the offered prices; and purchasing 

supplies and services from responsible sources at fair and reasonable prices. 

FAR 15.406-3, “Documenting the Negotiation,” states that the contracting officer 

must document in the contract file the principal elements of the negotiation 

agreement including documentation of fair and reasonable pricing. 


FAR Subpart 8.4, “Federal Supply Schedules,” states that the General Service

Administration (GSA) has already determined that prices of supplies and 

fixed-price services, and rates for services offered at hourly rates, under schedule

contracts are fair and reasonable. However, FAR 8.405, “Ordering Procedures for 

Federal Supply Schedules,” states that services requiring a statement of work 

require the ordering activity to consider the level of effort and the mix of labor 

proposed to perform a specific task being ordered when determining that the total 

price is reasonable. 


FAR Subpart 6.3, “Other Than Full and Open Competition,” provides sole-source 

restrictions for most contracts. FAR Subpart 16.5, “Indefinite-Delivery

Contracts,” provides sole-source restrictions for multiple-award contracts. 

FAR Subpart 8.4 provides the restrictions for supply schedule contract actions. 


FAR 8.405-6, “Limited Sources Justification and Approval,” lists the 

circumstances that may justify restrictions to competition for orders placed under 

Federal supply schedules: 

       (1) only one source is capable of responding due to the unique or
       specialized nature of the work; (2) the new work is a logical follow-on
       to an original Federal Supply Schedule order provided that the original
       order was placed in accordance with the applicable Federal Supply
       Schedule ordering procedures. The original order must not have been
       previously issued under sole source or limited source procedures; (3)
       an urgent and compelling need exists, and following the ordering
       procedures would result in unacceptable delays.

Surveillance Requirements. FAR 46.103, “Contracting Office
Responsibilities,” provides that contracting offices are responsible for receiving a
QASP from the requesting activity when contracting for services.

According to FAR Subpart 46.4, “Government Contract Quality Assurance,” a
QASP should be prepared in conjunction with preparation of the statement of



                                         7

work and should specify all work requiring surveillance and the method of
surveillance.

FAR Subpart 37.6, “Performance-Based Acquisition,” addresses QASP
requirements for performance-based contracts. It requires agencies to develop
QASPs when acquiring services that contain measurable inspection and
acceptance criteria corresponding to the performance standards contained in the
statement of work.

Past Performance Requirements. FAR 42.15 “Contractor Performance
Information,” states:

       Past performance information is relevant information, for future source
       selection purposes . . . It includes, for example, the contractor’s record
       of conforming to contract requirements and to standards of good
       workmanship; the contractor’s record of forecasting and controlling
       costs . . . interim evaluations should be prepared as specified by the
       agencies to provide current information for source selection purposes,
       for contracts with a period of performance, including options,
       exceeding one year.

Recently Issued DoD Guidance. The Acting Deputy Chief Financial Officer
issued an October 16, 2006, memorandum, “Non-Economy Act Orders” (DoD
October 16, 2006, Memorandum). The memorandum prescribes policy and
procedures applicable to DoD procurement of goods and services from non-DoD
agencies under statutory authority other than the Economy Act. The
memorandum directs Military Departments to comply with FAR Part 7, and DoD
Components’ procedures for the DoD October 29, 2004, Memorandum.
Furthermore, all non-Economy Act orders exceeding $500,000 must be reviewed
by a DoD-warranted contracting officer prior to sending the orders to the funds
certifier or issuing MIPRs to the non-DoD activity.

The memorandum states non-Economy Act orders for work and services outside
of DoD should be executed through the use of MIPRs. If an alternative execution
document is used, it must provide information consistent with the MIPR. Non-
Economy Act orders must include a detailed description, specific performance or
delivery requirements, proper fund citation, payment terms and conditions,
specific non-Economy Act statutory authority, and the DoD Activity Address
Code. Finally, the memorandum directs the requesting official to establish
QASPs for non-Economy Act orders exceeding the simplified acquisition
threshold. The requirement facilitates the oversight of goods and services for the
performing agency. The plans should include contract administration oversight in
accordance with the surveillance plan, procedures for receipt and review of
receiving reports and invoices from the performing agency, reconciliation of
receiving reports and invoices, and requirements for documenting acceptance of
the goods received or services performed.




                                           8

Acquisition Planning for VA-Assisted Contracting
           We visited 12 DoD organizations that sent funds to the VA using MIPRs for the
           purchase of goods and services. All 12 DoD organizations did not always:

                    •	 perform acquisition planning documenting that the VA was the best
                       source for procurement of goods and services;

                    •	 enter into interagency agreements with the VA that were specific,
                       definite, and certain; or

                    •	 properly complete the MIPRs used to fund their purchases.

           Acquisition Planning. On 35 of 49 purchases reviewed, DoD organizations did
           not document acquisition planning that determined contracting through the VA
           was in the best interest of the Government. The FAR requires acquisition
           planning for all procurements of goods and services as soon as an agency
           identifies a need. During initial acquisition planning DoD organizations should
           determine the best way to purchase goods or services and have this decision
           reviewed by a warranted DoD contracting officer. The requiring activity is
           required to use the results of market research to determine the sources capable of
           satisfying the agency’s requirements.

           For instance, the National Guard Bureau, a joint bureau of the Departments of the
           Army and Air Force, used the VA Austin Automation Center for the purchase of
           manpower resource management support. The National Guard Bureau did not
           justify that the use of the VA was in the best interest of DoD. Instead, the
           designated National Guard Bureau contracting officer’s technical representative
           (COTR) 3 stated that the VA contracting office developed the acquisition plan and
           further explained that she did not know why the VA was chosen to make the
           purchase. Requiring activities are primarily responsible for preparing acquisition
           plans because only the requiring activity is capable of documenting requirements.

           In another instance, the Air Force 96th Medical Group prepared a boilerplate best
           interest determination for the purchase of Obstetrics and Gynecology Nurse
           Practitioners services. The boilerplate determination states:
                    use of a non-DoD contract is in the best interest of the Air Force
                    considering the factors of satisfying customer requirements, cost
                    effectiveness and price, delivery schedule, nonavailability of a suitable
                    contract within DoD, contract administration, small business operations
                    and any other factors as applicable.

           The boilerplate statement does not explain the supporting rationale on why the
           use of the non-DoD contract is in the best interest of the Air Force. DoD
           organizations must explain the reason why the use of non-DoD contract vehicles
           are in the best interest of DoD, rather than sign a pre-prepared boilerplate

3
    COR and COTR are used interchangeably to refer to a person officially designated in writing by a
    contracting officer to act as a representative.



                                                       9

statement. Adequate planning will ensure surcharges are paid only when
necessary and assist in preventing the procurement of goods and services at
unreasonable prices.

When DoD purchases are awarded through non-DoD vehicles, a service fee is
usually charged by the servicing agency. Assisted acquisitions awarded through
the VASS charge 1 percent for Federal supply schedule purchases and 2 percent
for placing orders against existing or new contracts. The VASS maximum
surcharge is $25,000 for any single purchase unless approved by both DoD and
the VA in advance, while the minimum surcharge is $175.

The Austin Acquisition Office, the Austin Automation Center, the Denver
Acquisition and Logistics Center, the Joint Venture Acquisition Center, and the
National Acquisition Center contracting organizations charge between 1 and
3 percent for awarding assisted acquisitions. These five VA contracting
organizations do not have a maximum surcharge. In FY 2006, DoD sent the VA
contracting organizations $373.0 million for new orders and modifications to
existing orders and paid VA surcharges of $6.0 million. Of the $373.0 million,
$178.6 million was sent to the VASS. The VASS surcharges totaled $1.6 million,
just under 1 percent of contracts awarded. The balance of $194.4 million sent to
the other five VA contracting organizations had VA surcharges totaling
$4.4 million, or 2.3 percent. DoD should closely evaluate all of the VA
contracting options when making health care resource purchases through the VA.
In most cases, the VASS will be more economical because of its surcharge
ceiling. However, all of these surcharges might have been put to better use if
using a DoD contracting officer or a different non-DoD contracting office that did
not charge fees had been a viable option.

Interagency Agreements. On 33 of 49 purchases reviewed, DoD officials did
not have an adequate interagency agreement with the VA outlining the terms and
conditions of the purchase. While preparing interagency agreements, DoD
officials did not comply with DoD Instruction 4000.19 and Financial
Management Regulation volume 11A, chapter 1 requirements. These standards
require detailed descriptions of the procured goods and services, disclosure terms
and conditions for the procurement services, and the authority for entering into
the agreement. The DoD March 24, 2005, Memorandum, in conjunction with the
DoD October 29, 2004, Memorandum, mandates that supplies and services
acquired by placing an order under a non-DoD contract will be consistent with
DoD statutory and regulatory requirements applicable to the acquisition and
requirements for use of DoD-appropriated funds.

For instance, the Air Force 311th Human Systems Wing did not prepare a specific
interagency agreement for the purchase of an emergency care simulator.
Specifically, the interagency agreement for the delivery order lacked the delivery
requirements. The DoD Financial Management Regulation requires that the
delivery requirements be included within the interagency agreement.
Furthermore, the Air Force Medical Logistics Letter (a newsletter published by
the Air Force Medical Support Agency to provide medical logistics information
to Air Force medical activities) recommends that delivery requirements be
included within the procurement package sent to the VASS. The Air Force
Medical Logistics Letter also states that including the delivery date is


                                    10 

    recommended to inform the VASS of the requirement’s urgency and to increase
    the probability that the item will be received when needed. Other inadequate
    interagency agreements lacked detailed descriptions, periods of performance,
    delivery requirements, authority statements, and surveillance roles. In addition,
    the AFMS-VA MOA should specify the types of purchases that are permissible
    between DoD and VA. Specific interagency agreements should be developed in
    accordance with DoD standards, and all involved parties should ensure that they
    conform to the terms and conditions of the interagency agreement.

    MIPR Preparation. Of 124 MIPRs reviewed, 75 did not contain the required
    information necessary for interagency transactions. DoD organizations issued
    MIPRs that either lacked a detailed description of the goods or services to be
    acquired, failed to specify the period of performance for purchased services and
    delivery requirements for goods, or omitted the funding statement required by the
    USD(C)/CFO March 27, 2006, memorandum, “Proper Use of Interagency
    Agreements with Non-Department of Defense Entities Under Authorities Other
    Than the Economy Act” (DoD March 27, 2006, Memorandum). For example,
    38 of 43 MIPRs (totaling $69 million) that were sent to the VA and dated after the
    effective date of the March 27, 2006, Memorandum, did not include the funding
    statement required by that memorandum. The funding statement states, “these
    funds are available for services for a period not to exceed one year from the date
    of obligation and acceptance of this order. All unobligated funds shall be
    returned to the ordering activity no later than one year after the acceptance of the
    order or upon completion of the order, which ever is earlier.” In the case of
    goods, the memorandum requires that interagency funding documents include the
    statement, “I certify that the goods acquired under this agreement are legitimate,
    specific requirements representing a bona fide need of the fiscal year in which
    these funds are obligated.” It appears that the March 27, 2006, requirements
    guidance is not being disseminated to the DoD working level.

    When preparing a MIPR, DoD organizations should either list or include a
    reference to an interagency agreement, statement of work, task order,
    modification, or other contractual document that contains a specific description of
    goods and services being procured. This should also include the expected periods
    of performance and the DoD March 27, 2006, Memorandum required funding
    statement, to provide a sound basis for the use of DoD funds.

Contract Administration
    DoD and the VA officials did not clearly delineate administrative roles and
    responsibilities for monitoring contractor performance or methods for collecting
    and recording past performance information into DoD past performance
    databases. Contract administration includes functions conducted by Government
    personnel from the awarding of the contract through contract termination.
    Furthermore, contract administration includes the elements of surveillance and
    documentation of past performance.

    Delineation of Surveillance Roles and Responsibilities. Nineteen of 49
    purchases reviewed at DoD organizations did not clearly delineate the roles and
    responsibilities for contract administration. For the 30 purchases with adequate


                                        11 

           delineation of contract administration duties, DoD COTRs generally knew they
           were responsible for monitoring performance of each task or delivery order
           placed through the VA. Nevertheless, even when delineated in the MOA, DoD
           COTRs were not always aware of the specific surveillance procedures they were
           required to perform during the contract performance. Six of 30 purchases with
           adequately delineated contract administration duties did not prepare QASPs to
           monitor contractor performance. The DoD October 16, 2006, Memorandum
           clarifies DoD surveillance duties and procedures by requiring the requesting
           official to establish QASPs for non-Economy Act orders in excess of the
           simplified acquisition threshold. DoD organizations must implement the recently
           issued guidance that clarifies roles and responsibilities for non-Economy Act
           orders.

                   DoD Contracting Officers’ Representatives. The VA contracting
           officers did not identify DoD personnel as CORs on 28 of 47 purchases
           reviewed. 4 Thirteen of the 28 purchases did not have clear procedures explaining
           the specific surveillance steps DoD personnel should perform. Defense Federal
           Acquisition Regulation Supplement Subpart 201.6, “Contracting Authority and
           Responsibilities,” states that contracting officers may designate a properly trained
           COR in writing prior to contract performance to assist in technical monitoring or
           administration of a contract. The MOA between the Air Force and the VA states
           that for task and delivery orders placed through the VASS or other VA
           contracting offices, the applicable VA contracting officer will appoint in writing a
           COR at the MTF or appropriate Air Force Medical Service organization located at
           the place of performance for each action.

           Moreover, contracting personnel did not always follow their assigned roles and
           responsibilities when those duties were clearly delineated between the VA and
           DoD personnel. In one case, the VA contracting personnel failed to comply with
           their contract-delineated roles and responsibilities. Specifically, the VASS
           refused to modify 10 contracts (1 of the 10 contracts was within our sample
           review) to ensure the contractor was paid for work performed. The one purchase
           was for pharmacy service that was initially awarded through the VHA office in
           Tampa, Florida. However, the VHA Tampa office lost its authority to support
           DoD purchases. The VHA Tampa office contracts were then moved to the VASS
           located at Fort Detrick, Maryland. The VA returned funds on the pharmacy
           service contract to the Air Force 96th Medical Group through a MIPR Acceptance
           form, but did not cancel the contract. Later the Air Force 96th Medical Group
           requested that the VASS modify the contract to add FY 2006 funds so that the
           contractor could be paid for work that had been performed.

           The VASS suggested that the Air Force 96th Medical Group coordinate with the
           Eglin Air Force Base contracting office to ratify the contract or use the
           Government Purchase Card to pay the contractor invoices. The VASS did not
           comply with the Defense Federal Acquisition Regulation Supplement requirement
           by refusing the DoD requiring activity the opportunity to amend the contract.
           Defense Federal Acquisition Regulation Supplement 208.7004, “Procedures,”
           states that when the accepting activity requires additional funds to complete this

4
    Unable to determine whether there were CORs for one purchase at Air Force Medical Operations Agency
    (Fort Detrick) and one purchase at Air Combat Command due to the inability to interview CORs.



                                                    12 

           contract action for the requiring activity, the request for funds should identify the
           items involved and reason why funds are needed. The requiring activity must
           provide funds through a MIPR amendment or reduce the requirement. In
           addition, the VA-Office of the Air Force Surgeon General MOA requires that the
           VA provide a broad array of support services. Specifically, the VA executes
           contracts and the Air Force monitors contractor performance. The VA did not
           provide the Air Force 96th Medical Group support required under the fee-for-
           service agreement.

           DoD Surveillance Plans. Eighteen of 34 purchases reviewed 5 did not include
           adequate surveillance plans, while 16 purchases had adequate surveillance plans
           that met FAR requirements. Without adequate surveillance plans there was no
           assurance that work was actually monitored or the methods used to perform
           surveillance were sufficient. DoD should develop QASPs in conjunction with the
           preparation of the statement of work. The QASPs should specify all work
           requiring surveillance and the method of surveillance when monitoring contractor
           performance on service contracts. The method of surveillance should focus on
           how the work requiring surveillance will be evaluated. Preparing adequate
           QASPs will assist DoD requiring organizations in determining whether the
           contractor is being efficient and effective and in identifying areas requiring
           improvements. Labor hour and time-and-material contracts require more
           surveillance than firm-fixed-price contracts. The following table identifies the
           contract types for each of the 18 purchases that did not have a QASP.

                                 Purchases Without QASP Contract Types

           Contract Type                               Total                     Percent
           Labor Hour                                   12                         67
           Time-and Materials                           2                          11
           Firm-Fixed-Price                             4                          22

                   DoD Organizations Without QASPs. Government contracts without a
           QASP increase the potential for confusion and misinterpretation when
           surveillance personnel conduct reviews. For instance, the Air Force Medical
           Operations Agency (Brooks-City Base) did not have a QASP for the
           $39.0 million Hospital Aseptic Management Services (HAMS) purchase. The
           VA contracting officer stated that there was a DoD COTR; however, the DoD
           COTR identified by the VA stated that he was not the COTR and was not
           officially designated as the DoD COTR for the purchase. The VA-identified DoD
           COTR did not maintain a contract file. He explained that DoD monitors
           contractor performance through customer complaints and invoice reviews. DoD
           and the VA were unable to agree on whether there was an assigned COTR for the
           overall purchase. The VA contracting officer stated that he sends contract copies
           to the DoD COTR and does “not see any reason why DoD has to maintain
           contract documentation since the VA has copies of all contract documentation.”
           DoD personnel must document their surveillance efforts and demonstrate that

5
    Fourteen of the purchases reviewed were for goods and dated prior to October 16, 2006; therefore, those
    purchases did not require a quality assurance surveillance plan. We were unable to determine whether an
    adequate QASP was prepared for one purchase due to a lack of documentation.



                                                     13 

           they adequately monitored contractors’ performance. Without such
           documentation it would be difficult to convince a contractor he needs to improve
           his performance.

                   The Air Education and Training Command could not demonstrate how
           DoD performed contractor surveillance for the purchase of Hewlett Packard
           printers. The FAR requires Government inspections through the use of receiving
           reports or commercial shipping documents. DoD receiving personnel should
           ensure that goods conform to contract requirements. The recently issued DoD
           October 16, 2006, Memorandum requires the preparation of surveillance plans for
           goods. The surveillance plans should include the process for receipt and review
           of receiving reports and invoices from the performing agency, reconciliation of
           receiving reports and invoices, and requirements for documenting acceptance of
           the good. DoD adherence to these procedures will increase the likelihood that the
           Government receives the correct type and quantity of products.

                   DoD Organizations With QASPs. The Air Force Medical Operations
           Agency (Bolling Air Force Base), the Air Education and Training Command, the
           Jacksonville Naval Hospital, the Air Force 1st Medical Group, Air Force 60th
           Medical Group, Air Force 96th Medical Group, Air Combat Command, and the
           579th Medical Group prepared and implemented a total of 16 comprehensive
           QASPs. The QASPs included all work requiring surveillance and the method of
           surveillance to review contractor work. For instance, the Air Force Medical
           Operation Agency developed a QASP to provide an effective surveillance method
           of monitoring contractor performance for third party collections of treatment
           provided within MTFs. The QASP included key performance indicators that
           detailed the methods and standards used to evaluate each of the contract
           objectives. Specifically the key performance indicators included methods the
           Government follows to monitor the contract’s cash collections, billings, aging of
           accounts receivables, and customer complaints. The plan described how
           surveillance personnel were to compare the contractor’s actual performance with
           contract requirements. This QASP is a good example of how a surveillance plan
           should be prepared. The DoD representative was responsible for adhering to the
           QASP. Surveillance plans that include comprehensive and systematic methods to
           evaluate the contractor provide greater assurance that DoD does not overpay for
           the goods not delivered or services not performed.

           Contractor Past Performance. The 12 DoD activities reviewed did not collect
           and record the VA contractors’ past performance information for any of the
           contract actions 6 reviewed. No past performance information on the VA
           contracts had been entered into DoD data collection systems used to assess
           performance for future contract awards. DoD officials are not required to use the
           Past Performance Information Retrieval System; however, they “may consider”
           information from the system. The Past Performance Information Retrieval
           System functions as the central warehouse for performance assessment reports
           received from other Federal performance information collection systems. The
           Military Departments rely on the Contractor Performance Assessment Reporting


6
    Three of the purchases reviewed were below the dollar threshold required for documenting past
    performance.



                                                     14 

    System and Past Performance Information Management System to record and
    retrieve past performance information.

    DoD did not comply with FAR requirements for collecting contractor past
    performance. The FAR states that health care contracts valued at $100,000 or
    more will have annual performance assessment reports prepared. In addition,
    interim evaluations should be prepared for contracts with a period of
    performance, including options, exceeding 1 year. Periodically evaluating and
    documenting current contractor performance provides valuable input to a
    contractor’s prior performance, which can be an integral part of the “best value”
    source selection decision in future contract awards. Documenting past
    performance also provides the contractor with added motivation to perform at a
    high level.

    We reported the same deficiency in DoD IG Report No. D-2007-007, “FY 2005
    DoD Purchases Made Through the General Services Administration,”
    October 30, 2006. The DoD OIG recommended that the Under Secretary of
    Defense for Acquisition, Technology, and Logistics negotiate with non-DoD
    agencies to develop procedures that will record contractor performance on all
    Government contractors, and access past performance information from the Past
    Performance Information Retrieval System for future source selection decisions.
    The Director of Defense Procurement and Acquisition Policy concurred and
    stated that new policy would be issued reminding the acquisition workforce of its
    responsibility to capture past performance information and utilize this information
    in the source selection process.


The VA Contract Award Decisions
    Price Reasonableness Determinations. The VA contracting officials did not
    adequately document and support price reasonableness decisions for
    14 of 24 purchases reviewed at the VA contracting offices. The 14 purchases
    were for services or a combination of goods and services. Eleven of the
    purchases had price reasonableness determinations that were not sufficiently
    supported. Three purchases did not have any price reasonableness determination
    documented in the contract files.

    For example, the VA Denver Acquisition and Logistics Center awarded five
    orders for the purchase of blood gas analyzers, Propaq Encore monitors, business
    operations analyst services, third party collections and billings, and medical
    records clerks services. The price reasonableness determinations were vague,
    lacked sufficient documentation, and used the same “boilerplate” justification
    forms for each purchase. The justifications did not specify how price
    reasonableness was determined for contractor-proposed prices and contained no
    cost documentation. The justification forms used were the same forms used to
    justify exercising option years. However, the basic order for blood gas analyzers
    did not involve exercising an option year. The price reasonableness
    determination clearly was not appropriate for the blood gas analyzer purchase and
    indicates that justifications were not specifically written for each order.



                                        15 

In another example, two contracts awarded by the VA Joint Venture Acquisition
Center (Austin, Texas) based price reasonableness on the fact that the proposed
contractor prices were lower than the independent Government cost estimates.
However, the independent Government cost estimate was not in the contract files.
The mere statement that the contractor prices were lower than the independent
Government cost estimate is not sufficient justification for the contracting
officer’s determination of price reasonableness.

Sole-Source Awards. The VA officials awarded 11 of the 24 purchases reviewed
at the VA contracting activities on a sole-source basis. The VA contracting
officials did not adequately justify the use of sole-source contracts for 8 of the 11
sole-source purchases, and therefore did not comply with FAR requirements.
Seven of the eight awards were Federal supply schedule purchases covered by
FAR Subpart 8.4., “Federal Supply Schedules.” The remaining order was
awarded through a multiple-award contract covered by FAR 16.505(b), “Orders
under Multiple Award Contracts.” One of the eight inadequately supported sole-
source awards cited the FAR 8.405-6(b)(2) exception, logical follow-on to an
original Federal supply schedule order; one cited the FAR 16.505(b)(2)(iii)
exception, logical follow-on to an order already issued under the contract, two
cited the FAR 6.302-1 exception, “Only One Responsible Source;” one cited the
FAR 16.505(b)(2)(ii) exception, only one capable source; and one cited the FAR
8.405-6(b)(3) exception, urgent and compelling need. One purchase placed under
a blanket purchase agreement established against a Federal supply schedule
contract had no sole-source justification and approval. Another purchase placed
under a multiple-award contract cited justifications that were not one of the
FAR 16.505 statutory exceptions to fair opportunity. Although sole-source
exceptions were cited for seven of the purchases, the sole-source justifications
and approvals did not include sufficient supporting documentation to validate the
assertions. Interagency contracts that are not fully competed must provide
sufficient explanations why FAR exceptions are allowed.

For example, the VA Austin Automation Center contracting officials issued a new
task order for information technology and technical support on behalf of the
Air Force Communications Agency. The Air Force Communication Agency’s
justification for awarding a sole-source contract stated that if the procurement was
not sole-sourced, the Air Force Communication Agency would incur additional
costs and substantial delays resulting from the time required for a new contractor
to perform up to the level of the incumbent. Furthermore, there likely would be
overall erosion in the quality of performance during the transition period, which
would have a catastrophic impact on the entire Air Force Global Communications
Support System. This justification does not constitute an authority to award
because of one responsible source or an urgent and compelling need, the two
justifications most often cited. In fact, this justification is applicable to every
purchase made by an office with an incumbent contractor. The VA contracting
officer approved the sole-source award on September 22, 2004, pursuant to
FAR 16.505, without citing a specific statutory exception to the fair opportunity
process. A VA legal review dated September 24, 2004, performed on the request
for proposal, advised that one of the sole-source exceptions found at
FAR 16.505(b)(2) should be citied as justification for not providing a fair
opportunity to all multiple-award contract awardees. There was no indication that
the contracting officer acted on the legal advice.


                                     16 

Conclusion 

     DoD officials must perform acquisition planning for all procurements to ensure
     all acquisition alternatives are considered before acquiring goods and services.
     DoD organizations should utilize their local contracting office to assist with early
     acquisition planning. Adequate planning will help in the competitive
     procurement of goods and services and ensure reasonable prices.

     Contract administration roles and responsibilities are needed to ensure more
     efficient and effective management of DoD resources. DoD must develop QASPs
     that specify all work requiring surveillance and the method of surveillance when
     monitoring contractor performance on service contracts. Surveillance plans that
     are not properly prepared increase the potential for confusion and
     misinterpretation amongst surveillance personnel. All Government agencies
     should agree on a mandatory system that records contractor performance for use
     by all agencies. Interagency contracting requires strong internal controls, clear
     definition of roles and responsibilities, and sufficient training of both servicing
     and requesting activities personnel.

     The VA contracting officials must adequately justify the use of sole-source
     contracts and sufficiently document price reasonableness determinations. DoD
     management should permit the VA contracting officers to attend Defense
     Acquisition University contracting courses and take steps to ensure contracting
     standards are enforced across all Government agencies.


Management Comments on the Finding and Audit Response
     Air Force Comments. Although not asked to comment, the Air Force Deputy
     Surgeon General provided comments for the Assistant Secretary of the Air Force
     (Financial Management and Comptroller). The Air Force Deputy Surgeon
     General stated that Air Force purchases were procured within the scope of the
     VA-DoD Health Care Resource Sharing Act statutory authority. The Deputy
     Surgeon General disagreed that the definition of health care resources is clearly
     defined under the VA-DoD Health Care Resource Sharing Act statutory authority.
     Specifically, the VA-DoD Health Care Resource Sharing Act states “health-care
     resources include hospital care, medical services, and rehabilitative services.”
     The Deputy Surgeon General stated that DoD Instruction 6010.234.1 provides a
     clearer definition of resources that allows for a broader range of contracting
     activities.

     Therefore, the Deputy Surgeon General stated that he disagrees with the DoD
     OIG restrictive view of the VA-DoD Health Care Resource Sharing statutes. The
     Deputy Surgeon General added that a broad scope of purchases are permissible
     under 38 U.S.C. 8111 and 10 U.S.C. 1044. The Deputy Surgeon General added
     that VA and DoD are authorized to share “health care resources,” which include
     hospital care and medical services, other health care services, and any health care
     support or administrative resource. The Deputy Surgeon General also stated his
     position is further supported by GAO reports and other commentaries that found


                                          17 

services for fire, utilities, laundry services, security, and waste collection all fall
within the confines of the VA-DoD Health Care Resource Sharing Act. However,
the Deputy Surgeon General did state that the Task Force on Improvement of
DoD Medical Care is aware that the VA-DoD Health Care Resource Sharing Act
requires clarification to reflect Congress’ intent on the scope of DoD-VA sharing
and that the AFMS-VA MOA will be rewritten to clarify contracting services.

Finally, the Deputy Surgeon General stated that the HAMS program does have a
QASP that is based on customer complaint methodologies. Furthermore, the
Deputy Surgeon General stated that each HAMS site has an individual COR,
identified in writing, responsible for quality assurance activities and for accepting
services on behalf of the contracting office. The COR relies on customer
complaints to demonstrate how contractors provide poor performance. Both the
AFMS program manager and the VA contracting office are collocated. The
contracting office keeps official contract documents while the Air Force Program
Manager maintains unofficial working documents to manage the overall program.

Audit Response. The definition of health care resources included within DoD
Instruction 6010.23, “Department of Defense and Department of Veterans Affairs
Health Care Resource Sharing Program,” states that health care resources include
“all available manpower, facilities, equipment, supplies, and funding to produce
health care services, and any other health care support or administrative
resource.” Therefore, we agree with Air Force comments that purchases for roof
repairs, printers, furniture, radios, strategic services support, and manpower
resource management support that are used to produce health care services are
within the scope of the VA-DoD Health Care Sharing Act. We also assent to the
Deputy Surgeon General statement that the AFMS-VA MOA should be clarified
to specify which contracting services are within the scope of the agreement.

Both the VA contracting officer and a DoD COR assigned to the HAMS custodial
services purchase stated that the HAMS Program Manager is the appointed COTR
for the purchase. The DoD COR stated that he reports errors in contractor
charges to the COTR. Yet, as we reported, the identified COTR stated he was not
the COTR and was not officially designated in writing. Despite the Deputy
Surgeon General’s comments, the program manager and VA contracting officer
were not collocated at the same facility. Instead, the DoD program manager is
located at Brooks City Base in San Antonio, while the VA contracting officer
works out of the Joint Venture Acquisition Center in Austin, Texas. The program
manager stated that he does not maintain contract documentation; instead he
referred us to the VA contracting officer to obtain contract documentation. The
program manager did not provide any unofficial working documents used to
manage the overall program.

Regarding the surveillance procedures for the HAMS custodial services purchase,
there was no QASP provided for the purchase. Rather, quality assurance
personnel relied on customer complaints to determine whether the contractor
complied with terms and conditions of the contract. In accordance with FAR
Part 46.4, “Government Contract Quality Assurance,” a QASP should be prepared
in conjunction with preparation of the statement of work and should specify all
work requiring surveillance and the method of surveillance. The method of
surveillance should focus on how the work requiring surveillance will be


                                      18 

    evaluated, rather than just relying on customer compliant evaluations. Without a
    QASP, the Government cannot maintain close surveillance over the $39.0 million
    contract to ensure that efficient methods are being used during contract
    performance. Implementing Recommendations A.1.a., A.1.b., A.1.c., and A.1.d.
    will provide contract administration roles and responsibilities that are needed to
    effectively manage DoD resources and aid in the preparation of surveillance plans
    that will assist the Government to determine contractor compliance with contract
    terms and conditions.


Recommendations
    Recommendations A.1.a., A.1.b., and A.1.c. are identical to our recommendations
    in the “FY 2005 DoD Purchases Made Through General Services Administration”
    report (DoD IG Report No. D-2007-007, October 30, 2006). At that time, the
    Office of the Under Secretary of Defense for Acquisition, Technology, and
    Logistics stated that its office was currently reviewing its curriculum in all
    courses to ensure that the subject topics included in the recommendation were
    properly covered. Furthermore, the Defense Acquisition University would assist
    in developing appropriate course materials in those subject areas. Regarding past
    performance, the Under Secretary of Defense for Acquisition, Technology, and
    Logistics stated that his office would issue a policy memorandum reminding the
    acquisition workforce of its responsibility to capture past performance
    information and to use the information within the source selection process. The
    policy was expected to be issued on December 1, 2006; however, as of September
    2007, the Under Secretary had not issued the memorandum. The Acting Deputy
    Chief Financial Officer issued an October 16, 2006, memorandum,
    “Non-Economy Act Orders,” that clarifies the DoD guidance on financial
    management policy for interagency contracting.

    A.1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics:

            a. Develop a training course that instructs contracting and program
    office personnel on proper acquisition planning and contract administration
    for assisted acquisitions.

    USD(AT&L) Comments. The Director of Defense Procurement and Acquisition
    Policy, responding for the Under Secretary of Defense for Acquisition,
    Technology, and Logistics, concurred and stated that the Defense Acquisition
    University has commenced a review of all course materials related to interagency
    acquisitions. The Director stated the Defense Acquisition University, in
    collaboration with the Defense Procurement and Acquisition Policy and GSA, has
    a new course in process entitled “The Essentials of Interagency Acquisition.”
    That is expected to be available by February 1, 2008. The MOA includes both
    DoD and GSA collaboration on comprehensive training at all GSA regions.

    Air Force Comments. Although not asked to comment, the Air Force Deputy
    Surgeon General agreed with the recommendation. The Deputy stated that
    establishing new training courses for assisted acquisitions would be redundant.


                                        19 

Rather, he recommended the enforcement of current DoD training courses for
employees of agencies conducting assisted acquisitions. The Deputy also stated
that the Air Force provided guidance to the VA that instructs them to apply the
Air Force Federal Acquisition Regulations to their procurement process when
conducting an assisted acquisition.

Audit Response. We agree with the Director of Defense Procurement and
Acquisition Policy, GSA, and the Defense Acquisition University. A joint effort
to establish a new interagency acquisition course will better prepare contracting
officers for interagency purchases. No further comments are necessary.

       b. Establish overall policies on acceptable contract administration
roles and responsibilities that DoD will accept when purchasing goods and
services through a non-DoD agency.

(USD)AT&L Comments. The Director of Defense Procurement and Acquisition
Policy concurred and stated DoD will issue an update to its policy on “Proper Use
of Non-DoD Contracts.” The policy memorandum is expected to be issued in
December 2007.

Air Force Comments. Although not asked to comment, the Air Force Deputy
Surgeon General agreed with the recommendation. The Deputy also stated that
training is needed for employees of agencies conducting assisted acquisitions.

Audit Response. The Director of Defense Procurement and Acquisition Policy
agreed. The Air Force Deputy Surgeon General also agreed with the
recommendation. Contract administration roles and responsibilities are needed
for DoD when purchasing goods and services through non-DoD agencies to
preclude the funding and contracting problems addressed in our report. No
further comments are required.

       c. Finalize negotiations with the U.S. Department of Veterans Affairs
to develop interagency agreements that specify agreed-upon roles and
responsibilities regarding contract administration and surveillance duties.

(USD)AT&L Comments. The Director of Defense Procurement and Acquisition
Policy agreed and stated DoD will establish an MOA with the VA that will
address roles and responsibilities regarding contract administration and
surveillance procedures. The memorandum of agreement is expected to be
completed by December 31, 2007.

Air Force Comments. Although not asked to comment, the Air Force Deputy
Surgeon General agreed with recommendation. The Deputy stated that efforts
toward education and enforcement of the contracting officer and COR duties and
responsibilities as delineated in the current regulations would be more efficient
and effective for management of contracts.

Audit Response. The Director of Defense Procurement and Acquisition Policy
concurred and stated his office plans to establish an MOA with the VA that will
address roles and responsibilities for contract administration and surveillance
procedures. No further comments are necessary.


                                    20 

       d. Work with the U.S. Department of Veterans Affairs to develop a
corrective action plan that addresses the concerns identified in this report
(including the lack of adequate acquisition planning, interagency
agreements, quality assurance surveillance plans, and past performance
information.) The corrective action plan should also address the contract
modification problem that is preventing contractors from receiving payment
for services performed. The corrective action plan should clearly delineate
the duties and responsibilities of both the U.S. Department of Veterans
Affairs and DoD on all purchases made by the U.S. Department of Veterans
Affairs on behalf of DoD.

(USD)AT&L Comments. The Director of Defense Procurement and Acquisition
Policy concurred and stated the MOA established between DoD and the VA will
address the roles and responsibilities regarding contract administration and
surveillance duties. The Director also stated the MOA will include a corrective
action plan that will address the deficiencies identified in the audit report. The
MOA, including the corrective action plan, is expected to be completed by
December 31, 2007.

Air Force Comments. The Air Force Deputy Surgeon General agreed with the
recommendation.

Audit Response. Management comments are responsive. No further comments
are necessary.

      e. Develop an implementation plan for the U.S. Department of
Veterans Affairs /DoD corrective action plan that includes site visits to major
DoD organizations to ensure the required procedures in the memorandum
have been explained at the operational level.

(USD)AT&L Comments. The Director of Defense Procurement and Acquisition
Policy concurred and stated the MOA established between DoD and the VA will
include a corrective action plan that will address the deficiencies identified in the
audit report and address the effective and efficient communication of proper
procedures to the operation level. The MOA, including the corrective action plan,
is expected to be completed by December 31, 2007.

Air Force Comments. Although not asked to comment, the Air Force Deputy
Surgeon General stated that the Air Force Medical Logistics Office conducted
three contracting workshops that educated the Continental United States and
Outside the Continental United States contract managers and medical equipment
managers. The contracting workshops focused on current acquisition regulations
and how those regulations apply to the MTFs. The contracting workshops also
addressed assisted acquisitions and standard acquisition procedures that include
acquisition planning and contract administration. Beginning in 2008, the Air
Force will conduct three contracting workshops per year.

Audit Response. Management comments are responsive. No further comments
are necessary.




                                     21 

        f. Advise the U.S. Department of Veterans Affairs that Defense
Acquisition University courses covering the preparation of sole-source
justification and price reasonableness determinations are available to
U.S. Department of Veteran Affairs contracting officers.

(USD)AT&L Comments. The Director of Defense Procurement and Acquisition
Policy agreed and stated the Under Secretary of Defense for Acquisition,
Technology, and Logistics will coordinate with the President of the Defense
Acquisition University to ensure that relevant Defense Acquisition University
courses are offered to VA contracting officers on a space available basis. The
action is expected to be completed in December 2007.

Air Force Comments. Although not required to comment, the Air Force Deputy
Surgeon General agreed.

Audit Response. Management comments are responsive. No further comments
are necessary.

       g. Negotiate with non-DoD agencies to determine the best method to
record contractor performance on all Government contractors. In addition,
require DoD organizations to enter past performance information into the
Past Performance Information Retrieval System and access the Past
Performance Information Retrieval System for future source selection
decisions.

(USD)AT&L Comments. The Director of Defense Procurement and Acquisition
Policy concurred and stated that DoD will coordinate with the office of Federal
Procurement Policy on the best method to record contractor past performance and
information. Furthermore, he stated DoD is in the process of issuing a policy
memorandum that addresses capturing past performance information. The policy
is expected to be issued in December 2007.

Air Force Comments. Although not asked to comment, the Air Force Deputy
Surgeon General stated that the VA does not currently have an automated system
that is used for collecting DoD past performance data; therefore, a standard
Federal past performance database would assist the acquisition community.

Audit Response. Management comments are responsive. No further comments
are necessary.

A.2. We recommend that the Assistant Secretary of the Air Force (Financial
Management and Comptroller) coordinate with the U.S. Department of
Veteran Affairs to amend the “Department of Veterans Affairs and Office of
the Air Force Surgeon General” memorandum of agreement. The
memorandum of agreement should specify the types of purchases that are
permissible under the interagency agreement between the Department of
Defense and the U.S. Department of Veterans Affairs and conform to all
provisions contained within the corrective action plan discussed in
Recommendation A.1.d.




                                  22 

Air Force Comments. The Air Force Deputy Surgeon General, responding for
the Assistant Secretary of the Air Force (Financial Management and
Comptroller), concurred. The Deputy stated that a new version of the MOA is
currently in coordination with the Department of Veterans Affairs. The Deputy
also stated that the current MOA states that the VA is the “preferred” method for
contracting services. However, future policy will make the Commodity Council
the preferred method of acquisition with a waiver process that collects
information needed for Air Force Medical Service management. Finally, he
stated the MOA should build measures to help accountability, particularly with
respect to contract execution responsibilities.

Audit Response. The Air Force Deputy Surgeon General concurred. No further
comments are necessary.




                                    23 

            B. 	Funding of DoD Purchases Made
                Through the U.S. Department of
                Veterans Affairs
            Using the provisions of 38 U.S.C. 8111, “Shared Health Care Resources,”
            DoD correctly funded most purchases made through the VA. However,
            the Office of the Air Force Surgeon General improperly used the Austin
            Acquisition Office to obtain leased space through a service contract and
            improperly funded the Austin Automation Center to procure services and
            equipment. In addition, the Austin Automation Center failed to follow the
            Office of Management and Budget Business Rules for Intragovernmental
            Exchange Transactions and DoD policy on advance payments. The VA
            relied on outdated financial guidance and apparently was unaware that
            DoD had issued numerous memorandums clarifying previously issued
            guidance on funding the procurement of goods and services purchased by
            non-DoD agencies. Consequently, the VA did not comply with current
            DoD funding policy. DoD organizations incurred six potential violations
            of the bona fide needs rule and the purpose statute that could result in
            Antideficiency Act (ADA) violations valued at $4.4 million and DoD was
            unable to properly account for interagency transactions because of
            advance payments on purchases to the Austin Automation Center.


Policy and Procedures for the VA Franchise Fund
     The Austin Automation Center. The Austin Automation Center is a
     fee-for-service enterprise that offers assisted acquisition services for information
     technology goods and services, using the VA Franchise Fund. The Government
     Management Reform Act of 1994 authorized the establishment of the VA
     Franchise Fund Pilot Program. Franchise fund pilots are intragovernmental
     revolving funds established as self-supporting businesslike entities that provide
     common administrative services on a fully reimbursable basis. Franchise fund
     pilots function as entrepreneurial activities within and between Government
     agencies. The Austin Automation Center charges to provide procurement
     services for acquisition of products or services. The proceeds made through the
     surcharges are used to pay for the operations of the Austin Automation Center.


Criteria
     Funding Requirements. The ADA is codified in a number of sections of
     title 31 of the United States Code (such as 31 U.S.C. 1341(a), 1342, 1349–1351,
     1511(a), and 1512–1519). The purpose of these statutory provisions, known
     collectively as the ADA, is enforcing the constitutional powers of the purse
     residing in Congress with respect to the purpose, time, and amount of
     expenditures made by the Federal Government. Violations of other laws may


                                          24 

           create violations of the ADA provisions (for example, the “bona fide needs rule,”
           31 U.S.C. 1502[a]).

           Section 1341, title 31, U.S.C., “Limitations on Expending and Obligating
           Amounts,” states “an officer or employee of the United States Government …
           may not (A) make or authorize an expenditure or obligation exceeding an amount
           available in an appropriation or fund for the expenditure or obligation” or “(B)
           involve either Government in a contract or obligation for the payment of money
           before an appropriation is made unless authorized by law.”

           Section 1350, title 31, U.S.C., “Criminal Penalty,” states that “an officer or
           employee of the United States Government … knowingly and willfully violating”
           31 U.S.C. 1341(a) or 1342 “shall be fined not more than $5,000, imprisoned for
           no more than 2 years, or both.” Section 1351, title 31, U.S.C, “Reports on
           Violations,” states that “if an officer or employee of an executive agency”
           violates 31 U.S.C. 1341(a) or 1342, the head of the agency “shall report
           immediately to the President and Congress all relevant facts and a statement of
           actions taken.”

           To use appropriated funds, there must be a bona fide need for the requirement in
           the year the appropriations are available for obligation. Section 1502(a), title 31,
           U.S.C. states:

                    The balance of an appropriation or fund limited for obligation to a
                    definite period is available only for payment of expenses properly
                    incurred during the period of availability or to complete contracts
                    properly made within that period of availability and obligated
                    consistent with section 1501 of this title. However, the appropriation
                    or fund is not available for expenditure for a period beyond the period
                    otherwise authorized by law.

           Section 2410a, title 10, U.S.C. states that the Secretary of Defense may enter into
           a contract for procurement of severable services for a period that begins in one
           fiscal year and ends in the next fiscal year. This section applies to annual
           appropriations, such as operations and maintenance (O&M) funds. To meet bona
           fide needs rule requirements and 10 U.S.C. 2410a considerations, the Office of
           the Under Secretary of Defense (Comptroller)/Chief Financial Officer
           (USD[C]/CFO) has specified that funds for severable services 7 must be obligated
           in the year of the appropriation funding the services, and the contract period of
           the services cannot exceed 1 year. Also, ordered commercial goods must be
           received in the year of the appropriation unless there is a known production or
           delivery lead-time or unforeseen delays in delivery.

           Government Accountability Office Red Book. The Government Accountability
           Office (GAO) Red Book, GAO-04-261SP, “Principles of Federal Appropriations
           Law, Third Edition, Volume I,” January 2004, states:



7
    Most service contracts are severable. A non-severable contract would have a primary deliverable such as
    a prototype system or a completed report at the end of the performance period.



                                                      25 

           An order or contract for the replacement of stock is viewed as meeting
           a bona fide need of the year in which the contract is made as long as it
           is intended to replace stock used in that year, even though the
           replacement items will not be used until the following year.

    DoD Financial Management Regulation Appropriation Guidance. Annual
    appropriation acts define the uses of each appropriation and set specific timelines
    for use of the appropriations. The DoD Financial Management Regulation,
    volume 2A, chapter 1, “Budget Formulation and Presentation,” provides
    guidelines on the most commonly used DoD appropriations for determining the
    correct appropriation to use when planning acquisitions.

    Expenses incurred in continuing operations and current services are funded with
    O&M appropriations. The Under Secretary of Defense (Comptroller)/Chief
    Financial Officer considers all modernization costs under $250,000 to be
    expenses, as are one-time projects such as developing planning documents and
    conducting studies. O&M funds are available for obligation for 1 year.

    Leasing Requirements. In accordance with the Federal Property Management
    Regulations, GSA will lease privately owned land and building space only when
    adequate Government controlled space is not available. However, GSA may
    delegate leasing authority to Government agencies. Government agencies have
    the authority to lease space in buildings and land when the required space is to be
    wholly or predominantly used for the special purpose of the requesting agency,
    and furthermore, is not generally suitable for use by other agencies. Additionally,
    GSA must be contacted by agencies for approval of leasing actions totaling
    2,500 or more square feet.

    DoD Directives. DoD Directive 5110.4, “Washington Headquarters Service
    (WHS),” October 19, 2001, states that the Director, Washington Headquarters
    Service acts as the principle DoD Liaison with GSA for all administrative
    services and real property matters, including lease administration in the National
    Capital Region. DoD Instruction 5305.5, “Space Management Procedures,
    National Capital Region,” June 14, 1999, is the applicable guidance for obtaining
    space within the National Capital Region and prescribes procedures for obtaining
    space. Space requests are to be submitted through the Washington Headquarters
    Services.


Leased Space
    The VA did not follow FAR or DoD policy when leasing office space.
    Specifically, the Austin Acquisition Office used a service contract to obtain
    leased space for the Office of the Air Force Surgeon General, though GSA,
    through the Washington Headquarters Service, is the leasing authority within the
    National Capital Region for DoD. By not following proper procedures, the VA
    and DoD may have entered into an illegal lease that overcharged the Government
    for use of office space. Without a legal and authorized agreement, no basis exists
    to obligate and expend Government funds. The USD(AT&L) should work with



                                             26 

the DoD Office of General Counsel to determine the correct actions to resolve the
improper leasing arrangement.

Turn-Key Modernization Support Purchase. The Office of the Air Force
Surgeon General used the Austin Acquisition Office to contract for the Turn-Key
Modernization Support purchase. On behalf of the Air Force Surgeon General,
the VA obtained Facility Management; Modernization/Information Technology
Network, Desktop, Web Hosting, and Digital Communications Services; DoD
Modernization/ Information Technology Collaboration Capacity; and DoD
Modernization/ Information Technology Security and Maintenance Services
through contract GS-35F-0763M, order number V791-AA6002, awarded
August 20, 2006. Under the DoD Modernization/ Information Technology
Collaboration Capacity task, the Austin Acquisition Office leased office space for
the Air Force Surgeon General. The Performance Work Statement states, “The
contractor shall lease the exclusive use of a 17,680 square foot IT [Information
Technology] collaboration facility located on the 14th floor of 5201 Leesburg
Pike, Suite 1400, Falls Church, Virginia.”

Authorization. The VA did not have authorization to lease office space on
behalf of the Air Force. The Federal Property Management Regulations state that
GSA has the authority to lease space for the Government. In addition, 10
U.S.C. 2664, “Limitations on real property acquisition,” precludes Military
Department leases without specific statutory authority. Although GSA may
delegate leasing authority to agencies for space that will be wholly or
predominantly utilized for the special purposes of the agency, the VA did not
have authority for this lease. However, GSA and the VA do have a long-standing
MOA that allows the VA to lease medical facilities, but that MOA did not apply
in this situation.

The GSA and the VA 1983 MOA states “. . . VA has assumed responsibility for
all leasing for outpatient and medically related activities throughout the country.”
By the terms of the MOA, the VA was required to make its needs known to the
GSA regional offices to determine whether space was available. If space was not
available, the VA could enter into a lease for medical facilities. In 1995, the VA
and GSA signed a clarification to allow the VA to continue having leasing
authority. However, no evidence exists that the VA consulted with GSA
concerning the lease of office space for the Office of the Air Force Surgeon
General. Also, the VA did not lease space for outpatient and medically related
activities. Clearly, the VA obtained office space for the Office of the Air Force
Surgeon General administrative staff. Therefore, the Austin Acquisition Office
did not comply with the VA and Air Force MOA or Federal requirements by
entering into a lease for the Air Force Surgeon General Office.

Overcharges. The Austin Acquisition Office signed a time-and-materials
contract for the Turn-Key Modernization Support purchase. FAR 16.601, “Time-
and-Materials Contracts,” states a time-and-materials contract provides for
acquiring supplies or services on the basis of actual cost for materials. Based on a
review of the actual charges of the space leased by the building owner to the
contractor, the contractor overcharged the Government approximately $109,000
from October 2005 through August 2006. The VA contracting officer is currently
working with the contractor on the estimated overcharge. Additionally, DoD and


                                     27 

     the Austin Acquisition Office are working with GSA regarding a lease agreement
     for the space. However, DoD should discontinue making lease payments to avoid
     improper payments of Government funds.

     DoD Policy. On March 2, 2007, the Director of Defense Procurement and
     Acquisition Policy issued a memorandum, “Contracts for Services.” This
     memorandum reiterates that the FAR defines a service contract as “a contract that
     directly engages the time and effort of a contractor whose primary purpose is to
     perform an identifiable task rather than to furnish an end item of supply.”
     Specifically, service contracts should not be used to obtain end items such as
     office space or a military aircraft simulator, which are not consistent with the
     FAR definition of a “service.” In addition, on March 21, 2007, the Under
     Secretary of Defense for Acquisition, Technology, and Logistics issued a
     memorandum that restated DoD policy on leasing office space. The
     memorandum directs the National Capital Region to lease office space through
     the GSA or Washington Headquarters Services, unless otherwise expressly
     authorized by statute or delegation. Outside the National Capital Region, DoD
     Components may acquire leased office space only through GSA or a Military
     Department as may be expressly authorized by statue or delegation. The use of
     service contracts is not proper for entering into a contract for the purpose of
     acquiring leased office space for DoD operations.

     Comptroller General Decision B-309181. On August 17, 2007, the Comptroller
     General of the United States issued a decision on “Interagency Agreements—Use
     of an Interagency Agreement between the Counterintelligence Field Activity,
     Department of Defense, and GovWorks to Obtain Office Space,” File B-309181.
     This decision stated that GovWorks, a Department of the Interior Franchise Fund,
     and the Counterintelligence Field Activity, a DoD agency, by circumventing
     Federal statutory and regulatory requirements on leasing using a service contract,
     involved the Government in an unauthorized transaction and millions of dollars of
     improper payments. However, no ADA violation occurred. The Air Force
     Surgeon General similarly used VA contracting officials at the Austin Acquisition
     Office to circumvent Federal statutory and regulatory requirements to lease office
     space using a service contract.


Potential Antideficiency Act Violations
     Most VA contracting organizations used current DoD financial policies when
     procuring services and equipment on behalf of DoD. DoD generally used
     38 U.S.C. 8111, “Sharing of Department of Veteran Affairs and Department of
     Defense Health Care Resources,” as the statutory authority to transfer funds to the
     VA. However, the Austin Automation Center used the franchise fund, under the
     authority of the Government Management Reform Act of 1994, when funding the
     procurement of DoD services and equipment. DoD and the VA organizations did
     not follow revised DoD guidance on interagency purchases. Therefore, DoD may
     have incurred potential ADA violations.

     Use of the Austin Automation Center. The Austin Automation Center charges
     a 2 percent fee for purchases from an existing task order or contract and 3 percent


                                         28 

for new contract actions. Discounts are offered after the client contracts for more
than $500,000 of goods or services. The BuyIT.gov Program Manager and Chief
Acquisition Management Services, the VA Austin Automation Center stated that
issuing contracts for DoD lowers the overhead costs and helps lower rates for the
VA.

The Austin Automation Center BuyIT.com Web site references an Under
Secretary of Defense (Comptroller)/Chief Financial Officer September 2003
memorandum that states, with a bona fide need, the servicing agency may retain
and promptly obligate funds in the following fiscal year. The Austin Automation
Center interpreted this outdated DoD guidance to mean that goods and services
procured in the following year could be procured with the earlier year
appropriation. Consequently, the Austin Automation Center procured services
and equipment for DoD organizations in FY 2006 using expired FY 2005 O&M
funds. However, in October 2006, DoD clarified financial management policy for
assisted DoD purchases made through non-DoD contracts.

The DoD October 16, 2006, Memorandum issues clear guidance on purchasing
goods and services. Delivery of goods should be made during the period of
availability of the funds, unless delivery, production, or manufacturing lead-time
or unforeseen delays occur. Commercial off-the-shelf goods readily available
from other sources should be procured and delivered in the period the funds are
available. Severable services may cross fiscal years, as long as the period of
performance does not exceed 1 year and services must begin in the year the funds
are available for use. Use of current guidance will help ensure ADA violations do
not occur.

Bona Fide Need. Six of the 16 purchases the DoD OIG and the VA OIG
reviewed at the Austin Automation Center may have violated the bona fide needs
rule and could result in ADA violations. DoD organizations used annual O&M
appropriations to fund purchases of severable services that met a bona fide need
of the following fiscal year instead of the year the funds were available. Also,
DoD organizations purchased commercial goods that were contracted for and
received after the availability of the funds. The delay in contracting and receiving
the goods could not be justified because of delivery time, production lead-time,
unforeseen delays, or stock replacement.

For example, the Office of the Air Force Surgeon General sent approximately
$3.7 million to the VA on September 28, 2005, using FY 2005 Defense Health
Program Funds. The VA accepted the funds on September 28, 2005. FY 2005
Defense Health Program Funds expired September 30, 2005. The MIPR stated
“The purpose of this effort is to provide information technology knowledge
management support to the Modernization Directorate.” The VA contracted for
BladeFram Base Systems and software licenses, costing $718,606, using Federal
supply schedule GS-35F-0330J. The VA contracting officer signed the purchase
order February 16, 2006. The goods were commercial items and there was no
evidence that a long lead-time was required to purchase these items, or that the
items were needed to replenish the inventory, or that there was an unforeseen
delay in purchasing these items. The Office of the Air Force Surgeon General
should conduct a preliminary review to determine whether an ADA violation
occurred.


                                    29 

Advance Payments
    The Austin Automation Center collected full DoD payment for contracts
    immediately after contract award and prior to contract invoicing. Therefore, the
    Austin Automation Center did not follow the law or Government rules on
    advance payments. DoD loses oversight of funds that the VA collects prior to the
    services being received.

    Advance Payments. The BuyIT.gov Program Manager and Chief Acquisition
    Management Services, VA Austin Automation Center stated that the Austin
    Automation Center collected the full amount of the contract and fee after contract
    award. To illustrate, DoD hypothetically sends $1 million (using a MIPR) to the
    Austin Automation Center and receives an acceptance MIPR. The Austin
    Automation Center uses its own funds and completes the procurement and award.
    The contracting officer reports the value of the contract to the Austin Automation
    Center business support specialist and the next month the business support
    specialist collects through the Intra-Governmental Payment and Collection
    System the full contract amount plus fee from DoD. The VA pays the contractor
    as work is performed and accepted. The contracting officer certifies invoices
    based on the DoD COTR acceptance of goods and services.

    Advance Payment Policy. Section 3324, title 31, U.S.C., “Advances,” states that
    advance payments may be made only if authorized by a specific appropriation or
    other law, or if the President allows it. Additionally, on October 4, 2002, the
    Office of Management and Budget issued Business Rules for Intergovernmental
    Transactions. The rules do not allow advance payments for service orders unless
    explicitly required by law. The Austin Automation Center violated this policy on
    advance billing. The Austin Automation Center did not pay the contractor until
    getting invoiced for work completed. However, the Center charged DoD the full
    amount of the contract prior to work being completed. This procedure is not in
    compliance with the intent of Government policy.

    DoD Policy. The DoD Financial Management Regulation, volume 4, chapter 5,
    “Advance and Prepayments,” January 1995, reiterates 31 U.S.C. 3324. The
    regulation also provides guidance on the accounting policy for advances. DoD
    Components shall record advances as assets until receipt of goods or services
    involved or until contract terms are met. On March 1, 2007, the Under Secretary
    of Defense (Comptroller)/Chief Financial Officer issued a memorandum,
    “Advance Payments to Non-Department of Defense (DoD) Federal Agencies for
    Interagency Acquisitions.” This memorandum directs all DoD Components to
    stop the practice of advance payments unless specifically authorized by law,
    legislative action, or Presidential authorization, including the practice of
    permitting advance billings without the receipt of goods or services. The
    memorandum also requested all existing advancements retained by a non-DoD
    Federal agency be returned.

    Oversight of Funds. Because of advance payments, DoD lost oversight of funds
    at the Austin Automation Center after contract award. Many contracts the VA
    awarded were time-and-material contracts used when it was not possible at the
    time of placing the contract to estimate accurately the extent or duration of the


                                        30 

    work or to anticipate costs with any reasonable degree of confidence. DoD may
    or may not reach the funding ceiling of time-and-material contracts. If DoD does
    not reach the ceiling, DoD organizations may not receive expired funds back from
    the VA, as the VA had already collected full funding when the contract was
    awarded.


DoD Guidance on Purchases Made by Non-DoD Agencies
    DoD has not updated the DoD Financial Management Regulations to reflect
    current guidance on purchases made through non-DoD agencies. Instead, DoD
    has issued policy memorandums such as the Deputy Chief Financial Officer
    October 16, 2006, memorandum, “Non-Economy Act Orders.” This requires
    DoD activities to check for the most recent USD(AT&L) and USD(C)/CFO
    guidance prior to using non-DoD agencies for procuring goods and services for
    each purchase. Also, it is unclear whether this information is passed on to non-
    DoD agencies making purchases on behalf of DoD.


Conclusion
    By issuing a series of memorandums, DoD has continued to distribute and clarify
    comprehensive guidance on purchases made through non-DoD agencies. Most
    DoD purchases using the VA are funded correctly. However, the Austin
    Automation Center did not use current guidance on funding DoD purchases. As a
    result, DoD incorrectly used the VA Franchise Fund to extend the availability of
    funds and potential ADA violations occurred. We will audit the Austin
    Automation Center next year to ensure the current DoD guidance is being used so
    potential ADA violations do not occur. Also, the Office of the Under Secretary of
    Acquisition, Technology, and Logistics recently issued memorandums to restate
    the Department’s policy on leasing office space. The VA and the Office of the
    Air Force Surgeon General circumvented the law by contracting for leased office
    space using a services contract. By not following proper procedures, they entered
    into a lease without the legal authority to do so. DoD organizations and non-DoD
    contracting officers need to work together to ensure the proper policies and
    procedures are followed.


Management Comments on the Finding and Audit Response
    VA Comments. Although not asked to comment, the Acting Director, VA
    Corporate Franchise Data Center stated the VA Corporate Franchise Data Center,
    formerly the Austin Automation Center, awarded contracts in compliance with the
    FAR, but inconsistent with DoD guidance that was issued after the orders were
    awarded. Specifically, the Acting Director stated that FY 2005 funds accepted for
    orders placed in FY 2006 (October 1, 2005, through September 30, 2006) were
    prior to the issuance of the DoD October 16, 2006, Memorandum. The Acting
    Director stated his office followed the DoD guidance in the September 25, 2003,


                                        31 

memorandum. The Acting Director added that his office will comply with the
current DoD guidance for purchases, which includes utilizing the
DoD October 16, 2006, Memorandum guidance for all future DoD acquisitions.

The Acting Director agreed that the Corporate Franchise Data Center used the
franchise fund, under Section 403 of the Government Management Reform Act of
1994, Public Law Number 103-356, to fund the procurement of DoD services and
equipment. The Acting Director stated the Corporate Franchise Data Center
complied with the VA Appropriation Act of 1997, Public Law Number 104-204,
when it collected full payment from DoD for contracts immediately after contract
award. The Acting Director added this statute established the VA Franchise Fund
and permits advance payments for providing common administrative services to
other agencies. The Acting Director stated that collecting “earned” revenue (that
is, contract award amount and acquisition service fee) is not an “advance
payment” for the DoD intragovernmental order for acquisition services.
Furthermore, the Acting Director said that revenue was collected after the
completion of acquisition services that resulted in contract award. Finally, the
Acting Director stated they will comply with the DoD March 1, 2007,
Memorandum for all new DoD acquisitions. The Acting Director maintained that
advance payments to contractors were not made and stated that the contractor
payments were made in arrears for services or products received and accepted in
accordance with Federal procurement laws and regulations. The DoD
March 1, 2007, Memorandum provides current guidance on DoD purchases, and
was issued after these funding actions were received and acquisitions awarded.
The Acting Director requested that DoD ensure the VA receives new guidance
that is issued by DoD regarding non-DoD agencies making purchases on behalf of
DoD.

Finally, the Acting Director stated that its Business Support Specialist reconciles
the amount expended on the contract versus the amount collected from the
customer, and executes an “Acceptance of MIPR” to return funds during contract
completion. The Acting Director will review unexpended funds on current
contracts to determine the amount that should be returned to DoD and billed
invoices that should be paid to the contractor.

Audit Response. We stated in our report that most VA contracting organizations
used current DoD financial policies when procuring services and equipment on
behalf of DoD. However, the Austin Automation Center used the outdated Under
Secretary of Defense (Comptroller)/Chief Financial Officer September 2003
memorandum that states the servicing agency may retain and promptly obligate
funds in the following fiscal year. Therefore, the Austin Automation Center
procured goods and services in the following year of the appropriated funds. As a
result, DoD may have incurred potential ADA violations. In an effort to ensure
the proper use of DoD funds, the DoD October 16, 2006, Memorandum was
issued to clarify financial management policy for assisted DoD purchases made
through non-DoD contracts.

In our report we also noted that the Austin Automation Center collected the full
contract amount and fee from DoD through the Intra-Governmental Payment and
Collection System. Though the entire fee was collected from the payment
system, work was not completed on the contract. These types of advance


                                    32 

    payments are not in accordance with Government policy. The Acting Deputy
    Chief Financial Officer directed DoD Components to stop the practice of
    advancing funds to non-DoD Federal entities. These directions include stopping
    the practice of permitting advance billings without receipt of goods or services.
    Furthermore, the Acting Deputy Chief Financial Officer stated that all future
    payments should be based on billings for completed services or delivered goods.
    In response, the Chief Financial Officer, Veterans Affairs notified the Acting
    Deputy Chief Financial Officer that all DoD funds will be obligated to ongoing
    contracting actions or deobligated by June 30 in keeping with DoD policy. Since
    the Chief Financial Officer agreed to comply with DoD advance payments policy,
    no further actions are required.


Recommendations, Management Comments, and Audit
  Response
    Recommendations pertaining to potential ADA violations are being consolidated
    into a separate DoD IG report, “Potential Antideficiency Act Violations on DoD
    Purchases Made Through Non-DoD Agencies Update.” Accordingly, we are not
    making any recommendations addressing the potential ADA violations in this
    report.

    B.1. We recommend that the Under Secretary of Defense (Comptroller)/
    Chief Financial Officer:

            a. Ensure that personnel at the U.S. Department of Veterans Affairs
    understand the current DoD policy on advance payments and funding
    purchases when performing assisted acquisitions. Specifically, the Under
    Secretary of Defense (Comptroller)/Chief Financial Officer must ensure
    guidance that prohibits advance payments has been distributed to field
    activities and to non-DoD agencies that procure goods and services on behalf
    of DoD.

    Comptroller Comments. The Deputy Chief Financial Officer, responding for
    the Under Secretary of Defense (Comptroller)/Chief Financial Officer, concurred.
    The Deputy Chief Financial Officer stated that the U.S. Department of Veterans
    Affairs and the DoD Components were notified of the DoD advance payment
    policy in March 2007.

    Air Force Comments. Although not asked to comment, the Air Force Deputy
    Surgeon General agreed and added that the funding issue is a problem.
    Furthermore, the Deputy stated definitive guidance on the various types of funds
    would be helpful.

    Audit Response. The Deputy Chief Financial Officer concurred. The Air Force
    Deputy Surgeon General also agreed with the recommendations addressed to the
    Under Secretary of Defense (Comptroller)/Chief Financial Officer. No further
    comments are necessary.



                                       33 

      b. Recover advance payments made to the U.S. Department of
Veterans Affairs, Austin Automation Center that have not been expended.

Comptroller Comments. The Deputy Chief Financial Officer concurred.

Air Force Comments. Although not required to comment, the Air Force Deputy
Surgeon General agreed.

Audit Response. Management comments are responsive. No further comments
are necessary.

B.2. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics obtain an opinion from the DoD General Counsel
on the correct course of action to resolve the improper payments and leasing
arrangement.

(USD)AT&L Comments. The Director of Defense Procurement and Acquisition
Policy, responding for the Under Secretary of Defense for Acquisition,
Technology, and Logistics, concurred and stated that the Department is
coordinating with the DoD General Counsel and the Office of the Under
Secretary of Defense (Comptroller) to resolve potential improper payments and
leasing issues. The Director added that resolution is expected by April 1, 2008.

Comptroller Comments. Although not required to comment, the Deputy Chief
Financial Officer agreed. Specifically, the Deputy Chief Financial Officer stated
his office directed all DoD Components and notified the U.S. Department of
Veteran Affairs to return all existing advancements retained at non-DoD Federal
agencies.

Air Force Comments. Although not asked to comment, the Air Force Deputy
Surgeon General agreed.

Audit Response. Management comments are responsive. No further comments
are necessary.




                                    34 

           C. 	Military Departments Contracting
               Approach for the Procurement of
               Medical Supplies and Services
           The Military Departments used different approaches to procure medical
           supplies and services. The Air Force decentralized its approach to procure
           medical services and supplies, while the Army and Navy centralized and
           regionalized their medical contracting. The Air Force’s decentralized
           approach compels requiring activities to procure medical requirements
           through either base contracting offices that lack medical expertise or
           through interagency contracting offices such as the VA that are not
           permitted to acquire personal services. The Army and Navy award
           medical acquisitions directly from organic medical contracting offices
           with expertise. Although there are pros and cons to the different
           contracting approaches used, DoD may be missing an opportunity to
           leverage its expertise and buying power through standardized contracting
           practices among the Military Departments. Standard military contracting
           practices for medical support should result in better acquisitions at
           reduced prices.


Personal Service Contracts Authorization and Requirements
    Personal Service Contracts. Section 1091, title 10, U.S.C., “Personal Services
    Contract,” authorizes only the Secretaries of Defense (with respect to MTFs of
    DoD) and Homeland Security (with respect to MTFs of the Coast Guard when the
    Coast Guard is not operating as part of the Navy) to enter into personal service
    contracts (PSC). A PSC is characterized by the employer-employee relationship
    it creates between the Government and the contractor’s personnel. PSCs are
    considered necessary for medical services because they assist with mission
    accomplishments, maintain readiness capability, and enhance the patient and
    provider relationship.

    Personal Service Contracts for Health Care Providers. DoD
    Instruction 6025.5, “Personal Services Contracts (PSCs) for Health Care
    Providers (HCPs),” January 6, 1995, implements policies, responsibilities, and
    procedures for the authority of PSCs of health care providers. The DoD
    instruction directs that the PSC is the preferred type of contract to use when
    similar services in the civilian sector would be considered personal services, such
    as nurses working directly for doctors. Moreover, PSC health care providers are
    not required to maintain medical malpractice liability insurance. Any malpractice
    claim against a health care provider contracted by a DoD PSC would be processed
    as if it were made by a DoD military or civil service health care provider.
    Therefore, PSCs are generally less expensive than non-PSCs because the
    Government assumes the risk of medical malpractice.




                                        35 

Military Departments Contracting Approach for Medical
  Goods and Services Acquisitions
    The Military Departments each have their own distinct contracting methods that
    they use to procure medical services. The contracting approach began with the
    Military Departments’ Surgeons General delegating responsibility for medical
    services acquisitions to the Army Health Care Acquisition Activity, the Naval
    Medical Logistics Command (NMLC), and the Air Force Medical Logistics
    Office. Both the Army and Navy commands have medical contracting personnel.
    The Army medical contracting office has more than 250 personnel who procure a
    variety of medical services through a centralized contracting method, while the
    Navy medical contracting office has about 50 personnel who procure professional
    medical services through a process similar to the centralized contracting method
    used by the Army. However, the Air Force chose to decentralize its medical
    acquisitions by having Air Force base contracting offices provide support services
    to MTFs. Air Force requiring organizations also make extensive use of
    interagency contracting by contracting through the VA and other Government
    agencies. However, all of the Military Departments must procure PSCs through
    DoD contracting avenues since only DoD and the Department of Homeland
    Security are authorized to enter into PSCs.

    The Air Force recognized a need for centralized contracting of PSCs when it
    established the Air Force Medical Service Commodity Council (AFMSCC). The
    AFMSCC has established two multiple-award PSC vehicles that may be used by
    Air Force requiring activities. The Army and Navy have established medical
    contracting offices that award PSCs. Furthermore, the Military Departments
    utilize the Defense Supply Center Philadelphia, a primary-level field activity of
    the Defense Logistics Agency, to procure pharmaceuticals and medical surgical
    supplies.

    Army Medical Contracting Approach. The Army centralized approach utilizes
    the Medical Command Health Care Acquisition Activity and Regional Medical
    Command contracting offices to procure medical services. The regional
    commands are divided into six regions consisting of the North Atlantic, the
    Southeast, the Great Plains, the Pacific, the Western, and the Europe regions.
    Most Medical Command contracts cover personal services authorized under the
    authority of 10 U.S.C. 1091. The Army uses two separate multiple-award task
    order contracts called the Innovative Medical Acquisition Program to procure
    services. The Army also uses the VA Federal supply schedule and Native
    American 8(a) contracts to procure medical services. The Army accounted for
    approximately $37.0 million or 10 percent of DoD purchases awarded through the
    VA in FY 2006. The Army Medical Command was established under the
    Command of the Army Surgeon General in October 1994.

    Navy Medical Contracting Approach. The Navy centralized approach employs
    the NMLC Contract Directorate to acquire personal service health contracts.
    Those PSCs are awarded under the authority of 10 U.S.C. 1091. The Fleet
    Industrial Supply Center Norfolk, Detachment Philadelphia contracting office
    handles non-PSCs medical contracts. The NMLC Contracting Directorate also
    procures medical goods centrally, or base contracting offices can procure medical


                                        36 

goods locally. NMLC contract specialists and contracting officers are experts in
health care service contracts. The Navy accounted for approximately $6.1 million
or 2 percent of DoD purchases awarded through the VA in FY 2006. NMLC
began in 1850 and acts as the technical manager for the Navy direct health care
services contracting program.

Air Force Medical Contracting Approach. The Air Force implemented a
decentralized method to allow Air Force MTFs the ability to procure medical
services and supplies through base contracting. Other options available to MTFs
include procuring medical requirements through the VA, or through other
contracting services. However, the Air Force Medical Service recently
established an Acquisition Management Directorate under the Assistant Surgeon
General for Modernization, which specializes in the acquisition of health care
services, supplies, and equipment.

The AFMSCC supports the Air Force by establishing enterprise-wide medical
acquisitions contracts. Those enterprise-wide medical acquisition contracts
improve customer support, reduce purchase cost of services, reduce variation in
services, increase standardization, and provide life-cycle management support. In
addition, the AFMSCC developed a strategy to acquire both Clinical Support and
Medical Administrative Support Services for all Air Force MTFs. The AFMSCC
satisfies medical group needs by minimizing duplication of efforts, standardizing
procurement policy, and providing purchasing flexibility. The AFMSCC was
established in July 2004.

The Air Force Service Designated Official stated that an Air Force organization
should first procure its requirements through base contracting. If the requiring
activity is unable to award the requirement through base contracting, the
organization is authorized to go through non-DoD designated officials. The Air
Force 1st Medical Group Commander stated that the base contracting office is not
medically trained, and hopes that a medical contracting office will be established
to assist the Air Force 1st Medical Group with its requirements. The Secretary of
Air Force, Contracting Operations Division indicated that the reason contracts
were awarded through the VA was due to Air Force base contracting offices not
having the resources to assist requiring activities with central contracts.
Furthermore, medical contracts are procured through the VA because the VA
offers a cheaper alternative than other options such as the Air Force Civil
Engineering Support Agency or the Corp of Engineers, which charge higher fees.
As previously mentioned, the Air Force accounted for approximately
$327.0 million or 88 percent of DoD purchases awarded through the VA in
FY 2006. However, Air Force medical contracts involving personal services
should only be awarded through DoD contracting organizations since DoD has a
waiver to obtain medical personal services contracts.

Recently, the Air Force developed other means of awarding health care contracts.
In 2005, the AFMSCC awarded an Air Force-wide Clinical Support Service
centralized contract for health care workers. The PSC provides the services of
physicians, nurses, and technicians to MTFs. All Air Force contracting offices
that support Air Force MTFs are authorized to place orders against the
$1.9 billion contract that covers a period of 4 years with two 3-year options that
could extend the ordering period to a total of 10 years. Air Force customers who


                                    37 

do not have a base contracting officer can contact the AFMSCC directly to
request support in processing their requests. More recently, the AFMSCC
awarded its second Air Force-wide contract under the Medical Administrative
Support Services. The 5-year, $96.4 million, multiple-award, indefinite-delivery,
indefinite-quantity ordering contract provides medical administrative positions
and services. The Air Force Service Designated Official stated that the Air Force
is transitioning high dollar value contracts from non-DoD agencies to the
AFMSCC. The Secretary of Air Force, Contracting Operations Division stated
that AFMSCC contracts improve business operations, small business
involvement, contracting operations, business relationships, and strategy.
Furthermore, the AFMSCC saves money and increases efficiency for the
Government. These Air Force-wide contracts assisted the AFMS in saving
money by competitively awarding each of the task orders among six contractors
and avoiding surcharges since there is no fee for the decentralized purchasing
offices using the AFMSCC. These PSCs cannot be awarded through the VA
since 10 U.S.C. 1091 does not authorize the VA to award PSCs.

Unified Medical Command Concept. Merging Army, Navy, and Air Force
medical contracting into a Unified Medical Command may streamline the military
health care system and enable DoD to provide better care to DoD military
personnel while keeping costs at a minimum. This concept of consolidating
military medical health services has been studied since 1948. According to
economists with the Center for Naval Analysis, the establishment of a Unified
Medical Command would provide a projected savings of $500 million annually
for DoD. Last year, the Defense Business Board, a group of outside management
experts that advise the Defense Secretary, unanimously recommended that the
Defense Secretary appoint a transition team to oversee the establishment of a
Unified Medical Command by January 1, 2007. The Defense Business Board
stated, “a joint command structure would inherently reduce costs through
eliminating redundant processes and consolidating personnel, resulting in a more
efficient and effective health care system.” The Unified Medical Command
would take charge of all Army, Navy, and Air Force direct-care health services.

The Army and Navy planned on forming a single Unified Medical Command;
however, the Air Force Surgeon General opposed the establishment of a Unified
Medical Command. The Air Force Surgeon General stated that the service
missions and cultures are different, and those differences justify having separate
medical staffs and resources. In December 2006, the Deputy Defense Secretary
decided not to endorse the Unified Medical Command, which would have
streamlined the military health care system. The media opinion was that the
decision not to establish a Unified Medical Command was primarily due to
opposition received from the Air Force. Instead, the Deputy Defense Secretary
approved a “new governance plan” for the health care system that directs joint
oversight over medical research, medical education and training, health care
delivery in major markets, and shared support services. Regardless of the
decision not to create a single Unified Medical Command, we believe there are
advantages to rethinking the contracting approach for acquiring medical services
and supplies.




                                    38 

Conclusion 

     DoD may be missing an opportunity to leverage its expertise and buying power to
     standardize contracting among the Military Departments. The opportunity to use
     its expertise and buying power from the consolidation of Military Departments’
     medical contracting approaches may allow more efficient and cost-effective
     procurement prospects. This is especially important with rapidly rising health
     care costs. According to DoD information, “DoD’s health care costs have almost
     doubled over the past five years. Costs in fiscal year 2006 were $37 billion, up
     from $19 billion in 2001. Health care costs are conservatively projected to reach
     $64 billion in fiscal year 2015, an estimated 12 percent of the total DoD budget,
     compared with 8 percent now and 4.5 percent in 1990.”

     We feel that the differing methods of procuring medical goods and services used
     by the Military Departments are an impediment to consolidating medical services.
     Contracting procedures for medical goods and services could be standardized
     without affecting military missions or cultures. Accordingly, the Under Secretary
     of Defense for Acquisition, Technology, and Logistics should work with the
     Assistant Secretary of Defense for Health Affairs to determine the best and most
     efficient method for procuring medical services and then ensure that all the
     Military Departments are using those methods. We believe DoD can benefit from
     using its leverage to acquire medical supplies and services.


Recommendation
            C. We recommend that the Under Secretary of Defense for
     Acquisition, Technology, and Logistics initiate and coordinate a review with
     the Assistant Secretary of Defense for Health Affairs to assess whether the
     Military Departments are purchasing medical goods and services through
     the most efficient and effective methods.

     (USD)AT&L Comments. The Director of Defense Procurement and Acquisition
     Policy, responding for the Under Secretary of Defense for Acquisition,
     Technology, and Logistics, concurred and stated the Department already began to
     implement the recommendation as part of its effort in strategic sourcing.
     Specifically, the recommendation is in consonance with Recommendation 5.a. of
     DoD IG Report No. D-2004-094, “Direct Care Medical Services Contracts,”
     June 24, 2004. The DoD IG report stated that the Assistant Secretary of Defense
     (Health Affairs), in conjunction with the Military Department Surgeon General,
     should develop a coordinated strategy for acquiring direct care medical services
     that includes the implementation of the “Centers of Excellence” concept. The
     Director added that the Army Surgeon General was tasked to develop a
     coordinated strategy for acquiring direct care medical services. Subsequently, the
     DoD Strategy Council for Acquiring Direct Care Medical Services was formed,
     and the Medical Command Health Care Acquisition Activity took the lead.




                                         39 

In June 2005, the DoD Strategy Council Report had three recommendations that
were to create a DoD organization with tri-service support responsibilities and
flexible contracting authority, establish strategic sourcing councils for key labor
categories, and standardize the acquisition process and related capabilities. In
April 2006 the Quadrennial Defense Review, Initiative 16, conducted follow-on
work to the DoD Strategy Council. This initiative addressed the purchasing of
goods and services through a more efficient and effective manner. Specifically,
the Quadrennial Defense Review focus is to develop a coordinated tri-service
process that facilitates sharing of personnel between facilities to enhance mission
capabilities, minimize competition among the military services in the same
market area and work with the VA if possible, respond to the needs of small
facilities, and establish multi-service market and TRICARE Regional Office
contracting capabilities able to support all services.

Army Comments. Although not asked to comment, the Deputy Assistant
Secretary of the Army (Policy and Procurement) agreed with the recommendation
to standardize the Military Departments contracting for medical goods and
services acquisition. The Deputy also stated that the Army already began to
implement the recommendation.

Air Force Comments. Although not asked to comment, the Air Force Deputy
Surgeon General agreed and stated that the Services are conducting a review
under the TRICARE Management Activity Quadrennial Defense Review
Roadmap for Medical Transformation.

Audit Response. The Director of Defense Procurement and Acquisition Policy
concurred. The Director stated DoD has been working on the implementation of
this recommendation. No further comments are required.




                                    40 

Appendix A. Scope and Methodology
   We conducted this performance audit from August 2006 through August 2007 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   This audit was a joint review between the DoD OIG and the VA OIG. We
   performed the audit in accordance with the “John Warner National Defense
   Authorization Act for Fiscal Year 2007.” This law requires the Inspectors
   General of DoD and the VA to review the policies, procedures, and internal
   controls for DoD purchases made through the VA. We reviewed a total of
   58 purchases at DoD and VA activities funded by 124 MIPRs valued at
   approximately $128.3 million. Thirty-four of the 58 purchases were reviewed
   solely at DoD activities and 9 of the 58 purchases were reviewed solely at VA
   activities. We reviewed 15 purchases at both DoD and VA activities. We
   reviewed 49 purchases at DoD activities funded by 112 MIPRs valued at
   $121.7 million. See the table for purchases reviewed and Appendix C, “Identified
   Contract Problems,” for detailed information on DoD and VA locations visited.
   We reviewed VA purchases initiated by DoD in May 2005 through ongoing
   procurements not yet awarded.

                              Purchases Reviewed

                Locations                             Purchases
                DoD                                      34
                VA                                        9
                DoD and VA                               15
                  Total                                  58


   The VA provided seven spreadsheets containing DoD purchases made by the VA
   contracting offices as the universe of the audit. We took a judgmental sample of
   58 purchases from the VA universe. We visited a total of 12 DoD and 5 VA
   organizations. The Navy organization visited was Jacksonville Naval Hospital.
   We visited Air Force organizations including the Air Combat Command, Air
   Education and Training Command, Air Force Medical Operations Agency, Air
   Force Medical Support Agency, Air Force 1st Medical Group, Air Force
   60th Medical Group, Air Force 96th Medical Group, Air Force 311th Human
   Systems Wing, Air Force 59th Medical Wing, and Air Force 579th Medical
   Group. We also visited the National Guard Bureau. Additionally, we visited five
   VA organizations, including the Joint Venture Acquisition Center, Austin
   Automation Center, Austin Acquisition Office, Denver Acquisition and Logistics
   Center, and the VASS.

                                      41 

For each site, we attempted to review a minimum of five purchases containing
contract actions between May 1, 2006, and September 30, 2006. We
judgmentally selected purchases from the VA universe and MIPRs sent to the VA
by the DoD organizations. We reviewed documentation maintained by the
contracting and program organizations to support purchases made through the
VA. The purchase documents reviewed included MIPRs and the VA acceptances,
statements of work, acquisition plans, task orders, cost proposals, surveillance
plans, invoices, sole-source justifications, price reasonableness determinations,
contract award documents, payment history documents, and miscellaneous
correspondence.

Our audit included four major areas of review at the DoD organizations and two
major areas of review at the VA organizations visited.

At each DoD organization visited, our review included the following.

   •	 We determined whether DoD organizations had internal controls to ensure
      that the proper types of funds and proper year of funds were used for DoD
      MIPRs sent to the VA. We determined whether the organization had
      written procedures covering the use of MIPRs to non-DoD organizations.
      For each purchase reviewed, we determined whether the appropriation
      code was correct and whether that code would be proper if the purchase
      had not been made through the VA.

   •	 We determined whether DoD requiring organizations had internal controls
      for defining requirements and planning acquisitions for purchases awarded
      on the VA contracts. For each purchase reviewed, we determined when
      the organization developed the requirement, why the VA was selected to
      make the purchase, and whether DoD determined if it was in the best
      interest of the Government to use the VA. In addition, we determined
      whether there was a bona fide need for the requirement in the fiscal year
      of the appropriation used to finance the requirement.

   •	 We determined whether DoD contracting activities are following
      established procedures for approving purchases made through the use of
      contracts awarded through the VA. Specifically, we determined whether a
      DoD contracting office was involved in planning the VA purchase.

   •	 We determined how contractor performance was being monitored in
      situations where DoD purchases were awarded on the VA contracts. For
      each purchase reviewed, we determined whether a DoD representative
      was assigned as the COR and signed off on acceptance of contractor work.

At each VA organization visited, our review included the following.

   •	 We determined whether the VA adequately competed DoD purchases
      according to the FAR and Defense Federal Acquisition Regulation
      Supplement. For each sole-source award, we determined whether the VA
      contracting officer prepared a Justification and Approval for Other Than
      Full and Open Competition that adequately justified the sole-source
      award.


                                   42 

   •	 We determined whether the VA contracting officers adequately
      documented that the prices paid for the DoD purchases were fair and
      reasonable.

These additional audit steps at the VA organizations were performed on 24 of the
58 purchases reviewed during the audit.

Use of Computer-Processed Data. The VA OIG provided spreadsheets with the
universe of DoD purchases for FY 2006. From the spreadsheets, we judgmentally
selected mostly high-value MIPRs for review. We did not assess the reliability of
the VA-furnished data during this audit. However, we did not find any
discrepancies in the data provided for the 58 purchases reviewed.

We did not assess the accuracy of the past performance information systems used
within DoD, or the Government-Wide Past Performance Information Retrieval
System, which is the official past performance system for compiling data on
contractor performance used throughout the Federal Government.

Government Accountability Office High-Risk Area. GAO has identified
several high-risk areas in DoD. This report provides coverage of the high-risk
area “Management of Interagency Contracting.”




                                    43 

Appendix B. Prior Coverage
    During the last 5 years, GAO, DoD IG, the Army, the Air Force, and the VA IG
    have issued 21 reports discussing interagency contracting. Unrestricted GAO
    reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
    DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.
    Unrestricted VA reports can be accessed at http:// www.va.gov.


GAO
    GAO Report No. GAO-07-310, “High-Risk Series: An Update,” January 2007

    GAO Report No. GAO-06-996, “Interagency Contracting: Improved Guidance,
    Planning, and Oversight Would Enable the Department of Homeland Security to
    Address Risks,” September 2006

    GAO Report No. GAO-05-456, “Interagency Contracting: Franchise Funds
    Provide Convenience, but Value to DOD is Not Demonstrated,” July 2005

    GAO Report No. GAO-05-201, “Interagency Contracting: Problems with DOD’s
    and Interior’s Orders to Support Military Operations,” April 2005

    GAO Report No. GAO-05-274, “Contract Management: Opportunities to
    Improve Surveillance on Department of Defense Service Contracts,” March 2005


DoD IG
    DoD IG Report No. D-2008-022, “FY 2006 DoD Purchases Made Through the
    National Institutes of Health,” November 15, 2007

    DoD IG Report No. D-2007-044, “FY 2005 DoD Purchases Made Through the
    Department of the Interior,” January 16, 2007

    DoD IG Report No. D-2007-042, “Potential Antideficiency Act Violations on
    DoD Purchases Made Through Non-DoD Agencies,” January 2, 2007

    DoD IG Report No. D-2007-032, “FY 2005 DoD Purchases Made Through the
    Department of the Treasury,” December 8, 2006

    DoD IG Report No. D-2007-023, “FY 2005 DoD Purchases Made Through the
    National Aeronautics and Space Administration,” November 13, 2006

    DoD IG Report No. D-2007-007, “FY 2005 DoD Purchases Made Through the
    General Services Administration,” October 30, 2006



                                      44 

    DoD IG Report No. D-2006-029, “Report of Potential Antideficiency Act
    Violations Identified During the Audit of the Acquisition of the Pacific Mobile
    Emergency Radio System,” November 23, 2005

    DoD IG Report No. D-2005-096, “DoD Purchases Made Through the General
    Services Administration,” July 29, 2005

    DoD IG Report No. D-2005-003, “DoD Antideficiency Act Reporting and
    Disciplinary Process,” October 14, 2004

    DoD IG Report No. D-2004-084, “Antideficiency Act Investigation of the
    Research, Development, Test and Evaluation, Defense-Wide Appropriation
    Account 97 FY 1989/1990 0400,” May 28, 2004

    DoD IG Report No. D-2003-090, “Use and Control of Military Interdepartmental
    Purchase Requests at the Air Force Pentagon Communications Agency,”
    May 13, 2003


Army
    AAA Report No. A-2007-0096-FFH, “Proper Use of Non-DoD Contracts
    U.S. Army Medical Command,” March 22, 2007

    AAA Report No. A-2004-0244-FFB, “Information Technology Agency Contract
    Management,” May 25, 2004


Air Force
    AFAA Report No. F2004-0006-FBP000, “GSA Military Interdepartmental
    Purchase Requests 353d Special Operations Group Kadena AB Japan,”
    November 10, 2004

    AFAA Report No. F2004-0046-FBP000, “GSA Military Interdepartmental
    Purchase Requests 390th Intelligence Squadron Kadena AB Japan,”
    August 11, 2004


VA IG
    VA Report No. 04-03178-139, “Audit of VA Acquisitions for Other Government
    Agencies,” May 5, 2006




                                        45 

                                                                                                                                                    Inadequate
                                                                                                                                                                   >
                                                                                                                                                                   ~
                                                                               Purchase      Purchase     No Audit   Inadequate     Inadequate         Price       ~
                                                                              Reviewed at   Reviewed at   Trail of     MIPR        Sole-Source      Reasonable     ~
             DoD Activity                             Purchase                   DoD            VA         Funds     Preparation   Justification   Determination
     Army                                                                                                                                                          ==
                                                                                                                                                                   e,
     1) National Guard Bureau          1) Strategic Services Support               •             •                       •              •            Adequate      .-.
                                       2) Manpower Resource Management                                                                                             ~
                                                                                   •             •          N/D          •              •               •
                                            Support
     2) Army Research Laboratory       3 IV&V                                                    •          N/R          •              •               •          n
     Navy                                                                                                                                                          •
                                       4) Business Operations Analyst                                                                                              ~
     3) Jacksonville Naval Hospital                                                •             •                       •          Adequate            •
                                            Services                                                                                                               e,
                                       5) Medical Administrative/Records                                                                                           ~
                                                                                   •             •                       •          Competed            •
                                            Clerk
                                       6) Central Appointment Data Entry                                                                                           ==
                                                                                   •             •                       •          Competed            •          ....

                                                                                                                                                                   .-.
                                            Clerks
                                       7) Third Party CollectionslBillings         •             •                       •          Competed            •          ::;
                                       8 Emergency Services for IRMD               •                                     •                                         ~
     Air Force                                                                                                                                                     e­
~    4) AFMOAlAFMSA, S.A.              9)    Propaq Encore Monitors                              •          NIR          •          Adequate         Adequate
0\   5) AFMOA, Brooks City-Base       10 )   HAMS*                                                                                                                 n

                                      11 )   Chiller Replacement"
                                                                                   •                         •           •                                         e
                                      12 )   Furniture
                                                                                   •                                     •
     6) AFMOA Bolling                 13 )   Third Party Collections
                                                                                   •                                     •          Competed         Adequate      ~
                                                                                                                                                                   ==
                                      14)    Third Party Collections
                                                                                   •             •                       •          Competed                       --e
                                                                                   •             •                       •                           Adequate
     7) Air Force Communications
                                      15) Information Technology Services                        •          NIR          •              •               •          ~
                                                                                                                                                                   =
           Agency                                                                                                                                                  ~
     8) Air Force Surgeon General     16) Kiosks                                                 •          N/R          •              •               •
                                      17) Modernization Support (Lease)                          •          N/R          •              •               •          ~
     9) Air Education and Training    18) Information Management!                                                                                                  --e
           Command                           Information Technology                •                                     •                                         e
                                      19) HIP AA Operations and Services .         •                                     •
                                      20) HP Printers                              •                                     •                                         ....cr 

                                      21) Medical Readiness and Data                                                                                               ~
                                             Quality Managers                      •                                     •                                         s

                                      22 ) Coding Specialist                       •                                     •                                         rI:J
                                      23 ) Repair HVAC Air Handlers                              •          N/R          •          Competed            •
     10) 1st Medical Group            24 ) IT Specialist                           •                                     •
                                      25 ) DB GYN Nurse                            •                                     •
                                      26 ) Lactation Nurse                         •
     11) 60th Medical Group           27 ) Family Practice Physicians              •                                     •
                                      28 ) Physicians & Medical Technicians        •
                                      29) Furniture                                •
                                      30 Flexible Scopes                           •             •                        •         Competed         Adequate
                                      31) Slide Stainer                            •


     Note: See the footnotes and acronym definitions at the end of Appendix F.
                                                                                                                                                    Inadequate
                                                                                Purchase    Purchase     No Audit    Inadequate     Inadequate         Price
                                                                                Reviewed    Reviewed      Trail of     MIPR        Sole-Source      Reasonable
            DoD Activity                            Purchase                     at DoD      at VA        Funds      Preparation   Justification   Determination
    60th Medical Group, Cont'd       32) Epidural Pump                             •                                      •
    12) AFMSAlAFMOA,
                                     33) Motorola Radios                           •                        •
          Fort Detrick
                                     34) Deployable Environmental Control
                                           Unit                                    •                        •             •
                                     35) Portable Therapeutic Liquid Oxygen
                                           System Support                          •                        •
                                     36) Portable Therapeutic Liquid Oxygen
                                           System Support                          •                        •             •
                                     37 ) War Reserve Materiel Maintenance         •                        •             •
    13) 96th Medical Group           38 Anesthesiologist                           •
                                     39 Post Anesthesia Registered Nurse           •           •                                    Competed         Adequate
                                     40 Nurse Practitioners                        •           •                          •         Competed         Adequate
                                     41 Pharmacy Service                           •
                                     42 Radiologist**                              •
    14) Air Combat Command           43 Medical Coding and Auditing                •           •                                    Competed         Adequate
                                     44) Financial Management Consultation
                                           Support                                 •                                      •
~
                                     45 Facilities Maintenance                     •           •                                       N/A               •
~                                    46) Global Expeditionary Medical
                                           System                                  •                                      •
                                     47) Removal and Replacement Chillers                      •           N/R            •            N/A           Adequate
    15) 311th Human Systems
                                     48) Metal Analyzer                            •                        •             •
          Wing
                                     49)    Simulator                              •                        •             •
    16) 59th Medical Wing            50)    RNs and LVNs                           •                        •
                                     51 )   RNs                                    •                        •             •
                                     52 )   RNs and LVNs Inpatient Cardiology      •                        •             •
                                     53 )   Chiller Replacement                    •                        •             •
                                     54 )   Pumps                                  •           •            •                            •           Adequate
                                     55)    Blood Gas Analyzer                                 •           N/R            •              •               •
    17) 579th Medical Group          56)    Roof Repair                            •           •                          •         Adequate             •
                                     57)    Appointment Clerks                     •                                      •
    DoD Field Activity
    18) Defense Civilian Personnel   58) Civilian Personnel Management                                                                                   •
                                                                                               •           N/R            •         Competed
          Management Service               System Support
    Total 18 DoD Activities          Total 58 DoD Purchases Reviewed               49          24          13 No         44        11 Reviewed      24 Reviewed
                                                                                Purchases   Purchases                Inadequate
                                                                                                        10 Unknown                 8 Inadequate    14 In adequate




    Note: See the footnotes and acronym definitions at the end of Appendix F.
Appendix D. 	Potential Antideficiency Act
             Violations That Occurred in
             FY 2006

Office of the Secretary of the Army Manpower and Reserve
  Affairs
    Recruiting Tool. The Office of the Secretary of the Army Manpower and
    Reserve Affairs sent MIPR MIPR05273AM001 for $2 million, using FY 2005
    Army O&M funds; MIPR MIPR05273AM002 for $4 million, using FY 2005
    Army O&M funds; and MIPR MIPR05273CA003 for $550,000, using FY 2005
    Army O&M funds to the VA on September 30, 2005. The VA accepted the funds
    on September 30, 2005, the same day the funds expired. DoD purchased
    recruiting tools. On March 2, 2006, the VA personnel approved the Justification
    and Approval for Other Than Full and Open Competition. The Justification and
    Approval states that the services expire on February 12, 2005, and
    December 31, 2005. Services were being performed on an extension that expired
    on February 12, 2006. The VA awarded a contract from March 2, 2006, through
    December 31, 2006. Use of FY 2005 O&M funds to satisfy FY 2006
    requirements does not meet the intent of the bona fide needs rule.

Air Force Surgeon General
    The Air Force Surgeon General sent MIPR F1ATD45270G001 for $3.7 million
    using FY 2005 Defense Health Program funds to the VA on September 28, 2005.
    The VA accepted the funds on September 28, 2005, to purchase the Information
    Technology Knowledge Management Support. The FY 2005 Defense Health
    Program funds expired on September 30, 2005. From this MIPR, the Air Force
    Surgeon General made at least four purchases:

       •	 SPI Dynamics. The VA issued and signed the purchase order for supplies
          or services for $27,220 on May 25, 2006, after the funding had expired.
          This was an open market purchase. The items purchased were SPI
          Dynamics Web Inspect Core Perpetual User License and maintenance and
          SPI Dynamics Web Inspect Professional Service 3-day classroom course
          with certification. Use of FY 2005 Defense Health Program funds to
          satisfy FY 2006 requirements does not meet the intent of the bona fide
          needs rule.

       •	 EMC Storage Solutions. The VA issued and signed the purchase order
          for supplies or services for $318,704 on March 16, 2006, after the funding
          had expired. This was a GSA purchase. The items purchased were EMC
          Storage Solutions. Use of FY 2005 Defense Health Program funds to
          satisfy FY 2006 requirements does not meet the intent of the bona fide
          needs rule.

                                       48 

       •	 Computer Equipment. The VA issued and signed the purchase order for
          supplies or services for $69,904 on February 16, 2006, after the funding
          had expired. The contract used was GS-35F-4076D. The items purchased
          were Dell Server PowerEdge and Dell Server Storage Enclosure
          PowerVault. Use of FY 2005 Defense Health Program funds to satisfy
          FY 2006 requirements does not meet the intent of the bona fide needs rule.

       •	 BladeFram Base. The VA issued and signed the purchase order for
          supplies or services for $718,606 on February 16, 2006, after the funding
          had expired. The contract used was GS-35F-0330J. The items purchased
          were BladeFram Base, software/license, Processing Blade-2 Socket Dual
          Core 2.2 GHz Opteron, additional Blade items, and Enterprise Normal
          Business Hours Support. Use of FY 2005 Defense Health Program funds
          to satisfy FY 2006 requirements does not meet the intent of the bona fide
          needs rule.


U.S. Air Force Joint Communications Support Element
    Rapid Deployment Communications Package. The U.S. Air Force Joint
    Communications Support Element sent MIPR F2VTJ55266GC01 for $397,325
    using FY 2005 Air Force O&M funds to the VA on September 23, 2005. The VA
    accepted the funds on September 28, 2005. Amendment 1 for $3,040 was sent to
    the VA on September 27, 2005, and the VA accepted the funds on
    September 28, 2005. Amendment 2 for $780 was sent to the VA on
    September 27, 2005, and the VA accepted the funds on September 28, 2005. The
    total of the funds sent was $401,146. FY 2005 O&M funds expired on
    September 30, 2005. The VA issued and signed the purchase order for supplies
    or services for $358,749 on December 14, 2005, using GSA contract
    GS-35F-4655H for the Rapid Deployment Communications Package. The VA
    purchased a commercial item off of the Federal supply schedule more than
    2 months after the funds had expired. Clearly, the purchase was not a bona fide
    need of the year of the funds used.




                                      49 

                                                                                                                                    No DoD
                                                                                                         Inadequate                Collection
                                                                                                        Delineation of                and
                                                                            Inadequate    Inadequate      Contract       No DoD   Recording of
                                                                            Acquisition   Interagency   Administration    COR         Past        No
             DoD Activity                          Purchase                  Planning     Agreement        Duties        Letter   Performance    QASP
    Army
    1) National Guard Bureau          1) Strategic Services Support                           •                                        •          •
                                      2) Manpower Resource
                                           Management Support                   •                                                      •          •
    2) Army Research Laboratory       3 IV&V                                   N/R           N/R             N/R          N/R         N/R        N/R
    Navy
    3) Jacksonville Naval Hospital    4) Business Operations Analyst
                                           Services                             •             •               •            •           •          •
                                      5) Medical Administrative/Records
                                          Clerks                                •             •               •            •           •
                                      6) Central Appointment Data Entry
                                           Clerks                               •             •               •            •           •          •
                                      7) Third Party Collections /
                                          Billings                              •             •               •            •           •          •
                                      8) Emergency Services for IRMD            •             •               •            •           •          •
    Air Force
    4) AFMOAlAFMSA, S.A.              9) Propaq Encore Monitors                N/R           N/R             N/R          N/R         NIR        N/R
    5) ASMOA, Brooks City-Base       10)    HAMS*                               •             •                            •           •          •
                                     11)    Chiller Replacement*                •             •                            •           •         N/A
                                     12)    Furniture                           •             •                                        •         N/A
    6) ASMOA Bolling                 13)    Third Party Collections             •             •                                        •
                                     14)    Third Party Collections             •             •                                        •
    7) Air Force Communications      15)    Information Technology
                                                                               N/R           N/R             N/R          N/R         N/R        N/R
          Agency                              Services
    8) Air Force Surgeon General     16)    Kiosks                             N/R           N/R             N/R          N/R         N/R        N/R
                                     17)    Modernization Support (Lease)      N/R           N/R             N/R          N/R         N/R        N/R
    9) Air Education and Training    18)    Information Management!
           Command                            Information Technology            •             •               •                        •          •
                                     19)    HIPAA Operations and Services       •             •               •            •           •
                                     20)    HP Printers                         •             •               •                        •         N/A
                                     21 )   MR&D Quality Managers               •             •               •            •           •          •
                                     22     Coding Specialist                   •             •               •            •           •          •
                                     23     Repair HVAC Air Handlers           N/R           N/R             N/R          N/R         N/R        N/R
    10) 1st Medical Group            24 )   IT Specialist                       •             •               •            •           •          •
                                     25)    OB GYN Nurse                        •             •               •            •           •
                                     26     Lactation Nurse                      •                                         •           •
    11) 60th Medical Group           27)    Family Practice Physicians                                                                 •          •
                                     28)    Physicians & Medical
                                              Technicians                                                                              •
                                     29)    Furniture                            •            •                            •           •         N/A
                                     30)    Flexible Scopes                      •            •                            •           •         N/A
                                     31)    Slide Stainer                        •            •                            •          N/A        N/A




Note: See footnotes and acronym definitions at the end of Appendix F.
                                                                                                                                         No DoD
                                                                                                               Inadequate               Collection
                                                                                                               Delineation                 and
                                                                               Inadequate      Inadequate      of Contract   No DoD    Recording of
                                                                               Acquisition     Interagency     Administra     COR          Past        No
                   DoD Activity                      Purchase                   Planning        Agreement      tion Duties    Letter   Performance    QASP
         60th Medical Group, Cont'd        32 Epidural Pump                         •               •                          •           N/A         N/A
          12) AFMSAJAFMOA,
                                           33) Motorola Radios                                                                 •            •         N/A
              Fort Detrick
                                           34) Deployable Environmental
                                                                                    •               •                          •            •         N/A
                                                 Control Unit
                                           35) Portable Therapeutic Liquid 

                                                  Oxygen System Support 
                                                      •            •          •
                                           36) Portable Therapeutic Liquid 

                                                  Oxygen System Support 
                                                      •            •          •
                                           37) War Reserve Materiel
                                                                                    •               •              •          N/D           •          •
                                                  Maintenance
          13) 96th Medical Group           38) Anesthesiologist                     •                                                       •
                                           39) Post Anesthesia Registered 

                                                  Nurse 
                           •                                                       •
                                           40 Nurse Practitioners                   •                                                       •
                                           41 Pharmacy Service                      •                                                       •
                                           42 Radiologist**                         •                                                      N/A
                                           43) Medical Coding and
          14) Air Combat Command                                                                                                            •
                                                  Auditing
                                           44) Financial Management 

Vl
                                                  Consultation Support 
                            •              •                        •
~                                          45 Facilities Maintenance                                                          N/D                     N/D
                                           46) Global Expeditionary 

                                                                                                                                            •
                                                  Medical System 
                                  •              •                        •
                                           47) Removal and Replacement
                                                                                   N/R             N/R            NIR         N/R          NIR        N/R
                                                  Chillers 

          15) 311th Human Systems Wing 
   48) Metal Analyzer                       •               •                           •           •         N/A
                                           49 Simulator                             •               •                           •           •         N/A
          16) 59th Medical Wing            50 RNsand LVNs                                           •              •            •           •          •
                                           51 RNs                                                   •              •            •           •          •
                                           52) RNs and LVNs Inpatient 

                                                  Cardiology 
                                      •              •            •           •          •
                                           53 Chiller Replacement                                   •                                       •         N/A
                                           54 Pumps                                 •                                           •           •         N/A
                                           55 Blood Gas Analyzer                   NIR             N/R            NIR         NIR          N/R        N/R
          17) 579th Medical Group          56 Roof Repair                           •               •               •                       •         N/A
                                           57) Appointment Clerks                   •                                           •           •
         DoD Field Activity
                                           58) Civilian Personnel
         18) Defense Civilian Personnel
                                                 Management System                 N/R             N/R            N/R         NIR          N/R        N/R
              Management Service
                                                 Support
         Total 18 DoD Activities           58 Purchases                        35 Inadequate   33 Inadequate       19         28 No       46 No       18No
                                                                                                               Inadequate




     Note: See footnotes and acronym definitions at the end of Appendix F.
                                                                                                             MIPR
DoD Activity                      Purchase                           MIPRNumber              Appropriation   Amount

Army

1) National Guard Bureau      1   Strategic Services Support    1    MIPR5KDVAJ3543          ArmyNGO&M       $3,000,000

                                                                2    MIPR5KDVAJ3543 (A 1)    ArmyNGO&M       $1,000,000

                                                                3    F9WFJS5354G003          AirNGO&M        $28,000

                                                                4    MIPR6IBIGJ3627          ArmyNGO&M       $600,000

                                                                5    MIPR6IBIGJ3627 (A 1)    ArmyNGO&M       $1,100,000
                                  Manpower Resource
                              2    Management Support           6    MIPR6BDVAPP005          ArmyNGO&M       $95,121

                                                                7    MIPR6EIMAPP007          ArmyNGO&M       $1,281,159

                                                                8    MIPR6ERCMPP008          ArmyNGO&M       $3,422,773

                                                                9    MIPR6ERCMPP008 (AI)     ArmyNGO&M       $1,454,376

                                                                10   MIPR6EATTAV504          ArmyNGO&M       $370,660

2) Army Research Laboratory   3   IV&V                          11   MIPR6HAATAC081          DHP             $143,420

Navy
3) Jacksonville Naval             Business Operations Analyst
Hospital                      4   Services                      12   N0023206MPPOO08         DHP             $65,000

                                                                13   N0023206MPP0008 (A 1)   DHP             $3,244

                                                                14   N0023206MPPPOI0         DHP             $29,970
                                  Medical Administrative/
                              5    Records Clerks               15   NOO23206MPPOOOI         DHP             $900,000

                                                                16   N0023206MPPOOOI (A 1)   DHP             ($51,993)




Note: See the list of acronym definitions at the end of Appendix F.
                                                                                                                    MIPR
     DoD Activity                        Purchase                        MIPRNumber                 Appropriation   Amount
     Jacksonville Naval Hospital,
      Cont'd                                                        17   N0023206MPPOOOI (A 2)      DHP             $120,565

                                                                    18   N0023206MPPOO09            DHP             $132,880

                                                                    19   N0023206MPP0009 (A 1)      DHP             $1,328
                                         Central Appointment Data
                                    6     Entry Clerks              20   N0023206~P6PP02            DHP             $392,215

                                                                    21   N0023206~P6PP02    (A 1)   DHP             $5,516

                                                                    22   N0023206~P6PP02    (A 2)   DHP             $43,593
                                         Third Party Collections/
                                    7     Billings                  23   N0023206MP6PP03            DHP             $453,200

                                                                    24   N0023206MP6PP03 (A 1)      DHP             ($38,528)
                                         Emergency Services for
                                    8    IRMD                       25   N0023206MP6PP06            DHP             $202,000

VI
                                                                    26   N0023206~6PP06     (A 1)   DHP             $101,000
W
                                                                    27   N0023206~6PP06     (A 2)   DHP             ($27,736)

     Air Force
     4)   AFMOA/AF~SA,     S.A.
                                    9    Propaq Encore Monitors     28   V9133-0024                 Defense WCF     $357,515
     5) AFMOA, Brooks
         City-Base                  10   HAMS·                      29   F 1J4AK6257GAO1            DHP             $39,410,000

                                    11   Chiller Replacement"       30   F 1J4AK6065GA02            DHP             $588,247

                                                                    31   FIJ4AK6065GA02 (A 1)       DHP             ($257,978)

                                    12   Furniture                  32   F 1J4AK6045 G002           DHP             $4,925,000

                                                                    33   FIJAK6045G002   (A 1)      DHP             ($1,907,991)

     6) AFMOA Bolling               13   Third Party Collections    34   FIATB16195G004             DHP             $5,321,007




     Note: See the list of acronym definitions at the end of Appendix F.
                                                                                                                   MIPR
     DoD Activity                         Purchase                          MIPRNumber             Appropriation   Amount

     AFMOA Bolling, Cont'd                                             35   FIATB15252G002         DHP             $1,401,175

                                                                       36   FIATB15252G002 (A 1)   DHP             $4,186,905

                                                                       37   FIATB15252G002 (A 2)   DHP             $569,258

                                                                       38   FIATB15252G002 (A 3)   DHP             $102,000

                                     14   Third Party Collections      39   FIATB16195G003         DHP             $6,911,414

                                                                       40   F 1ATB 15252GOOI       DHP             $1,646,703

                                                                       41   FIATB15252GOOI (A 1)   DHP             $4,916,197

                                                                       42   FIATB15252GOOI (A 2)   DHP             $552,278
Vl
~                                                                      43   FIATB15252GOOI (A 3)   DHP             ($500,000)
     7) Air Force Communications          Information Technology
         Agency                      15   Services                     44   F3ST815327GCOI         Air Force O&M   $99,960

                                                                       45   F3ST815327GCOI (A 1)   Air Force O&M   $0

                                                                       46   F3ST815327GCOI (A 2)   Air Force O&M   $210,344

     8) Air Force Surgeon General    16   Kiosks                       47   FlATD46249GOO1         DHP             $625,260
                                          Modernization Support
                                     17   (Lease)                      48   FIATD46221GOOI         DHP             $2,356,200
     9) Air Education and Training        Information Management!
         Command                     18    Information Technology      49   F3PF375222GC02         DHP             $5,149,781
                                          HIPAA Operations and
                                     19    Services                    50   F3PF376216GOOI         DHP             $383,569

                                     20   HP Printers                  51   F3PF376072GNOI         DHP             $372,391
                                          Medical Readiness and Data
                                     21    Quality Managers            52   F3PF375347GOOI         DHP             $345,412

                                                                       53   F3PF375347GOOl (A 1)   DHP             ($25,000)




     Note: See the list of acronym definitions at the end of Appendix F.
                                                                                                                    MIPR
        DoD Activity                       Purchase                          MIPRNumber             Appropriation   Amount
        Air Education and Training
         Command, Cont'd             22    Coding Specialist            54   F3PF375222GOOI         DHP             $6,325,000

                                                                        55   F3PF375222GOOI (A 2)   DHP             ($132,611)

                                                                        56   F3PF375222GOOI (A 3)   DHP             ($600,525)

                                     23    Repair HVAC Air Handlers     57   F3PF3 76068GOO 1       DHP             $2,474,500

                                                                        58   F3PF376068GOOI (A 2)   DHP             ($1,458,076)
        10) 1st Medical Group
                                     24    IT Specialist                59   F2Q4016274GOO6         DHP             $225,089

                                     25    OB GYNNurse                  60   F2Q40 16274G007        DHP             $212,221

                                     26    Lactation Nurse              61   F2Q4016274G02          DHP             $56,944

        11) 60th Medical Group       27    Family Practice Physicians   62   F3Z4535214GOOI         DHP             $619,881

                                                                        63   F3Z4535214GOOI (A 1)   DHP             ($127,500)
VI
 

VI
 
                                      Physicians & Medical
                                     28    Technicians                  64   F3Z4535209GOOI         DHP             $1,361,083

                                                                        65   F3Z4535209GOOI (A 1)   DHP             ($130,000)

                                     29    Furniture                    66   V4427-0111             Defense WCF     $548,935

                                                                        67   V4427-0111 (A 1)       Defense WCF     $0

                                      30   Flexible Scopes              68   V4427-0053             Defense WCF     $622,919

                                                                        69   V4427-0053 (A 1)       Defense WCF     $3,177

                                                                        70   V4427-0053 (A 2)       Defense WCF     $6,199

                                      31   Slide Stainer                71   V4427-0070             Defense WCF     $9,917

                                                                        72   V4427-0070 (A 1)       Defense WCF     $539




        Note: See the list of acronym definitions at the end of Appendix F.
                                                                                                                          MIPR
      DoD Activity                       Purchase                           MIPRNumber             Appropriation          Amount

      60th Medical Group, Cont'd   32    Epidural Pump                 73   V4427-0115             Defense WCF            $31,212
      12) AFMSAlAFMOA,
           Fort Detrick            33    Motorola Radios               74   F1ATB25364G003         AF Other Procurement   $753,568

                                                                       75   F1ATB25364G003 (A 1)   AF Other Procurement   ($112,320)
                                         Deployable Environmental
                                   34    Control Unit                  76   F1ATB26023G001         AF Other Procurement   $2,115,850
                                         Portable Therapeutic Liquid
                                   35    Oxygen System Support         77   F1ATB26234G002         Air Force O&M          $388,609

                                                                       78   F1ATB26234G002 (A 1)   Air Force O&M          $13,251
                                         Portable Therapeutic Liquid
                                   36    Oxygen System Support         79   F1ATB26040G001         Air Force O&M          $276,461

                                                                       80   F1ATB26040G001 (A 1)   Air Force O&M          $38,178
Vl                                       War Reserve Materiel
0'\
                                   37    Maintenance                   81   F1ATB26088G001         DHP                    $10,200,000

                                                                       82   F1ATB26088G001 (A 1)   DHP                    $30,000

                                                                       83   F1ATB26088G001 (A 2)   DHP                    ($142)

       13) 96th Medical Group      38    Anesthesiologist              84   F1T4AS5138G004         DHP                    $952,684

                                                                       85   F1T4AS5138G004 (A 1)   DHP                    ($23,421)

                                                                       86   F1T4AS5138G004 (A 2)   DHP                    $101,000
                                         Post Anesthesia Registered
                                    39    Nurse                        87   F1T4AS5143G019         DHP                    $278,011

                                                                       88   F1T4AS5143G019 (A 1)   DHP                    ($702)

                                                                       89   F1T4AS5143G019 (A 2)   DHP                    ($32,958)

                                    40   Nurse Practitioners           90   F1T1AS6135G009         DHP                    $206,404

                                    41   Pharmacy Service              91   F1T4AS5143G021         DHP                    $158,820




      Note: See the list of acronym definitions at the end of Appendix F.
                                                                                                                          MIPR
               DoD Activity                       Purchase                        MIPRNumber              Appropriation   Amount

               96th Medical Group, Cont'd                                   92    F 1T4AS5143G021 (A 1)   DHP             $4,353

                                                                            93    F1T4AS5143G021 (A 2)    DHP             ($37,569)

                                            42    Radiologists"             94    Fl T4AS5180G001         DHP             $552,470

                                                                            95    FIT4AS5180GOOI (AI)     DHP             ($187,197)

                                                                            96    FIT4AS5180G001 (A2)     DHP             ($361,657)
                                                  Medical Coding and
               14) Air Combat Command       43    Auditing                  97    F2QF246059GOO1          DHP             $3,014,190

                                                                            98    F2QF246059GOOl (A 1)    DHP             ($147,519)
                                                  Financial Management
                                            44     Consultation Support     99    F2QF246082GOO1          DHP             $152,422

                                                                            100   F2QF246082GOOI (A 1)    DHP             $31,398

Vl
                                                                            101   F2QF246082GOOI (A 2)    DHP             $0
.......:J
 

                                            45    Facilities Maintenance    102   F2QF245266G002          DHP             $154,604
                                                  Global Expeditionary
                                            46     Medical System           103   F2QF246192G002          DHP             $177,959

                                                                            104   F2QF246192G002 (A 1)    DHP             $0

                                                                            105   F2QF246192G002 (A 2)    DHP             $2,040

                                                                            106   F 1ATB26234GOO1         Air Force O&M   $76,492
                                                  Removal and Replacement
                                             47   Chillers                  107   F2QF246101G001          DHP             $333,539

                                                                            108   F1J4AK6144GAOI          DHP             $140,071
               15) 311th Human Systems
               Wing                          48   Metal Analyzer            109   FM2855-5249-0122        Defense WCF     $154,023

                                             49   Simulator                 110   FM2855-5265-0094        Defense WCF     $156,568




               Note: See the list of acronym definitions at the end of Appendix F.
                                                                                                                   MIPR
     DoD Activity                      Purchase                       MIPRNumber               Appropriation       Amount
     311th Human Systems Wing,
     Cont'd                                                     111   FM2855-5265-0094 (A 1)   Defense WCF         ($8,181)

     16) 59th Medical Wing        50   RNs and LVNs             112   F2MTLF5202G007           DHP                 $1,831,846

                                                                113   F2MTLF5202G007 (A 1)     DHP                 ($403,643)

                                  51   RNs                      114   F2MTLF5 202GO13          DHP                 $1,018,840

                                                                115   F2MTLF5202GO 13 (A 1)    DHP                 $51,695
                                       RNs and LVNs Inpatient
                                  52    Cardiology              116   F2MTLF5202G005           DHP                 $1,230,970

                                                                117   F2MTLF5202G005 (A 1)     DHP                 $57,914

                                  53   Chiller Replacement      118   F2MTLF619GOO1            DHP                 $176,610
VI
00
                                  54   Pumps                    119   V3047-0195               DefenseWCF          $346,443

                                                                120   V3047-0195 (A 1)         Defense WCF         (3,397)

                                  55   Blood Gas Analvzer       121   F2MTLF6124GLO1           DHP                 $55,626

     17) 579th Medical Group      56   Roof Repair              122   F1A4A06076GG01           DHP                 $287,640

                                  57   Appointment Clerks       123   FIA4A06101GG01           DHP                 $175,492

     DoD Field Activity
      18) Defense Civilian             Civilian Personnel
          Personnel Management          Management System
          Service                 58    Support                 124   AS6H5A600076MP           Defense- Wide O&M   $1,328,236



     18 DoD Activities                 58 Purchases             124   MIPRs                    Total               $128321,886




     Note: See the list of acronym definitions at the end of Appendix F.
                                       Appendixes Abbreviations, Acronyms, and Footnotes Defined

      Abbreviations                                                         Footnotes 

      A1            Amendment 1                                             *Contract Not Provided 

      A2            Amendment 2                                             **Contract Cancelled 

      A3            Amendment 3 

      N/A           Not Applicable 

      N/R           Not Reviewed 

      N/D           Did not determine due to lack of documentation 

      S.A.          San Antonio
      T.O.          Task Order

      Acronyms
      AFMOA         Air Force Medical Operations Agency                     IT            Information Technology
      AFMSA         Air Force Medical Support Agency                        IV&V          Independent Verification and Validation
Vl	
      NG            National Guard                                          LVN           Licensed Vocational Nurses
'0	   NGB           National Guard Bureau                                   MR&D          Medical Readiness and Data
      DHP           Defense Health Program                                  O&M           Operation and Maintenance
      HAMS          Hospital Aseptic Management Services                    OB/GYN        Obstetrics and Gynecology
      HIPAA         Health Information Portability Accountability Act       RN            Registered Nurses
      HP            Hewlett Packard                                         WCF           Working Capital Fund
      HVAC          Heating, Ventilation, and Air Conditioning
      IRMD          Information Resources Management Department




      Note: See the list of acronym definitions at the end of Appendix F.
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
   Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense for Health Affairs
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Chief, National Guard Bureau

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Commanding Officer, Jacksonville Naval Hospital

Department of the Air Force
Commander, Air Combat Command
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Air Force Surgeon General
Auditor General, Department of the Air Force
Commander, Air Education and Training Command
Commander, 1st Fighter Wing
Commander, 59th Medical Wing
Commander, 60th Medical Group
Commander, Air Force 96th Medical Group
Commander, Air Force 311th Human Systems Wing
Commander, Air Force 579th Medical Group

Other Defense Organizations
Director, Defense Finance and Accounting Service




                                          60 

Non-Defense Federal Organization
Office of Management and Budget
Inspector General, U.S. Department of Veterans Affairs

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
Senate Committee on Veterans’ Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Committee on Veterans’ Affairs
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                          61 

Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics
Comments

                          OFFICE OF THE UNDER SECRETARY OF DEFENSE
                                          3 0 0 0 DEFENSE PENTAGON
                                         WASHINGTON, DC 20301-3000



                                                                              NOV    21   2007
      ACQUISITION,
     TECHNOLOGY
     AND LOGISTICS

       MEMORANDUM FOR DEPUTY ASSISTANT INSPECTOR GENERAL
                        ACQUISITION AND CONTRACT MANAGEMENT

       THROUGH: DIRECTOR, ACQUISITION RESOURCES AND ANALYSIS NS 11/28/07

       SUBJECT: Response to DoDIG Draft Audit Report on "FY 2006 DoD Purchases
                Made Through the U.S. Department Of Veterans Affairs," (Project No.
                D2006-D000CF-0244.000) September 26, 2007


              As requested, I am providing the USD (AT&L) response to recommendations
       A.1 (a-g), B.2, and C of the subject draft report.

       Recommendation A.l (a) The OIG recommended that the Under Secretary of Defense
       for Acquisition, Technology, and Logistics, develop a training course that instructs
       contracting and program office personnel on proper acquisition planning and contract
       administration for assisted acquisitions.

       Response: Concur: The Defense Acquisition University has commenced a review of
       all course materials related to Interagency Acquisition. DAU in collaboration with DPAP
       and GSA has in process a new course entitled "The Essentials of Interagency
       Acquisition" that is expected to be available by February 1, 2008. As part of the MOA,
       DoD and GSA have collaborated on a comprehensive training at all GSA regions. (See
       Action Plan items 13 and 19 attached).

       Recommendation A . l (b): The OIG recommended that the Under Secretary of Defense
       for Acquisition, Technology, and Logistics, establish overall policies on acceptable
       contract administration roles and responsibilities that DoD will accept when purchasing
       goods and services through a non-DoD agency.

       Response: Concur: The Department will issue an update to our policy on "Proper Use
       of Non-DoD contracts," The policy memorandum is expected to be issued in December
       2007.

       Recommendation A. 1(c): The OIG recommended that the Under Secretary of Defense
       for Acquisition, Technology, and Logistics, finalize negotiations with the U.S.
       Department of Veterans Affairs to develop interagency agreements that specify agreed-
       upon roles and responsibilities regarding contract administration and surveillance duties.




                                                   63
Response: Concur: The Department will establish a Memorandum of Agreement
(MOA) with the Department of Veterans Affairs that will address roles and
responsibilities regarding contract administration and surveillance duties. The MOA is
expected to be completed by December 31, 2007.

Recommendation A.l (d): The OIG recommended that the Under Secretary of Defense
for Acquisition, Technology, and Logistics, work with the U.S. Department of Veterans
Affairs to develop a corrective action plan that addresses the concerns identified in this
report including the lack of adequate acquisition planning, interagency agreements,
quality assurance surveillance plans, and past performance information. The corrective
action plan should also address the contract modification problem that is preventing
contractors from receiving payment for services performed. The corrective action plan
should clearly delineate the duties and responsibilities of both the U.S. Department of
Veterans Affairs and DoD on all purchases made by the U.S. Department of Veterans
Affairs on behalf of DoD.

Response: Concur: The MOA established between DoD and the Department of
Veterans Affairs will address the roles and responsibilities regarding contract
administration and surveillance duties. As part of the MOA, a Corrective Action Plan
will be developed that will address the deficiencies identified in the audit report. The
MOA. including the corrective action plan, is expected to be completed by December 31,
2007.

Recommendation A.l (e): The OIG recommended that the Under Secretary of Defense
for Acquisition, Technology, and Logistics, develop an implementation plan for the U.S.
Department of Veterans Affairs/DoD corrective action that includes site visits to major
DoD organizations to ensure the required procedures in the memorandum have been
explained at the operational level.

Response: Concur: The MOA established between DoD and the Department of
Veterans Affairs will include a Corrective Action Plan that will address the deficiencies
identified in the audit report and address the effective and efficient communication of
proper procedures to the operational level. The MOA, including the corrective action
plan, is expected to be completed by December 31, 2007.

Recommendation A.l (f): The OIG recommended that the Under Secretary of Defense
for Acquisition, Technology, and Logistics, advise the U.S. Department of Veterans
Affairs that Defense Acquisition University (DAU) courses covering the preparation of
sole-source justification and price reasonableness determinations are available to U.S.
Department of Veteran Affairs contracting officers.




                                            64
Response: Concur. The Under Secretary of Defense for Acquisition, Technology, and
Logistics, will coordinate with the President of the Defense Acquisition University to
ensure that relevant DAU courses are offered to VA contracting officers on a space-
available basis. The action is expected to be completed in December 2007,

Recommendation A.l (g): The OIG recommended that the Under Secretary of Defense
for Acquisition, Technology, and Logistics, negotiate with the non-DoD agencies to
determine the best method to record contractor performance on all government
contractors. In addition, require DoD organizations to enter past performance
information into the Past Performance Information Retrieval System and access the Past
Performance Information Retrieval System for future source selection decisions.

Response: Concur. The Department will coordinate with the office of Federal
Procurement Policy on the best method to record contractor past performance and
information, DoD is in the process of issuing a policy memo that addresses capturing
past performance information. The policy memo is expected to be issued in December
2007.

Recommendation     B.2.: The OIG recommended that the Under Secretary of Defense for
Acquisition, Technology, and Logistics, obtain an opinion from the DoD General
Counsel on the correct course of action to resolve the improper payments and leasing
arrangement.

Response: Concur. The Department is coordinating with DoD General Counsel and
OUSD (C) to resolve potential improper payments issues and potential leasing issues.
Resolution is expected by April 1, 2008.

Recommendation C: The OIG recommended that the Under Secretary of Defense for
Acquisition, Technology, and Logistics, initiate and coordinate a review with the
Assistant Secretary of Defense for Health Affairs to assess whether the Military
Departments arc purchasing medical goods and services through the most efficient and
effective methods.

Response: Concur. The Department has already begun to implement this
recommendation as part of our efforts in strategic sourcing.

       This recommendation is in consonance with Recommendation 5 (a) of DoDIG
report entitled: "Direct Care Medical Services Contracts" (D-2004-094) dated 24 June
2004, which states that the Assistant Secretary of Defense (Health Affairs), in
conjunction with the Military' Department Surgeons General, should develop a
coordinated strategy for acquiring direct care medical services that includes the
implementation of the "Centers of Excellence" concept.




                                          65
       In response to the DoDIG report, dated 24 June 2004, the Army Surgeon General
was tasked to develop a coordinated strategy for acquiring direct care medical services.
Subsequently, the DoD Strategy Council for Acquiring Direct Care Medical Services was
formed, and the MEDCOM Health Care Acquisition Activity (HCAA) took the lead. In
June 2005, the DoD Strategy Council Report had three recommendations:

   •    Establish a DoD organization with tri-service support responsibilities and flexible
       contracting authority,

   •   Establish strategic sourcing councils for key labor categories, and

   •   Standardize the acquisition process and related capabilities.

        As a follow-on to the DoD Strategy Council, the April 2006 Quadrennial Defense
Review, Initiative 16, addressed the purchasing of goods and services through a more
efficient and effective manner. The focus of QDR 16 is:

   •   To develop a coordinated tri-service process that facilitates sharing of personnel
       between facilities to enhance mission capabilities.

   •   To minimize competition among the military services in the same market area and
       to work with VA if possible.

   •   To be responsive to the needs of small facilities.

   •   To establish multi-service market and TRICARE Regional Office contracting
       capabilities able to support all services.

      My POC is Michael Canales; he can be reached at (703) 695-8571 or via e-mail at
michael.canales@osd.mil.




                                          Director, Defense Procurement and
                                            Acquisition Policy




                                            66
Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer
Comments


                        OFFICE OF THE UNDER SECRETARY OF DEFENSE





  •

                                        1100 DEFENSE PENTAGON
                                       WASHINGTON. DC 20301-1100




   COMPTIiIOLLER
                                                                          NOV - 5 ?fiJI


        MEMO,RANDUM FOR PROGRAM DIRECTOR, DEFENSE FINANCIAL AUDITlNG
                          SERVICE, OFFICE OF INSPECTOR GENERAL,
                          DEPARTMENT OF DEFENSE

        SUBJECT: Draft Audit Report, "FY 2006 000 Purchases Made Through the U.S.
        Department of Veterans Affairs," (Project No. D2006-DOOOCF-0244.000)

                This memo is in response to the subject September 26,2007, draft report provided
        to this office for review and comment. Our response to each of the audit report
        recommendations directed to the Under Secretary of Defense (Comptroller)/Chief
        Financial Officer is at Attachment I.

               We appreciate the opportunity to respond to your draft audit report and look
        forward to resolving the cited issues. My point of contact is Ms. Kathryn Gillis. She can
        be contacted by telephone at 703-697-6875 or e-mail at Kathryn.gillis@osd.mil.




                                                    O
                                                          ~q·~
                                                          mes E. Short
                                                          eputy Chief Financial Officer


        Attachments:

        As stated


        cc:

        ODGCCF)

        USD(AT&L)





                                                    67

                                  Attachment 1
                Response to Draft Audit Report Recommendations

      Office of the Inspector General (OIG), Department of Defense (DoD)
    "FY 2006 DoD Purchases Made Through the U.S. Department of Veterans
                                     Affairs"
                    OIG Project No. D2006-D000CF-0244.000

OIG Recommendation B1. Ensure that personnel at the U.S. Department of
Veterans Affairs understand the current DoD policy on advance payments and
funding purchases when performing assisted acquisitions. Specifically, the Under
Secretary of Defense(Comptroller)/Chief Financial Officer must ensure guidance
that prohibits advance payments has been distributed to field activities and to non-
DoD agencies that procure goods and services on behalf of DoD.

OSD Response. Concur. The U.S. Department of Veterans Affairs and the DoD
Components were notified of the Department's advance policy in March 2007.

OIG Recommendation B2. Recover advance payments made to the U.S.
Department of Veterans Affairs, Austin Automation Center that have not been
expended.

OSD Response. Concur. We directed all components and notified the U.S.
Department of Veterans Affairs to return all existing advancements retained at
non-DoD federal agencies.




                                         68
                         UNDER SECRETARY OF DEFENSE
                                1100 DEFENSE PENTAGON
                              WASHINGTON, DC 20301     1100




                                       MAR    1 200?

MEMORANDUM FOR SECRETARIES OF THE MILITARY DEPARTMENTS
               CHAIRMAN OF THE JOINT CHIEFS OF STAFF
               UNDER SECRETARIES OF DEFENSE
               COMMANDERS OF THE COMBATANT COMMANDS
               DIRECTOR, DEFENSE RESEARCH AND ENGINEERING
               COMMANDER, U.S. SPECIAL OPERATIONS COMMAND
               COMMANDER, U.S. TRANSPORTATION COMMAND
               ASSISTANT SECRETARIES OF DEFENSE
               DIRECTOR, OPERATIONAL TEST AND EVALUATION
               INSPECTOR GENERAL OF THE DEPARTMENT
                 OF DEFENSE
               ASSISTANTS TO THE SECRETARY OF DEFENSE
               DIRECTORS OF THE DEFENSE AGENCIES
               DIRECTORS OF DOD FIELD ACTIVITIES

SUBJECT: Advance Payments to Non-Department of Defense (DoD) Federal Agencies
         for Interagency Acquisitions

    In accordance with current DoD policy, all DoD Components are directed to stop the
practice of advancing funds to non-DoD federal entities unless the DoD Components are
specifically authorized by law, legislative action, or Presidential authorization. This
includes the practice of permitting advance billings without the receipt of goods or
services. All existing advancements retained by a non-DoD federal agency must be
returned.

     Components requesting goods or services from a non-DoD federal agency must be
fully aware of the outside agency's billing practices and take appropriate action to ensure
DoD funds are not disbursed in advance of contract performance. In addition.
Components must work with their servicing disbursement sites to revise trading partner
agreements to restrict other federal agencies' ability to withdraw funds prior to the
delivery of goods or services performed.

    The Department's legal authority to make advances is contained in Title 31, United
States Code, Section 3324 and the Department of Defense Financial Management
Regulation ("DoDFMR"), Volume 4, Chapter 5, which states that an advance of public
money may be made only if it is authorized by:




                                             69
            a. a specific appropriation or other law; or

            b. the President to be made to—

                (1) a disbursing official if the President decides the advance is necessary
                to carry o u t -
                          a) the duties of the official promptly and faithfully; and
                         (b) an obligation of the Government; or

                (2) an individual serving in the armed forces at a distant station if the
                President decides the advance is necessary to disburse regularly pay and
                allowances."

    The specific appropriation or law authorizing the advance must be cited on the
obligating and/or interagency agreement documents for those few exceptions where
advances are authorized in a specific appropriation or law authorizing DoD to advance
funds.

    My point of contact is Ms. Kathryn Gillis, who can be reached at (703) 697-6875 or
by e-mail at kathryn.gillis@osd.mil.




                                              70
                   OFFICE OF THE UNDER SECRETARY OF DEFENSE
                                 1100 DEFENSE PENTAGON
                                WASHINGTON, DC 2 0 3 0 1 - 1 1 0 0




COMPTROLLER


    Robert J. Henke
    Chief Financial Officer for
    Department of Veterans Affairs
    Washington DC 20420

     Dear Mr. Henke,

            As a result of recent audits on Interagency Acquisition, we have reviewed
     Departmental policy and reemphasized procedures for DoD Components doing business
     with other federal agencies. I am including these procedures for your information.

            Concurrent with the policy, we are directing all DoD Components to stop the
     practice of advancing funds to non-DoD federal entities. This includes the practice of
     permitting advance billings without the receipt of goods or services. As a result, DoD
     Components are being directed to revise trading partner agreements to restrict the ability
     of other federal agencies to withdraw funds prior to the delivery of goods or services
     performed and to return all existing advances retained by a non-DoD federal agency. All
     future payments are to be based on billings for completed services or delivered goods.

            In addition, we are directing all DoD Components to apply the attached policy and
     coordinate the return of expired funds obligated prior to September 30, 2006 for contracts
     that have yet been awarded. DoD Components who wish to proceed with executing these
     contracts must apply current year funding. We note that non-federal providers have
     awarded existing contracts where the period of performance is ongoing. In those
     instances, the funding may be retained and contracts completed as scheduled.

            My point of contact for this matter is Mrs. Kathryn Gillis, who may be contacted
     at (703) 697-6875 or e-mail at Kathryn.gillis@osd.mil.


                                             Sincerely.




                                              Acting Deputy Chief Financial Officer




                                                  71
                          DEPARTMENT OF VETERANS AFFAIRS




•
                            ASSISTANT SECRETARY FOR MANAGEMENT
                                    WASHINGTON   DC   20<120



                                         JUN 072007

    Mr. Robert P. McNamara

    Acting Deputy Chief Financial Officer

    Office of the Under secretary of Defense

    1100 Defense Pentagon

    Washington, DC       301;1 H/,.-­
    Dear Mr. Mc amara:     p    V

           Th k you for your letter concerning DoD policy that prohibits all 000
    components from advancing funds to non-DoD federal entities. The Department
    of Veterans Affairs (VA) has assessed the implications and necessary actions of
    your policy on VA financial and contracting activities. I apologize for the delay in
    responding.

             VA's Supply Fund does not accept advances from 000, with the exception
     of funds to support the DoDNA+ program. The Supply Fund has received 11
    Il::Jteragency agreements from DoD that are associated with the DoDNA+ program,
     wIth a total value of $3.7 million. These agreements have $763,000 currently
     unobligated. VA's Denver Acquisition and Logistics Center is working closely with
     DoD customers (both U,S. Army and U.S. Air Force) to ensure that all existing
     DoD resources have been properly obligated from both a contractual and fiscal
     standpoint. All funds will either be obligated due to ongoing contracting action or
     deobligated by June 30 in keeping with DoD policy. VA's Financial Services
     Center in Austin, Texas. does not have any DoD-related agreements that include
     advances, and all payments are based on purchase orders or contracts.

           We have established a "drop dead" date of July 1 to have all DoD non­
    Economy Act resources returned to DoD if they have not been obligated prior to
    that date. Discussions with 000 customers indicate that they do not appear to
    have a problem with addressing the need to manage their resources in this
    timeframe.

           Thank you for informing me of DoD's policy.

                                              Sincerely,




                                             72

Office of the Assistant Secretary of the Army
(Policy and Procurement) Comments



                                           DEPARTMENT OF THE ARMY
                                    OFFICE OF THE ASSISTANT SECRETARY OF T H E A R M Y
                                         ACQUISITION LOGISTICS A N D TECHNOLOGY
                                                   103 A R M Y PENTAGON
                                               WASHINGTON DC 20310-0103

                                                      N O V 21 2007


     SAAL-PP


     MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL, AUDIT POLICY AND
                      OVERSIGHT, INSPECTOR GENERAL, DEPARTMENT O F
                      DEFENSE, 400 A R M Y NAVY DRIVE,
                      ARLINGTON, V A 22202

     SUBJECT:         A r m y C o m m e n t s o n D o D Draft Audit Report on " F Y 2 0 0 6 D o D
                      Purchases M a d e T h r o u g h the U.S. Department o f Veteran's Affairs"
                      Project N o . D 2 0 0 6 - D 0 0 0 C F - 0 2 4 4 . 0 0 0 , S e p t e m b e r 26, 2 0 0 7

            My office h a s received the draft report a n d w e concur w i t h r e c o m m e n d a t i o n C,
     Standardization of t h e Military D e p a r t m e n t s Contracting for Medical G o o d s a n d
     Services Acquisitions.

          T h e A r m y h a s already b e g u n t o implement this r e c o m m e n d a t i o n . It is in
     c o n s o n a n c e with R e c o m m e n d a t i o n 5 ( a ) of D O D I G report entitled: "Direct C a r e Medical
     Services Contracts" (D-2004-094) d a t e d 2 4 J u n e 2 0 0 4 , w h i c h states that t h e Assistant
     Secretary of Defense (Health Affairs), in conjunction with t h e Military Department
     S u r g e o n s General, should d e v e l o p a c o o r d i n a t e d strategy for acquiring direct c a r e
     medical services that includes the implementation of t h e "Centers of Excellence"
     concept.

          In r e s p o n s e t o R e c o m m e n d a t i o n 5, t h e A r m y Surgeon General w a s tasked to
      develop a coordinated strategy for acquiring direct care medical services. Subsequently,
      the D O D Strategy Council for Acquiring Direct Care Medical Services w a s f o r m e d , a n d
      the M E D C O M Health Care Acquisition Activity ( H C A A ) took t h e lead. In J u n e 2 0 0 5 , t h e
      D O D Strategy Council Report h a d three r e c o m m e n d a t i o n s :

             (a) Establish a D O D organization with tri-service s u p p o r t responsibilities a n d
     flexible contracting authority,

              (b) Establish strategic sourcing councils for key labor categories, a n d

              (c) Standardize t h e acquisition process a n d related capabilities.

     A s a follow-on to t h e D O D Strategy Council, t h e April 2 0 0 6 Quadrennial D e f e n s e
     R e v i e w ( Q D R ) , Initiative 16, a d d r e s s e d t h e purchasing o f g o o d s a n d services t h r o u g h a
     m o r e efficient a n d effective manner. T h e f o c u s of Q D R 16 is:

            (1) T o d e v e l o p a coordinated tri-service process that facilitates sharing o f
      personnel between facilities to e n h a n c e mission capabilities.




                                                             73
        (2) T o minimize competition a m o n g the military services in the s a m e market
area a n d to work with V A if possible.

       (3) To be responsive to the needs of small facilities.

       (4) T o establish multi-service market a n d T R I C A R E Regional Office contracting
capabilities able to support all services.

Strategic Sourcing across the different military services is n o w being implemented o n a
wide scale, a n d g o v e r n a n c e structures are in place, or are being developed. This will
e n h a n c e the ability of various c o m m a n d s to 1) identify those areas of major spending
within the c o m m a n d , a n d 2) provide a structure to potentially integrate requirements
within services, a n d also outside the respective services.

It will also be important to identify the m e t h o d s utilized in procuring the services. Each
service is structured differently, with t h e e m p h a s i s placed at different levels of
responsibility. The way in which contracting c o m m a n d s are structured can influence the
success of Strategic Sourcing. T h e A r m y ' s Medical C o m m a n d is aligned regionally,
with local requirements flowing t h r o u g h the regional office. If the other services are
aligned similarly there w o u l d exist the capability to develop regional, strategically
sourced, contract vehicles available for use by all services.




                                               E.     Ballard
                                Deputy Assistant Secretary of the A r m y
                                       (Policy a n d Procurement)




                                              74
Office of the Assistant Secretary of the Air Force
(Financial Management and Comptroller)
Comments


                                  DEPARTMENT OF THE AIR FORCE
                                  HEADQUARTERS UNITED STATES AIR FORCE
                                              WASHINGTON DC




                                                                                     2 Nov 07

      MEMORANDUM FOR DEPARTMENT OF DEFENSE INSPECTOR GENERAL
                     ATTN: DEPUTY INSPECTOR GENERAL FOR AUDITING

      FROM: HQ USAF/SG
            1780 Air Force Pentagon
            Washington, DC 20030-1780

      SUBJECT:     DoDIG Draft Audit Report, FY 2006 D o D Purchases Made Through the U.S.
                   Department of Veterans Affairs, (Project D2006CF-0244)

             This letter is in reply to your memorandum requesting the Assistant Secretary of the Air
      Force {Financial Management and Comptroller) provide Air Force comments on subject report.

             We understand Recommendations A.l.a. ­ A.1.g., B.2., and C. are addressed to the Under
      Secretary of Defense for Acquisition, Technology, and Logistics. Although not addressed to the
      Office of the Air Force Surgeon General directly, we concur with comment to the
      recommendations and will work as required to meet their plan of action.

             Recommendation A.2. is addressed to the Assistant Secretary of the Air Force (Financial
      Management and Comptroller). We concur with comment to Recommendation A.2. and will
      work as required to meet their plan of action.

             Recommendation B.l.a. and B.l.b. are addressed to the Under Secretary of Defense
      {Comptroller/Chief Financial Officer Although not addressed to our office directly, we concur
      with comment and will support their plan of action.

             Additional specific management comments are attached. If you have any questions or
      concerns with our comments, please contact Maj Melanie C. Carino, AFMOA/SG3YR, DSN
      7(61-6355.




                                                      CHARLES B. GREEN
                                                      Major General, USAF, MC, CFS
                                                      Deputy Surgeon General

      Attachment:
      1. Management Comments
      2. Comment Matrix

      cc:
      SAF/FMPF




                                                    75
                                   D o D I G Draft Audit Report
         F Y 2006 D o D Purchases M a d e Through the U . S . Department of Veterans Affairs
                                     (Project D 2 0 0 6 C F - 0 2 4 4 )

A u d i t R e s u l t : A F / S G concurs with c o m m e n t to all the recommendations. C o m m e n t s noted on
specific recommendations below.


Recommendation A.l:

W e r e c o m m e n d that the Under Secretary of Defense for Acquisition, Technology, and Logistics:

             a. Develop a training course that instructs contracting and program office personnel on
proper acquisition planning and contract administration for assisted acquisitions. A F / S G
c o n c u r s . The acquisition process is the same a m o n g federal agencies, except for specific
regulations that pertain to individual agencies, i.e. Air Force Federal Acquisition Regulations
( A F F A R S ) . etc. G u i d a n c e is provided to the Department of Veterans Affairs that instructs them
to apply the A F F A R S to their procurement process w h e n conducting an assisted acquisition.
Development of a specific training course regarding acquisition planning and contract
administration for assisted acquisitions would b e redundant. R e c o m m e n d enforcement o f current
D o D training courses for e m p l o y e e s of agencies conducting assisted acquisitions.

        b . Establish overall policies on acceptable contract administration roles and
responsibilities that D o D will accept when purchasing g o o d s and services through a n o n - D o D
agency. A F / S G c o n c u r s . The acquisition process is the same a m o n g federal agencies, except
for specific regulations that pertain to individual agencies, i.e. Air Force Federal Acquisition
Regulations ( A F F A R S ) . etc. Guidance is provided to the Department of Veterans Affairs that
instructs them to apply the A F F A R S to their procurement process when conducting an assisted
acquisition. Development o f a specific training course regarding acquisition planning and
contract administration for assisted acquisitions would be redundant. R e c o m m e n d enforcement
of current D o D training courses for employees of agencies conducting assisted acquisitions.

        c. Finalize negotiations with the U . S . Department of Veterans Affairs to develop
interagency agreements that specify agreed-upon roles and responsibilities regarding contract
administration and surveillance duties. A F / S G c o n c u r s . Development of specific roles and
responsibilities regarding contract administration and surveillance duties could improve
administration. Efforts toward education and enforcement of Contracting Officer and
Contracting Officer Representative duties and responsibilities as delineated in the current
regulations would b e m o r e efficient and effective for management of the contracts.

         d. W o r k with the U . S . Department of Veterans Affairs to develop a collective action plan
that addresses the concents identified in this report: including the lack of adequate acquisition
planning, interagency agreements, quality assurance surveillance plans, and past performance
information. The collective action plan should also address the contract modification problem
that is preventing contractors from receiving payment for services performed. The corrective
action plan should clearly delineate the duties and responsibilities of both the U.S. Department of
Veterans Affairs and D o D on all purchases m a d e b y the U.S. Department o f Veterans Affairs on
behalf o f D o D . A F / S G c o n c u r s .




                                                         76
           e. Develop an implementation plan for the U . S . Department of Veterans Affairs. D o D
corrective action plan that includes site visits to major D o D organizations to ensure the required
procedures in the m e m o r a n d u m h a v e been explained at the operational level. A F / S G c o n c u r s .
Over the past three years, the AF Medical Logistics Office has conducted three Contracting
W o r k s h o p s in order to educate the C O N U S and O C O N U S contract m a n a g e r s and medical
equipment managers regarding current acquisition regulations and h o w they apply to the Medical
Treatment Facilities ( M T F ) . The decision was m a d e to conduct three Contracting W o r k s h o p s
per year starting in 2008 because of the necessity and past success of the workshops. These
workshops address assisted acquisitions in addition to standard acquisition procedures, such as
acquisition planning and contract administration.

            f. A d v i s e the U . S . Department of Veterans Affairs that Defense Acquisition University
courses covering the preparation of sole-source justification and price reasonableness
determinations are available to U . S . Department o f V e t e r a n Affairs contracting officers. A F / S G
c o n c u r s . It is recognized that adequate funding w o u l d be necessary to accomplish this
recommendation.

            g. Negotiate with n o n - D o D agencies to determine the best method to record contractor
performance o n all Government contractors. In addition, require D o D organizations to enter past
performance information into the Past Performance Information Retrieval System and access the
Past Performance Information Retrieval System for future source selection decisions. A F / S G
c o n c u r s . A standard Federal past performance database would be a great assistance to the
acquisition community. Currently, the Department of Veterans Affairs does not have an
automated system that is used for collecting this data for the D o D ,



Recommendation A.2:
        W e r e c o m m e n d that the Assistant Secretary of the Air Force (Financial M a n a g e m e n t and
Comptroller) coordinate with the U . S . Department of Veteran Affairs to amend the "Department
of Veterans Affairs and Office of the Air Force Surgeon G e n e r a l " m e m o r a n d u m of agreement.
The m e m o r a n d u m of agreement should specify the types o f purchases that are permissible under
the interagency agreement between the Department of Defense and the U . S . Department of
Veterans Affairs; and conform to all provisions contained within the corrective action plan
discussed in Recommendation A.1.d. A F / S G c o n c u r s . A F / S G R is responsible for the M O A
and a n e w version is currently in coordination with the Department o f Veterans Affairs. The
current M O A states that the V A is the "preferred" m e t h o d for contracting for services. The
future policy will make the C o m m o d i t y Council preferred method of acquisition with a waiver
process that collects information needed for A I M S management. The M O A should build
measures to help accountability, particularly with respect to contract execution responsibilities.



Recommendation B.l:

We r e c o m m e n d that the Under Secretary of Defense (Comptroller) Chief Financial Officer:

      a. Ensure that personnel at the U.S. Department of Veterans Affairs understand the current
D o D policy on advance payments and funding purchases when performing assisted acquisitions.
Specifically, the Under Secretary of Defense (Comptroller)/Chief Financial Officer must ensure
guidance that prohibits advance p a y m e n t s has been distributed to field activities and to n o n - D o D




                                                        77
agencies that procure goods and services on behalf o f DoD. A F / S G c o n c u r s . The subject of
funding has been a p r o b l e m issue for some time. Definitive guidance on types o f funding, i.e.
stock funds, etc. would be very helpful.
    b . Recover a d v a n c e payments made to the U . S . Department of Veterans Affairs, Austin
Automation Center that have not been expended. A F / S G c o n c u r s .



Recommendation B.2:
We r e c o m m e n d that the Under Secretary of Defense for Acquisition, Technology, and logistics
obtain an opinion from the D o D General Counsel on the correct course of action to resolve the
improper p a y m e n t s and leasing arrangement. A F / S G c o n c u r s .



Recommendation       C:
W e r e c o m m e n d that the Under Secretary of Defense for Acquisition, Technology, and Logistics
initiate and coordinate a review with the Assistant Secretary of Defense for Health Affairs to
assess whether the Military Departments are purchasing medical goods and services through the
most efficient and effective methods. A F / S G c o n c u r s . There is currently a review being
conducted by the services under the T R I C A R E M a n a g e m e n t Activity Quadrennial Defense
Review R o a d m a p for Medical Transformation.


Additional AF/SG C o m m e n t s :
Additional A F / S G c o m m e n t s with regards to specific items in the report are included in the
attached matrix.

The A F / S G would like to address specifically what the A F / S G staff has been doing over the past
four years to improve the assisted acquisition process.

    During 2003-2004:
    •  T w o Contract Specialists (GS-1102) were hired in order to assist with performance work
       statements, procurement p a c k a g e preparation and training for the A F M S . They also
       assisted in providing contract guidance to the M T F personnel.
    • T h e Air Force Medical Logistics Office ( A F M L O ) and Chief o f the Veterans Affairs
       Special Services ( V A S S ) recognized a need for instituting Standard Operating Procedures
       (SOP) into the V A S S organization. Several SOPs w e r e developed b y the V A S S Chief
       and coordinated with the A F M S Contract Specialists. The SOPs h a v e added value to the
       V A acquisition process.
    •  A V A S S H a n d b o o k was developed to instruct AF personnel how to prepare purchase
       request packages. This handbook has been continuously updated to address n e w
       regulations and procedures.
    •  Contracting w o r k s h o p s w e r e developed to address the immediate D o D contracting needs
       and also assisted acquisition procedures.




                                                      78
•   Contracting Officer Representative (COR) Phase II training was implemented at the
    VASS. Note: Phase II training is specific to the awarded contract and is provided in
    addition to standard COR training.
•   Specific customer assistance representatives were added to the VASS staff to provide
    better service and control of procurement packages.
•   The A F M L O Contracting Toolkit was developed in order to assist M T F contract
    managers in the acquisition process.
•   The AFMS Commodity Council was initiated.

During 2005-2007:
• A web enabled database was developed and enhanced to track all the Military
   Interagency Procurement Requests (MIPRs) and resultant contracts.
• The AFMS Commodity Council completed Spiral 1 for hiring Clinical Support (Direct
   care) healthcare services in early 2005.
• The AFMS Commodity Council completed Spiral 2 for hiring Medical Administrative
   Support sendees in 2006.
• Contracting workshops have continued to be conducted and targeted the field MTFs.
• The DoD Strategy Council for Acquiring Direct Care was initiated and provided
   recommendations for continuing improvements in tri-service acquisition methods of
   healthcare services.
• TMAs Quadrennial Defense Review Roadmap for Medical Transformation includes
   review of acquisition of healthcare services.
• AFMS SG initiated the Surgeon General's Office of Modernization Acquisition
   Management (SGRM), an office specifically for AFMS acquisition management.
• Program management and acquisition training programs, along with tracking systems
   have been established.
• Specific medical acquisition contracting offices have been established and discussions
   continue with the AF Contracting Officials for improvement in the area of specific
   "medical" contracting expertise and personnel within the AF.




                                             79
Final Report
 Reference

               Item #   D o D I G R e p o r t Excerpt                                               Page     AF/SG Comment

                                                                                                             T h e p r o g r a m m a n a g e r s , contracting officers and financial
                                                                                                             m a n a g e r s assigned t o the A F M A C are properly t r a i n e d , however,
                                                                                                             it is difficult to obtain classes at D A U B since positions are not
                                                                                                             acquisition c o d e d . A p a c k a g e w a s submitted to S A F / A Q X to
                                                                                                             have positions acquisition coded 8 m o n t h s ago. T h e p a c k a g e
                                                                                                             w a s approved but positions have not yet b e e n c o d e d . A F D W
                                                                                                             contracting r e s o u r c e s assigned to the C o m m o d i t y Council are
                        C o n t r a c t i n g , financial, and accounting officials should                   also trained and certified. Ordering guides are p r e p a r e d for
                        h a v e the necessary training and k n o w l e d g e t o                             ordering services u n d e r c o m m o d i t y council contracts. MIPR
               1        properly execute the o r d e r s .                                          4        guidance has b e e n d e v e l o p e d by t h e financial c o m m u n i t y .

                                                                                                             T h e office with t h e r e q u i r e m e n t should h a v e a procurable
                                                                                                              p a c k a g e ready to execute prior to the requirement being
                                                                                                             f o r w a r d e d t o the V A S S . Additionally, this i s a requirement of the
                                                                                                              service designated official. Concur that basic acq planning w a s
                                                                                                              probably not followed with the exception of developing a
                                                                                                              statement o f work. Concur that these contracts were probably
                                                                                                              not surveilled well as little d o c u m e n t a t i o n exists on p a s t
                                                                                                              performance f o r making future p u r c h a s e decisions of contracts
                        O f t h e 49 purchases reviewed at D o D organizations,                              w e r e a w a r d e d u n d e r V A S S . More C O R s are n e e d e d t o properly

                        4 6 were either hastily planned or i m p r o p e r l y                                d o c u m e n t contract p e r f o r m a n c e . R e c o m m e n d that G o v e r n m e n t
                        a d m i n i s t e r e d and there w a s no collection a n d                          w o r k e r s assigned a s C O R s be reviewed annually and a n
                        recording of contractor past p e r f o r m a n c e b y D o D                          a s s e s s m e n t m a d e of C O R p e r f o r m a n c e and w o r k l o a d
                        organizations o n the V A contracts. Specifically, •                                 Additionally: (1) T h e c o m m o d i t y council solves these problems
                        DoD organizations often lacked acquisition planning to                               f o r contracts under its d o m a i n , (2) S G R is putting together an
                        determine the best source, proper statutory authority,                                Acquisition Review Panel to review acquisition strategy as part of
                        a n d required a g r e e m e n t s for n o n - D o D contracts; a n d •              t h e requirements approval p r o c e s s . I think C O R assignment a n d
                        the V A and D o D organizations were deficient in                                     review should be part of t h e acq planning p r o c e s s , (3)
                        contract administration, including the surveillance of                                R e c o m m e n d M O A be revised t o require the V A t o enter past
                        contractor p e r f o r m a n c e , assignment of C O R s . a n d                      performance into C P A R S . Lack of past p e r f o r m a n c e information
                        preparation o f quality assurance surveillance plans                                  on V A contracts h a s been an issue with A F M S C C source
                        (QASP).                                                                               selection.
                                                                                                    5

                        Furthermore, all n o n - E c o n o m y A c t orders exceeding
                        S500,000 must b e reviewed by a D o D - w a r r a n t e d
                        contracting officer prior t o s e n d i n g the o r d e r s to t h e
                        f u n d s certifier or issuing M I P R s t o the n o n - D o D
                        activity.                                                                   8        Included in t h e n e w D o D M I P R policy

                        In another instance, the A i r Force 96th Medical G r o u p
                        p r e p a r e d a boilerplate best interest determination f o r
                        the p u r c h a s e of Obstetrics and G y n e c o l o g y Nurse
                        Practitioners services. T h e boilerplate determination
                        states: u s e o f a n o n - D o D contract is in t h e best
                        interest of the Air Force considering the factors of
                        satisfying customer requirements, cost effectiveness
                        a n d price, delivery schedule, nonavailability of a
                        suitable contract within D o D , contract administration,
                        small business operations and any other factors as
                        applicable. T h e boilerplate s t a t e m e n t does not explain
                        the supporting rationale o n w h y the use of the non-
                        DoD contract is in the b e s t interest of the A i r Force.
                        DoD organizations m u s t explain the reason w h y t h e
                        u s e of n o n - D o D contract vehicles are in the best
                        interest of DoD, rather t h a n sign a pre-prepared
                        boilerplate statement. A d e q u a t e planning will ensure
                        s u r c h a r g e s are paid only w h e n necessary and assist
                        in preventing the p r o c u r e m e n t of g o o d s a n d services
                        at unreasonable prices.
               4                                                                                    9.10     Commodity Council has fixed this issue.

                        Health Care R e s o u r c e Acquisitions. On 16 of 4 9                                Non-Concur: T h e definition o f what can be shared u n d e r 8111
                        p u r c h a s e s r e v i e w e d , D o D g o o d s and services                      does not reference D O D I 6 0 1 0 . 2 3 4 . 1 . T h e definition o f a
                        p r o c u r e d t h r o u g h t h e V A w e r e not within the scope of               healthcare r e s o u r c e is contained in p a r a g r a p h E.2.1.5 w h i c h
                        the statutory authority ( V A - D o D Health Care                                     allows for contracting f o r a broader range of activities. T h i s is a
Deleted                 R e s o u r c e s S h a r i n g Act) used for the p u r c h a s e . T h e             D o D regulation but w a s not cited b y the IG. T h e A F testified to
                        V A - D o D Health Care Resources S h a r i n g Act states                           t h e Task Force o n I m p r o v e m e n t of D o D medical care that 8 1 1 1
                        "health-care r e s o u r c e s include hospital care, m e d i c a l                   needed t o be clarified to reflect C o n g r e s s intent o n s c o p e o f V A
                        services, and rehabilitative services."                                     10        sharing.




                                                                                                        80
                                                                                                                                                                                                        Final Report
                                                                                                                                                                                                         Reference

6                                                                                                         T h e roof repair w a s appropriately a w a r d e d under 38 U S C 8 1 1 1
                                                                                                          (relevant section b e l o w ) . A F use of V A contracting services as
                                                                                                          an administrative resource is specifically allowed u n d e r the law.                         Deleted
                                                                                                          A rewrite of t h e A F M S and V A M O A t o b e m o r e specific will
                                                                                                          clarify contracting services.

              For e x a m p l e , t h e A i r Force 579th Medical Group                                   38 U S C 8111 (g) (4) states: T h e t e r m "health-care r e s o u r c e "
              purchase f o r roof repairs at the requiring activity's                                     includes hospital care, m e d i c a l services, and rehabilitative
              m e d i c a l t r e a t m e n t facility ( M T F ) w a s not correctly                      services, as those t e r m s are defined in p a r a g r a p h s (5), f.6), a n d
              a w a r d e d under the V A - D o D Health Care R e s o u r c e s                           (8), respectively, of section 1701 of this title, services u n d e r
              S h a r i n g Act; b e c a u s e the p u r c h a s e w a s n o ; a health                   sections 1782 a n d 1783 of this title, any other health-care
              care r e s o u r c e .                                                            10        service, a n d any health-care s u p p o r t or administrative resource.
7                                                                                                         Disagree with t h e IG's restrictive view of the V A - D O D sharing
                                                                                                          statutes, and believe that both C o n g r e s s and the current
                                                                                                          Administration intend a broad s c o p e of w h a t t y p e s of p u r c h a s e s
                                                                                                          are permissible a n d sharing IAW 38 U S C 8111 a n d 1 0 U S C
              In other i n s t a n c e s , the V A contracting officials                                  1 0 4 4 . T h e s e statutes authorize t h e V A and D O C t o share "health
              a w a r d e d p u r c h a s e s for printers, furniture, radios,                            care resources," w h i c h are b r o a d l y defined to include hospital                      Deleted
              strategic services support, a n d m a n p o w e r resource                                  care and medial services, and other health-care service, a n d a n y
              m a n a g e m e n t support u n d e r the V A - D o D Health Care                           healthcare support o r administrative r e s o u r c e . S e e 3 8 U S C
              R e s o u r c e s S h a r i n g Act. N o n e of these purchases                             8 1 5 2 . T h e s e statues have been i m p l e m e n t e d b y D O D in DODI
              pertain to hospital care, medical services, or                                              6 0 1 0 . 2 3 , Sept 12, 2 0 0 5 , Enclosure 2, para E2.1.5, w h i c h further
              rehabilitative services; therefore, they cannot b e                                         defines healthcare resource as: "All available m a n p o w e r ,
              categorized as health care resources. T h o u g h                                           facilities, e q u i p m e n t , supplies, and funding t o p r o d u c e health care
              C o n g r e s s issued policy that e n c o u r a g e s the sharing of                       services, and any other health care support o r administrative
              health care r e s o u r c e s b e t w e e n t h e V A and D o D t o                         resource." T h e r e f o r e , sharing use of V A contracting to provide A F
              reduce costs of duplication and t h e under u s e of                                        MTF's with healthcare related suppliesf services is permissible.
              health care r e s o u r c e s , these types of n o n m e d i c a l                          H a d the scope of sharing b e e n limited to direct patient care, as
              p u r c h a s e s are not within the s c o p e o f the health care                          w h a t s e e m s t o be s u g g e s t e d in the draft report, C o n g r e s s
              resource definition.                                                              10        certainly could have d o n e so.

                                                                                                          T h e validity of the conclusion is further supported by G A O reports
                                                                                                          and o t h e r c o m m e n t a r i e s , favorably noting sharing of services
                                                                                                          such a s fire, utilities, laundry services, security, w a s t e collection
                                                                                                          and the like. Further support for C o n g r e s s ' broad interpretation of
                                                                                                          t h e s c o p e of sharing is present in 38 U S C 8 1 2 1 (b) which
                                                                                                          authorizes D O D to m a k e p u r c h a s e s t h r o u g h the V A ' s s u p p l y f u n d
                                                                                                          in the s a m e m a n n e r a s activities o f the VA. S h o u l d this statute
                                                                                                          be i m p l e m e n t e d by the V A and D O D , it could even m o r e clearly
                                                                                                          authorize p u r c h a s e of services, e q u i p m e n t or supplies
                                                                                                          irrespective o f their connection t o direct patient care                 and if
                                                                                                          implementation is reconciled with applicable policies, it m a y s o l v e
    7 Cont.                                                                                     10        m a n y of the fiscal issues identified a b o v e .

              MIPR Preparation. O f 1 2 4 M I P R s r e v i e w e d , 75 did not
              contain the r e q u i r e d information necessary for
              interagency transactions. D o D organizations issued
              M I P R s that either lacked a detailed description o f the
              g o o d s or services t o be a c q u i r e d , failed t o specify t h e
              period of p e r f o r m a n c e for p u r c h a s e d services a n d
              delivery requirements for g o o d s , o r omitted t h e
              funding s t a t e m e n t required by the U S D ( C ) / C F O M a r c h
              2 7 , 2 0 0 6 , m e m o r a n d u m , "Proper Use of Interagency
              A g r e e m e n t s with N o n - D e p a r t m e n t o f D e f e n s e Entities
              Under Authorities Other Than t h e E c o n o m y A c t " ( D o D
              March 2 7 , 2 0 0 6 , M e m o r a n d u m ) . . . A l l unobligated f u n d s
              shall be returned t o the ordering activity no later t h a n
              one year after the acceptance of t h e order o r u p o n
              c o m p l e t i o n of the order, w h i c h e v e r is earlier." In t h e                   A F M L O & V A has been following g u i d a n c e c o n t a i n e d in M I P R
              c a s e of g o o d s , t h e m e m o r a n d u m requires that                              Guide dated Nov 06. T h e V A S S reviews p a c k a g e s t o ensure t h e
              interagency funding d o c u m e n t s include the statement,                                correct information is being p r o v i d e d . A F M L O and the V A S S
              "I certify that t h e g o o d s acquired under this a g r e e m e n t                       have been successful in reviewing and obtaining correct
              are legitimate, specific requirements representing a                                        information o v e r t h e past year. T h e current MIPR g u i d e is dated
              b o n a fide n e e d of the fiscal year in w h i c h t h e s e f u n d s                    A u g 07. Provisions have b e e n a d d r e s s e d in training w h i c h
              are obligated." It a p p e a r s that the March 27, 2 0 0 6 ,                               occurred in A u g 07 at the M e d i c a l Logistics S y m p o s i u m and will
              r e q u i r e m e n t s guidance is not being disseminated to                               continue in future w o r k s h o p s . Four w o r k s h o p s will b e held in
              the D o D w o r k i n g level.                                                              2008.
    8                                                                                           11




                                                                                                     81
     DoD Organizations Without Q A S P s . G o v e r n m e n t
     contracts without a Q A S P increase the potential for
     confusion a n d misinterpretation w h e n surveillance
     personnel conduct reviews. For i n s t a n c e , the Air
     Force M e d i c a l O p e r a t i o n s A g e n c y (Brooks-City
     Base) did not have a Q A S P for t h e $39.0 million
     Hospital Aseptic M a n a g e m e n t p u r c h a s e . T h e V A
     contracting officer stated that there w a s a D o D
     C O T R ; however, the D o D C O T R identified by the
     V A stated that h e w a s not t h e C O T R and w a s not
     officially designated as the D o D C O T R for the
     p u r c h a s e . T h e VA-identified D o D C O T R did not
     maintain a contract file. He explained that D o D
     monitors contractor p e r f o r m a n c e through c u s t o m e r
     c o m p l a i n t s and invoice reviews. DoD and t h e V A
     w e r e u n a b l e to agree o n w h e t h e r there w a s an
     a s s i g n e d C O T R for the overall p u r c h a s e . The V A
     contracting officer stated that he s e n d s contract
                                                                                       T h e H A M S p r o g r a m does have a Q A S P w h i c h is b a s e d on
     c o p i e s to the D o D C O T R a n d d o e s "not see a n y
                                                                                       c u s t o m e r complaint m e t h o d o l o g i e s . Each H A M S site h a s an
     r e a s o n w h y D o D h a s to maintain contract
                                                                                       individual C O R , identified in writing, r e s p o n s i b l e for quality
     d o c u m e n t a t i o n since t h e VA h a s copies of all
                                                                                       assurance activities and for accepting services on behalf of the
     contract d o c u m e n t a t i o n . * D o D personnel m u s t
                                                                                       Contracting Office. This individual u s e s complaints to
     d o c u m e n t their surveillance efforts a n d
                                                                                       demonstrate poor performance of the contractor. T h e A F M S
     d e m o n s t r a t e that t h e y adequately monitored
                                                                                       p r o g r a m m a n a g e r and the V A contracting office are collocated.
     contractors' performance. Without such
                                                                                       T h e contracting office k e e p s official contract d o c u m e n t s while the
     d o c u m e n t a t i o n it w o u l d he difficult to convince a
                                                                                       A F P r o g r a m M a n a g e r has unofficial, w o r k i n g d o c u m e n t s to
     contractor he needs to i m p r o v e his p e r f o r m a n c e .
9                                                                         14           manage the overall p r o g r a m .

     DoD officials m u s t perform acquisition planning for                            A F M S C o m m o d i t y C o u n c i l policy is f o r t h c o m i n g . T h r o u g h
     all p r o c u r e m e n t s to e n s u r e all acquisition                        Acquisition T r a n s f o r m a t i o n , A F contracting is consolidating into
     alternatives are considered before acquiring g o o d s                            regional offices and acquisition planning by local M T F s will be
     a n d services. D o D organizations should utilize                                difficult to a c c o m p l i s h . R e c o m m e n d turning A F M S C C into
     their local contracting office to assist with early                               Medical Center o f Excellence for all m e d i c a l requirements. A r m y
10   acquisition planning.                                                17           and N a v y are also set u p this w a y .

     A.2. W e r e c o m m e n d that t h e Assistant Secretary
     of t h e Air Force (Financial M a n a g e m e n t and
     Comptroller) coordinate with the U.S. D e p a r t m e n t
     of V e t e r a n Affairs to a m e n d the "Department of
     V e t e r a n s Affairs a n d Office o f the Air Force
     S u r g e o n G e n e r a l " m e m o r a n d u m o f agreement.                  A F / S G R is responsible f o r the M O A a n d a new version is
     T h e m e m o r a n d u m of a g r e e m e n t should specify the                 currently in coordination with the Department o f V e t e r a n s Affairs.
     types of purchases that are permissible under t h e                               T h e current M O A states that the V A is t h e "preferred" method for
     i n t e r a g e n c y agreement between the D e p a r t m e n t of                contracting for services. The future policy wi11 make the
      Defense a n d t h e U.S. D e p a r t m e n t of V e t e r a n s                  C o m m o d i t y Council preferred m e t h o d of acquisition with a waiver
     Affairs; and conform to all provisions contained                                  p r o c e s s that collects information n e e d e d f o r A F M S m a n a g e m e n t
     within t h e corrective action plan d i s c u s s e d in                          T h e M O A should build m e a s u r e s to help accountability,
11    R e c o m m e n d a t i o n A. 1 . d .                              19           particularly with respect t o contract execution responsibilities.

     Air Force S u r g e o n General improperly used the
     V A ' s Austin Acquisition Office to obtain l e a s e d                           A F / S G R M h a s identified this t o the D o D I G and is w o r k i n g to
12   s p a c e through a service contract,                                20,23,24     correct this p r o b l e m .

                                                                                       Disagree with the IG's c o m m e n t that V A Austin's a d v a n c e
                                                                                       p a y m e n t s were not in c o m p l i a n c e with the intent of g o v e r n m e n t
                                                                                       policy. A F / S G R did not lose oversight of funds, and h a s been
                                                                                       able to recall f u n d s f r o m the VA. T h e f u n d s are technically
                                                                                       " a d v a n c e d " t o the V A . but are not given to t h e contractor for
     Air Force S u r g e o n General improperly funded t h e                           performance until service rendered/goods a c c e p t e d . A F / S G R
     Austin A u t o m a t i o n Center to procure services and                         monitored p a y m e n t s a n d b u m rate, and captured the unused
13   equipment.                                                           20,23        dollars back before it expires.




                                                                                  82
     For e x a m p l e , t h e Office of the A i r F o r c e S u r g e o n
     G e n e r a l sent a p p r o x i m a t e l y $3.7 million t o the V A
     on S e p t e m b e r 2 8 , 2 0 0 5 , using FY 2 0 0 5 D e f e n s e
     Health P r o g r a m F u n d s . T h e V A a c c e p t e d the
     funds o n September 28, 2005. FY 2005 Defense
     Health P r o g r a m F u n d s expired S e p t e m b e r 3 0 ,
     2 0 0 5 . T h e M I P R stated " T h e p u r p o s e of this effort
     is to p r o v i d e i n f o r m a t i o n t e c h n o l o g y Knowledge
     m a n a g e m e n t s u p p o r t to t h e M o d e r n i z a t i o n
     Directorate." T h e V A c o n t r a c t e d for B l a d e F r a m
     B a s e S y s t e m s a n d software l i c e n s e s , costing
     $ 7 1 8 , 6 0 6 , using F e d e r a l s u p p l y s c h e d u l e G S - 3 5 F -
     0 3 3 0 J . T h e V A contracting officer s i g n e d t h e
     p u r c h a s e o r d e r F e b r u a r y 16, 2 0 0 6 . T h e g o o d s
     w e r e c o m m e r c i a l i t e m s a n d t h e r e w a s no e v i d e n c e
     that a long lead-time w a s r e q u i r e d t o

     p u r c h a s e t h e s e i t e m s , or that the i t e m s w e r e                         A F / S G a g r e e s a p r e l i m i n a r y review is n e e d e d to d e t e r m i n e
     n e e d e d t o replenish the i n v e n t o r y , or that there                             w h e t h e r an A D A violation o c c u r r e d . A F / S G R b e l i e v e s that a
     w a s an u n f o r e s e e n delay in p u r c h a s i n g t h e s e                         n e e d / r e q u i r e m e n t for e a c h o f the i t e m s existed at t h e t i m e t h e y
     i t e m s . T h e Office of the Air Force S u r g e o n G e n e r a l                       w e r e o r d e r e d , t o c o r r e c t identified dificiences w i t h the O p t i m a r t
     s h o u l d c o n d u c t a p r e l i m i n a r y review t o d e t e r m i n e              N e t w o r k a n d c o m p u t i n g infrastructure s u p p o r t i n g the
14   w h e t h e r an A D A violation o c c u r r e d .                                25        A s s e s s m e n t / D e m o n s t r a t i o n Center. A F / S G Y t o review.




                                                                                            83
U.S. Department of Veterans Affairs Comments


                                 D E P A R T M E N T OF V E T E R A N S A F F A I R S
                                          Austin Automation C e n t e r
                                            1615 Woodward Street
                                                Austin TX 7 8 7 7 2




     October 26. 2007
                                                                           In Reply Refer To:   (200/00D)



     Department of Defense Inspector General
     Attn: Christine McIsaac
     Acquisition and Contract Management Directorate
     400 Army Navy Drive
     Arlington, VA 222024704

     SUBJ: Response to DoD IG Draft of a Proposed Report FY 2006 DoD Purchases Made through the
     U.S. Department of Veterans Affairs, Project No. D2006-D000CF-0244.000

     Thank you for the opportunity to comment on the subject draft report, dated September 26,2007.
     The Department of Veterans Affairs (V A) is committed to ensuring that contracts for goods and
     services on behalf of the Government comply with law and regulation.

     This response is limited to the comments regarding the acquisitions conducted by the Austin
     Automation Center (AAC), now known as the VA Corporate Franchise Data Center [CFD), under
     the BuyIT program (finding B) and does not address comments regarding the Austin Acquisition
     Office under the Office and Acquisition and Logistics. These are distinct contacting activities.

     OIG Comment (finding B. page 25): "The Austin Automation Center BuyIT.com Web site
     references an Under Secretary of Defense (Comptroller)/Chief Financial Officer September 2003
     memorandum that states, with a bona fide need, the servicing agency may retain and promptly
     obligate funds in the following fiscal year. The Austin Automation Center interpreted this outdated
     DoD guidance to mean that goods and services procured in the following year could be procured
     with the earlier year appropriation. Consequently, the Austin Automation Center procured services
     and equipment for DoD organizations in FY 2006 using expired FY 2005 O&M funds. However, in
     October 2006. DoD clarified financial management policy for assisted DoD purchases made through
     non DoD contracts."

     CFD Response: When the funds were accepted via Military Interdepartmental Purchase Request
     (MIPR) in FY 2005 and orders placed in FY 2006 (October 1, 2005 through September 30, 2006),
     the October 16, 2006 memorandum had nor been issued by DoD and the CFD followed the latest
     DoD guidance in the September 25,2003 memorandum. The CFD awarded contracts in compliance
     with the Federal Acquisition Regulation (FAR), but inconsistent with DoD guidance that was issued
     after the orders were awarded. The CFD will comply with DoD's updated guidance regarding DoD
     purchases and will utilize the guidance of the October 2006 memorandum for all future DoD
     acquisitions.




                                                        84
2.

Department of Defense Inspector General
ATTN: Christine McISaac

OIG Comment (finding B, page 26): "The Austin Automation Center collected full DoD payment
for contracts immediately after contract award and prior to contract invoicing. Therefore, the
Austin Automation Center did not follow the law or Government rules on advance payments. DoD
loses oversight of funds that the VA collects prior to the services being received.

Advance Payments. The BuyIT.gov Program Manager and Chief Acquisition Management
Services, VA Austin Automation Center, stated that the Austin Automation Center collected the full
amount of the contract and fee after contract award. To illustrate, DoD hypothetically sends
$l million (using a MIPR) to the Austin Automation Center and receives an acceptance MIPR. The
Austin Automation Center uses its own funds and completes the procurement and award. The
contracting officer reports the value of the contract to the Austin Automation Center business
support specialist and the next month the business support specialist collects through the
Intra-Governmental Payment and Collation System the full contract amount plus fee from DoD.
The VA pays the contractor as work is performed and accepted. The contracting officer certifies
invoices based on the DoD COTR acceptance of goods and services,"


CFD Response: The CFD agrees that it used the Franchise Fund, under Section 403 of the
Government Management Reform Act of 1994, Pub. L. No. 103-356, to fund the procurement of
DoD services and equipment. Also, the CFD collected full DoD payment for contracts immediately
after contract award in accordance with VA's Appropriation Act of 1997. Pub. L. No. 104-204
(1996). This statute established the VA Franchise Fund and permits advance payments for providing
common administrative services to other agencies. However, collecting the "earned" revenue
(i.e., contract award amount and acquisition service fee) is not an "advance payment" for the DoD
intergovernmental order for acquisition services. The revenue was collected after completion of the
acquisition services resulting in contract award. The CFD will comply with the DoD memorandum
issued March 1, 2007, for all new DoD acquisitions. The memorandum, dated March 1, 2007,
provided the current guidance on DoD purchases and was issued after these funding actions were
received and acquisitions awarded. The CFD requests that DoD ensure the VA is provided new
guidance as issued by DoD regarding non-DoD agencies making purchases on behalf of DoD.


Advance payments to contractors were not made. Contractor payments were made in arrears for
services or products received and accepted in accordance with Federal procurement law and
regulation.

OIG Comment (finding B. page 27): "DoD may or may not reach the funding ceiling of time-and-
material contracts. If DoD does not reach the ceiling, DoD organizations may not receive expired
funds back from the VA. as the VA has already collected full funding when the contract was
awarded."




                                              85
3.

Department of Defense Inspector General
ATTN; Chrisline Mclsaac

CFD Response: At contract completion, the CFD Business Supoort Specialist reconciles the amount
expended on the contract versus the amount collected from the customer and the CFD executes an
"Acceptance of MIPR" to return the funds. The CPD will review unexpended funds on current
contracts for return to DoD and to be billed as invoices are paid to contractors.
If you have any questions, please call me at 512-326-6000, or have a member of your staff contact
David W. Peterson, Chief, Acquisition Management Services, at 512-326-6020.

Sincerely,




JOHN RUCKER
Acting Director
Corporate Franchise Data Center




                                              86
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Terry L. McKinney
Timothy E. Moore
Steven I. Case
Christine M. McIsaac
Kevin G. Burrowes
Bethany M. Thomas
Juan C. Curet-McKary
Meredith H. Johnson
